Department of Veterans Affairs

Office of Inspector General





 Semiannual Report to Congress

 Issue 70 | April 1–S eptemb er 30, 2013
                        Message from the
                                               Inspector General
                                             I am pleased to submit this issue of the Semiannual Report to
                                             the Congress. Pursuant to the Inspector General Act of 1978, as
                                             amended, this report presents the results of our accomplishments
                                             during the reporting period April 1–September 30, 2013.
                                             Highlighted below are some of the key findings and conclusions
                                             that were the result of our work during this reporting period.

                                             The Office of Inspector General (OIG) issued 185 reports on VA
                                             programs and operations. OIG investigations, inspections, audits,
                                             evaluations, and other reviews identified over $1.93 billion in
                                             monetary benefits, for a return on investment of $39 for every
                                             dollar expended on OIG oversight. OIG investigators closed
                                             431 investigations and made 246 arrests for a variety of crimes
                                             including fraud, bribery, embezzlement, identity theft, drug
                                             diversion and illegal distribution, computer crimes, and personal
                                             and property crimes. OIG investigative work and Hotline activity
                                             oversight also resulted in 552 administrative sanctions and
                                             corrective actions.

Our Office of Investigations continues to combat fraud in VA’s Service-Disabled Veteran-Owned Small Business
(SDVOSB) Program. One case involved a supervisory engineer formerly employed by the East Orange, NJ,
VA Medical Center (VAMC), who pled guilty to various fraud charges. The guilty plea stems from a joint
investigation conducted by VA OIG, the Federal Bureau of Investigation, and the Internal Revenue Service
Criminal Investigation Division, which revealed the defendant accepted nearly $1.3 million in kickbacks over
a 5-year period. The payments were provided in exchange for his official action and influence to direct VA
construction contracts to particular companies with which he had outside relationships. The defendant falsely
represented to VA that one of those companies was a SDVOSB, and VA ultimately awarded more than $3 million
to this company. He also conspired to set up three companies that could be used to obtain VA work and then
directed more than $6 million worth of VA construction projects to those companies.

OIG’s Office of Healthcare Inspections (OHI) evaluated allegations regarding the Mental Health (MH) Service
Inpatient Unit at the Atlanta VAMC, Decatur, GA, where a complainant alleged an inpatient’s death was due
to MH service leadership’s negligence and mismanagement of unit policies, patient monitoring, and staffing, as
well as a lack of care about patients. While OIG did not substantiate the allegations of staffing mismanagement
or a lack of care about patients, OIG found the facility did not have adequate policies or practices for patient
monitoring, contraband, visitation, and urine drug screening. OIG also found inadequate program oversight,
including a lack of timely follow-up actions by leadership in response to patient incidents. OIG recommended
the Under Secretary for Health (USH) develop national policies addressing OIG’s findings and the Veterans
Integrated Service Network (VISN) and Facility Directors ensure the inpatient MH unit develops these policies,
strengthen program oversight and follow-up, improve communication with staff, and ensure functional and
well-maintained life support equipment.

At the same facility, OHI assessed allegations of mismanagement and lack of oversight of an MH contract.
OIG substantiated the mismanagement of contract administration and found facility managers did not provide

Semiannual Report to Congress                                                                               |      1
Issue 70 | April 1 – September 30, 2013
Message from the
            Inspector General

adequate staffing, training, resources, support, or guidance for effective oversight of contracted MH patient care.
The lack of effective patient care management and program oversight led to problems with MH care access and
“patients falling through the cracks.” OIG recommended the USH rectify the deficiencies identified with respect
to the provision of quality MH care and contract management, with the goal that Veterans receive the highest
quality medical care from either VA or its partners.

OHI also conducted a review at the William Jennings Bryan Dorn VAMC in Columbia, SC, to determine
whether deficient practices contributed to or caused delays in care, and whether facility leaders appropriately
addressed clinical managers’ concerns. In December 2011, the facility had a Gastroenterology (GI) consult
backlog which had grown to 3,800 delayed consults. After having difficulty in reducing the backlog, an adverse
event in May 2012 prompted facility, VISN, and Veterans Health Administration (VHA) leaders to reevaluate
the GI backlog situation and initiate efforts to eliminate it by October 2012. A review of the GI consult backlog
revealed 52 of 280 patients diagnosed with GI malignancies were associated with a delay in diagnosis and
treatment. OIG found several factors contributed to the GI consult backlog and hindered reduction efforts.
Though the GI consult backlog has been resolved, continued vigilance is needed to prevent reoccurrence.

The Office of Audits and Evaluations assessed VHA’s management of non-institutional purchased home care
services. Under purchased home care, contract agencies provide Veterans with home health aides or other
skilled care services in their homes. OIG estimated VHA’s waiting lists did not include at least 49,000 Veterans
who had purchased home care needs in fiscal year 2012 and projected that 114 VA medical facilities limited
access to purchased home care services through the use of more restrictive eligibility criteria than required
by VHA policy, and by applying nonstandard review processes and relying upon inaccurate and nonstandard
eligibility information. OIG also found VA facilities did not use required waiting lists to track eligible Veterans.
In general, program management lacked standardization in both implementation and oversight. This severely
affected the care received by Veterans and sometimes resulted in the denial of care. Without actions to
strengthen controls, VHA could pay ineligible contract agencies approximately $893.5 million and make just
over $13.2 million in improper payments over the next 5 years.

After 44 years of Federal service, I have decided to retire effective December 31, 2013. The last 8 years leading
the dedicated men and women of the VA Office of Inspector General have been among the most personally
rewarding of my career. At a time when Americans are asking for more efficient Government programs,
reductions in waste, and greater accountability, we can all be proud that in these 8 years, OIG has achieved
$21.3 billion in monetary impact, either through recommendations to VA in program efficiencies or in
criminal fines, penalties, and sanctions representing a return on investment of $31 for every dollar invested in
the OIG’s budget. I want to express my deepest gratitude for the unwavering dedication of OIG employees in
accomplishing our mission and identifying opportunities for improvement within VA. I also wish to express my
appreciation to and respect for Secretary Shinseki and former Secretaries Peake and Nicholson, who supported
the OIG’s work as an independent oversight organization. Our tasks are different, but we are all committed to
improving the lives of America’s Veterans.



GEORGE J. OPFER
Inspector General


2   |                                                                             VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                             Statistical
                                                                Highlights
                                          6-Month Fiscal                                                     6-Month       Fiscal
  Monetary Impact (in Millions)                                           Investigative Activities
                                            Total   Year                                                       Total        Year
 Better Use of Funds                      $1,559.1 $1,855.6         Arrests4                                    221         440
 Fines, Penalties, Restitutions,                                    Fugitive Felon Arrests                       25          58
                                             $17.4       $737.0
 and Civil Judgments                                                Fugitive Felon Arrests made
 Fugitive Felon Program                      $57.1       $150.6     by Other Agencies with OIG                   12          41
 Savings and Cost Avoidance                 $170.1       $695.6     Assistance
 Questioned Costs                           $122.8       $127.9     Indictments                                 158         310
 Dollar Recoveries                            $7.4    $23.7         Criminal Complaints                          73         148
 Total Dollar Impact                      $1,933.9 $3,590.4         Convictions                                 169         373
 Cost of OIG Operations1                     $49.2    $98.4         Pretrial Diversions and Deferred
                                                                                                                 26          47
                                                                    Prosecutions
 Return on Investment2                        39:1     36:1
                                                                    Administrative Investigations
 1 The 6-month and fiscal year operating costs for the Office of
                                                                                                                  9          21
                                                                    Opened
 Healthcare Inspections ($10.3 and $20.6 million, respectively),
 whose oversight mission results in improving the health care
                                                                    Administrative Investigations
                                                                                                                  9          20
 provided to Veterans rather than saving dollars, is not included   Closed
 in the return on investment calculation.                           Advisory Memos Issued                         4          9
 2 Calculated by dividing Total Dollar Impact by Cost of OIG
 Operations.
                                                                    Administrative Memos Issued                   7          16
                                                                    Administrative Sanctions and
                                                                                                                206         411
                                                                    Corrective Actions
                                6-Month                 Fiscal
           Reports Issued                                           Cases Opened5                               402         881
                                  Total                  Year
                                                                    Cases Closed6                               431         921
 Audits and Evaluations                14
                    32

                                                                    4 Figure does not include Fugitive Felon arrests by OIG or

 Benefits Inspections                  16                     20    other agencies.

 National Healthcare Reviews           10
                    14
   5 & 6 Figures include administrative investigations opened/

                                                                    closed.
 Hotline Healthcare Inspections        21                     44
 Combined Assessment
                                                                                        6-Month       Fiscal
                                       36
                    67
   Healthcare Inspections Activities
 Program Reviews
                                                                                              Total        Year
 Community Based Outpatient
                                       35                     49    Clinical Consultations                       2           2
 Clinic Reviews3
                                                                    Administrative Case Closures
                11          22
 Administrative Investigations          1                      3
 Preaward Contract Reviews             34                     83                                             6-Month       Fiscal
 Postaward Contract Reviews            16                     33             Hotline Activities
                                                                                                               Total        Year
 Claim Reviews                          2                      4    Contacts                                  14,146       27,420
 Total Reports Issued                185                     349    Cases Opened                               616          1,227
 3 Encompassing 194 and 259 facilities for the 6-month and          Cases Closed                               614         1,190
 fiscal year periods, respectively.
                                                                    Administrative Sanctions and
                                                                                                                346         704
                                                                    Corrective Actions
                                                                    Substantiation Percentage Rate               39          40


Semiannual Report to Congress                                                                                                  |    3
Issue 70 | April 1 – September 30, 2013
                                   Ta b l e o f
                                                     Contents
        Message frfrom the IInnsp
                                speector Ge
                                         General                                                     1
        Statistical H
                    Hiighlig
                          ligh
                             hts                                                                     3
        Table of
               of Contents                                                                           4
        Reportin
        Repo   tingg Re
                     Reqquirements                                                                   6
        VA and OIOIG MiMission, Organization, an and Reso
                                                     Resources                                       8
            Department of Veterans Affairs                                                           8
            VA Office of Inspector General                                                           8
            OIG Field Offices Map                                                                    9
            OIG Organizational Chart                                                                10
               of Healthcar
        Office of   althcare Insp
                               speections
                                    tion                                                            11
            Combined Assessment Program Reviews                                                     11
            Community Based Outpatient Clinic Reviews                                               13
            National Healthcare Reviews                                                             13
            Hotline Healthcare Inspections                                                          15
        Office of
               of Audits an
                         and Ev
                             Evaluation
                                aluations                                                           23
            Veterans Health Administration Audits and Evaluations                                   23

            Veterans Benefits Administration Audits and Evaluations                                 24

            Veterans Benefits Administration Benefits Inspections                                   26

            National Cemetery Administration Audit and Evaluation                                   27

            Other Audits and Evaluations                                                            28

            Federal Information Security Management Act Compliance                                  31
            Federal Financial Management Improvement Act of 1996 Compliance                         31
        Office of Investigation
                      stigations                                                                    32
            Veterans Health Administration Investigations                                           32
            Veterans Benefits Administration Investigations                                         40
            Other Investigations                                                                    48
            Assaults and Threats Made Against VA Employees                                          54
            Fugitive Felons Arrested with OIG Assistance                                            56
            Administrative Investigation                                                            57
        Office o
               off Manag
                     nageement
                          ment and Administration
                                   Administration                                                   58
            Operations Division                                                                     58
            Information Technology and Data Analysis Division                                       58
            Administrative and Financial Operations Division                                        58
            Budget Division                                                                         58
            Hotline Division                                                                        58
        Office of
               of Contract Review
                           Review                                                                   60
            Preaward Reviews                                                                        60

            Postaward Reviews                                                                       60

            Claim Reviews                                                                           61

        Other SSiignifica
                  gnifican
                         nt OIG A
                                Acctivities                                                         62
            Congressional Testimony                                                                 62
            False Claims Act Settlements                                                            63

                                                                                        (continued on next page)


4   |                                                                         VA Office of Inspector General
                                                                              Issue 70 | April 1 – September 30, 2013
                                                                                          Ta b l e o f
                                                                                                 Contents

                    American Recovery and Reinvestment Act of 2009 Oversight Activities        63

                    Peer and Qualitative Assessment Reviews                                    64

                    Government Contractor Audit Findings                                       65

                    IG Act Reporting Requirements Not Elsewhere Reported                       65

                    Employee Recognition                                                       65

               Appendix A: L
                           Liist of
                                 of Repo
                                    Reports Is
                                            Issued
                                              sued                                             69

               Appendix B: Unimp
                           Unimplement
                                    lemented Repo
                                              Reports an
                                                      and Recommendation
                                                          Recommendations                      78
                                                                                               78





Semiannual Report to Congress                                                                            |   5
Issue 70 | April 1 – September 30, 2013
                                   Reporting
                                                   Requirements
The table below identifies the sections of this report that address each of the reporting requirements prescribed 

by the Inspector General Act of 1978, as amended.


                       Reporting Requirements                                        Section(s)
 § 4 (a) (2) to review existing and proposed legislation and       Other Significant OIG Activities
 regulations and to make recommendations concerning the
 impact of such legislation or regulations on the economy,
 efficiency, or the prevention and detection of fraud and
 abuse in the administration of programs and operations
 administered or financed by VA
 § 5 (a) (1) a description of significant problems, abuses, and   Office of Healthcare Inspections
 deficiencies relating to the administration of VA programs and   Office of Audits and Evaluations
 operations disclosed during the reporting period                 Office of Investigations
                                                                  Office of Management and Administration
                                                                  Office of Contract Review
                                                                  Other Significant OIG Activities
 § 5 (a) (2) a description of the recommendations for corrective Office of Healthcare Inspections
 action made during the reporting period                          Office of Audits and Evaluations
                                                                  Office of Investigations
                                                                  Office of Contract Review
 § 5 (a) (3) an identification of each significant recommendation Appendix B
 described in previous semiannual reports on which corrective
 action has not been completed
 § 5 (a) (4) a summary of matters referred to prosecutive         Office of Investigations
 authorities and the prosecutions and convictions which have
 resulted
 § 5 (a) (5) a summary of instances where information or          Other Significant OIG Activities
 assistance requested is refused or not provided
 § 5 (a) (6) a listing, subdivided according to subject matter,   Appendix A
 of each audit report issued during the reporting period,
 including the total dollar value of questioned costs and the
 dollar value of recommendations that funds be put to better
 use
 § 5 (a) (7) a summary of each particularly significant report    Office of Healthcare Inspections
                                                                  Office of Audits and Evaluations
                                                                  Office of Investigations
                                                                  Office of Contract Review

 § 5 (a) (8) and (9) Statistical tables showing the total number   Appendix A

 of reports and the total dollar value of both questioned costs
 and recommendations that funds be put to better use by
 management

                                                                                           (continued on next page)


6   |                                                                            VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                                           Reporting
                                                                                                  Requirements
                         Reporting Requirements                                     Section(s)
 § 5 (a) (10) a summary of each audit report issued before         Appendix A
 the commencement of the reporting period for which no
 management decision has been made by the end of the
 reporting period
 § 5 (a) (11) a description and explanation of the reasons for     Appendix A
 any significant revised management decision made during the
 reporting period
 § 5 (a) (12) information concerning any significant               Appendix A
 management decision with which the Inspector General is in
 disagreement
 § 5 (a) (13) the information described under section 05(b) of     Office of Audits and Evaluations
 the Federal Financial Management Improvement Act of 1996
 § 5 (a) (14) an appendix containing the results of any peer       Other Significant OIG Activities
 review conducted by another OIG during the reporting period
 or a statement identifying the date of the last peer review
 conducted by another OIG
 § 5 (a) (15) a list of any outstanding recommendations from       Other Significant OIG Activities
 any peer review conducted by another OIG that have not been
 fully implemented
 § 5 (a) (16) a list of any peer reviews conducted by the VA OIG   Other Significant OIG Activities
 of another OIG during the reporting period and a list of any
 recommendations made from any previous peer review that
 remain outstanding or have not been fully implemented




Semiannual Report to Congress                                                                             |   7

Issue 70 | April 1 – September 30, 2013
                   VA a n d O I G M i s s i o n ,
                           Organization, and Resources
Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and compassion and to
be their principal advocate in ensuring that they receive the care, support, and recognition earned in service to
the Nation. The VA motto comes from Abraham Lincoln’s second inaugural address, given March 4, 1865, “to
care for him who shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest Federal
employer. For fiscal year (FY) 2013, VA is operating under a $135.5 billion budget, with over 331,000
employees serving an estimated 22.3 million living Veterans. To serve the Nation’s Veterans, VA maintains
facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico, Guam, the Republic of the
Philippines, and the U.S. Virgin Islands.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides health
care, the Veterans Benefits Administration (VBA) provides monetary and readjustment benefits, and the
National Cemetery Administration (NCA) provides interment and memorial benefits. For more information,
please visit the VA internet home page at www.va.gov.


VA Office of Inspector General
The Office of Inspector General (OIG) was administratively established on January 1, 1978, to consolidate audits
and investigations into a cohesive, independent organization. In October 1978, the Inspector General Act, Public
Law (P.L.) 95-452, was enacted, establishing a statutory Inspector General (IG) in VA. It states that the IG is
responsible for: (1) conducting and supervising audits and investigations; (2) recommending policies designed
to promote economy and efficiency in the administration of, and to prevent and detect criminal activity, waste,
abuse, and mismanagement in VA programs and operations; and (3) keeping the Secretary and Congress fully
informed about problems and deficiencies in VA programs and operations and the need for corrective action.
The IG has authority to inquire into all VA programs and activities as well as the related activities of persons or
parties performing under grants, contracts, or other agreements. Inherent in every OIG effort are the principles
of quality management and a desire to improve the way VA operates by helping it become more customer-driven
and results-oriented.

OIG, with 612 employees from appropriations, is organized into three line elements: the Offices of
Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review office and a support
element. FY 2013 funding for OIG operations provides $114.8 million from ongoing appropriations. The Office
of Contract Review, with 29 employees, received $4.2 million through a reimbursable agreement with VA
for contract review services including preaward and postaward contract reviews and other pricing reviews of
Federal Supply Schedule, construction, and health care provider contracts. In addition to the Washington, DC,
headquarters, OIG has field offices located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA programs and the
opportunities for improvement. In doing so, OIG staff strive to be leaders and innovators, and to perform their
duties fairly, honestly, and with the highest professional integrity. For more information, please visit the OIG
internet home page at www.va.gov/oig.





8   |                                                                            VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                          VA a n d O I G M i s s i o n ,
                                                   Organization, and Resources
OIG Field Offices Map





Semiannual Report to Congress                                              |   9
Issue 70 | April 1 – September 30, 2013
                         10
                                                                                                                                                                                                                                                                                                                             Office of Contract Review
                                                                                                                                                                                                                     Inspector General




                         |
                                                                                                Congressional                                     Special Assistant to the                                           ______________                                           Counselor to the
                                                                                                  Relations                                         Inspector General                                                                                                        Inspector General
                                                                                                                                                                                                                  Deputy Inspector General
                                                                                                                                                                                                                                                                                                                            Information Release Office




                                                                                                      Assistant Inspector General                                            Assistant Inspector General
                                                                                                             Investigations                                                    Audits and Evaluations                                             Assistant Inspector General                                   Assistant Inspector General
                                                                                                                                                                                                                                                Management and Administration                                     Healthcare Inspections
                                                                                                                                                                                                                                               ____________________________                                ________________________________
                                                                                          Deputy Assistant                 Deputy Assistant                        Deputy Assistant                 Deputy Assistant
                                                                                         Inspector General                Inspector General                       Inspector General                Inspector General                           Deputy Assistant Inspector General                            Deputy Assistant Inspector General
                                                                                           Investigations                   Investigations                      Audits and Evaluations           Audits and Evaluations
                                                                                          (HQ Operations)                 (Field Operations)                       (HQ Operations)                 (Field Operations)
                                                                                                                                                                                                                                                                                                                                                                                                                            VA a n d O I G M i s s i o n ,




                                                                                                                                           NortheastFieldOffice
                                                                                                            Criminal                            Newark,NJ                                Operations Divisions          Operations Divisions
                                                                               Analysis and              Investigations                  (Bedford,MA;Buffalo,NY;                          Dallas, TX                                                                                                                               Program Administration
                                                                                                                                                                                                                           Atlanta, GA                         Operations                        Consultation and Medical
                                                                               Oversight                                                     Manchester,NH;                              Washington, DC                                                                                                                                      and
                                                                                                                                                                                                                          Bay Pines, FL                                                                  Review
                                                                                                                                            NewYorkCity,NY)                                                             Bedford, MA                                                                                                    Special Projects
                                                                                                                                                                                                                                                                                                                                                                  OIG Organizational Chart





                                                                                                                                                                                                                           Chicago, IL
                                                                                                                                                                                                                         Kansas City, MO
                                                                                                                                                                                                                                                                                                                                                                                              Organization, and Resources




                                                                                                                                          Mid-AtlanticFieldOffice                                                     Los Angeles, CA
                                                                                                            Benefits                                                                      Benefits Inspection
                                                                                                                                              Washington,DC                                                               Seattle, WA
                                                                                                             Fraud                                                                         (Bay Pines, FL;                                               Information Technology
                                                                                                                                              ($VKHYLOOH1&
                                                                                                                                                                                           San Diego, CA)                                                   and Data Analysis                          Healthcare
                                                                                                                                              Columbia,SC;                                                                                                                                                                                   Biostatistics
                                                                                                                                             Fayetteville,NC;                                                                                                                                     Financial Analysis
                                                                               Administrative
                                                                                                                                              Pittsburgh,PA)
                                                                               Investigations

                                                                                                       Computer Crimes                     SoutheastFieldOffice                    Information Technology
                                                                                                        and Forensics                          BayPines,FL                               and Security Audits                                             Administrative and
                                                                                                                                                                                               (Austin, TX;                                               Financial Operations                                                              Community Based
                                                                                                                                        (Atlanta,GA;Nashville,TN;                                                                                                                             Combined Assessment
                                                                                                                                                                                             Washington, DC)                                                                                                                                Outpatient Clinics/
                                                                                                                                              Tallahassee,FL;                                                                                                                                          Program
                                                                                                                                                                                                                                                                                                                                              Vet Centers
                                                                                                                                          WestPalmBeach,FL)


                                                                                                          Health Care                       CentralFieldOffice
                                                                                                            Fraud                                                                               Financial
                                                                                                                                                Chicago,IL                                      Audits                                                          Hotline
                                                                             Investigative Data
                                                                                                                                       (Cleveland,OH;Denver,CO;
                                                                                Systems and                                                                                                                                                                                                                              Regional Offices
                                                                                                                                            KansasCity,MO)
                                                                                  Analysis                                                                                                                                                                                                                                 Atlanta, GA
                                                                                                                                                                                                                                                                                                                          Baltimore, MD
                                                                                                                                         SouthCentralFieldOffice                        Special Projects                                                                                                              Bay Pines, FL
                                                                                                                                                Dallas,TX                                                                                                                                                                 Bedford, MA
                                                                                                         Fugitive Felon
                                                                                                                                        (Houston,TX;Jackson,MS;                                                                                                                                                        Chicago, IL
                                                                                                           Program
                                                                                                                                             LittleRock,AR                                                                                                   Budget                                                     Dallas, TX
                                                                                                                                            1HZ2UOHDQV/$)                                  Management                                                                                                                   Denver, CO
                                                                                                                                                                                               Operations                                                                                                                Kansas City, MO
                                                                                                                                           NorthwestFieldOffice                                                                                                                                                        Los Angeles, CA
                                                                                   Legal                   Forensic                          SanFranciscoCA                                                                                                                                                            San Diego, CA
                                                                                  Counsel                 Document
                                                                                                          Laboratory                   (6DFUDPHQWR&$Seattle,WA;                                                                                                                                                      Seattle, WA
                                                                                                                                                                                                  Audit
                                                                                                                                              Spokane,WA)                                                                                                                                                               Washington, DC
                                                                                                                                                                                                Planning


                                                                                                                                               Western Field Office
                                                                                                                                                Los Angeles, CA                                 Quality
                                                                                                                                                (Las Vegas, NV;                                Assurance
                                                                                                                                                  Phoenix, AZ;
                                                                                                                                                 San Diego, CA)

                                                                                                                                                                                         Statistical Operations




                                                                                                                                                                                                                                                                                                                    INSPECTOR GENERAL
                                                                                                                                                                                                                                                                                                                  Department of Veterans Affairs


                                                                           //2013




Issue 70 | April 1 – September 30, 2013
                                          VA Office of Inspector General
                              Office of
                                          Healthcare Inspections
The health care that VHA provides Veterans is ranked consistently among the best in the Nation, whether
those Veterans are recently returned from Operations Enduring Freedom, Iraqi Freedom, or New Dawn, or
are Veterans of other periods of service with different patterns of health care needs. OIG oversight helps VHA
maintain a fully functional program that ensures high-quality patient care and safety and safeguards against the
occurrence of adverse events. The OIG Office of Healthcare Inspections (OHI) focuses on quality of care issues
in VHA and assesses medical outcomes. During this reporting period, OIG published 10 national healthcare
reviews; 21 Hotline healthcare inspections; 36 Combined Assessment Program (CAP) reviews; and
35 Community Based Outpatient Clinic (CBOC) reviews, covering 194 facilities, to evaluate the quality of
Veteran care. All reports issued this reporting period are listed in Appendix A.


Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to Veterans. CAP
reviews provide cyclical oversight of VHA health care facilities. Their purpose is to review selected clinical and
administrative operations and to conduct crime awareness briefings. OIG also administers an employee survey
prior to each CAP visit, which provides employees the opportunity to confidentially share safety and quality
concerns. During this reporting period, OIG issued 36 CAP reports. Topics reviewed in a facility CAP may
vary based on the facility’s mission and generally run for 6–12 months. The topics covered this reporting period
include: Quality Management (QM), Environment of Care, Medication Management (Controlled Substances
Inspections), Coordination of Care (Hospice and Palliative Care), Pressure Ulcer Prevention and Management,
Nurse Staffing, and Construction Safety. When findings warrant more global attention, summary or “roll
up” reports are prepared at the conclusion of a topic’s use. During this reporting period, OIG issued six CAP
summary reports.

CAP Review Summary Report Recommends Three Ways To Improve QM at VA Medical Centers
OIG completed an evaluation of QM in VHA facilities for FY 2012. The purposes of the evaluation were to
determine whether VHA facilities had comprehensive, effective QM programs designed to monitor patient care
activities and coordinate improvement efforts, and whether VHA facility senior managers actively supported
QM efforts and appropriately responded to QM results. OIG conducted this review at 54 facilities during
CAP reviews performed from October 1, 2011, through September 30, 2012, and identified 3 areas where VHA
facilities needed to improve compliance. OIG recommended that Facility Directors and Patient Safety Officers
sit on the high-level committees that review QM results, that completed corrective actions related to peer reviews
be reported to the Peer Review Committee, and that Focused Professional Practice Evaluations (FPPEs) for
newly hired licensed independent practitioners be initiated and completed and that the results be reported to the
Medical Executive Committee.

CAP Review Summary Report Recommends Improvements in Post-Discharge Follow-Up for
Mental Health Patients
OIG completed an evaluation of continuity of care for mental health (MH) patients at VHA facilities. The
purpose of the evaluation was to determine whether patients who were discharged from acute MH units received
timely follow-up. OIG conducted this review at 24 facilities during CAP reviews performed from April 1
through September 30, 2012, and identified 2 areas where VHA facilities needed to improve compliance. OIG
recommended that facilities take action to improve post-discharge follow-up for MH patients, particularly those
who were identified as high risk for suicide, and that clinicians consistently follow up with patients who do not
report to their scheduled MH appointments and that all of these contacts be documented.


Semiannual Report to Congress                                                                                |   11
Issue 70 | April 1 – September 30, 2013
Office of
           Healthcare Inspections
CAP Review Summary Report Recommends VHA Fully Implement Nurse Staffing Methodology
OIG completed an evaluation of nurse staffing in VHA facilities. The purpose of the evaluation was to
determine the extent to which VHA facilities implemented the staffing methodology for nursing personnel and
to evaluate nurse staffing on one selected acute care unit. OIG conducted this review at 27 facilities during CAP
reviews performed from April 1 through September 30, 2012, and identified 2 areas where VHA facilities needed
to improve compliance. OIG recommended that all facilities fully implement the staffing methodology and
complete all required steps, and improve processes to use the available data to manage and provide safe, cost­
effective staffing.

OIG Makes Three Recommendations to Improve the Safe Provision of Moderate Sedation
OIG completed an evaluation of moderate sedation in VHA facilities. The purpose of the evaluation was to
determine whether VHA facilities used safe processes for the provision of moderate sedation that complied with
selected requirements. OIG conducted this review at 44 facilities during CAP reviews performed from
October 1, 2011, through September 30, 2012, and identified 3 areas where VHA facilities needed to improve
compliance. OIG recommended that clinicians consistently document all required elements of comprehensive
pre-procedure assessments; that when there is a provider change, clinicians consistently document that the
patient was informed of and agreed to the change; and that clinicians consistently discharge moderate sedation
patients appropriately and safely.

CAP Summary Report Recommends Four Ways VA Can Improve Detection of Colon Cancer
OIG completed an evaluation of colorectal cancer (CRC) screening and follow-up activities in VHA facilities.
The purpose of the evaluation was to follow up on OIG’s report, Healthcare Inspection – Colorectal Cancer
Detection and Management in Veterans Health Administration Facilities (Report No. 05-00784-76,
February 2, 2006) and to assess the effectiveness of VHA’s CRC screening program. OIG evaluated
CRC screening, follow-up diagnostic testing, and patient results notification at 53 facilities during CAP reviews
performed from October 1, 2011, through September 30, 2012, and identified 4 areas that needed improvement.
OIG recommended that clinicians: (1) communicate positive CRC screening test, diagnostic test, and biopsy
results to patients within 14 days and document notification in the electronic health record (EHR); (2) document
follow-up plans or document that no follow-up is warranted within 14 days of positive CRC screening results;
(3) discuss diagnostic testing options with patients and ensure desired testing is performed within 60 days of the
positive CRC screening results; and (4) complete general or surgical evaluations within 30 days of positive
CRC pathology.

OIG Identifies Five Areas for Improvement in VHA Polytrauma Care
OIG completed an evaluation of polytrauma care in VHA facilities. The purpose of the evaluation was to
determine whether VHA facilities complied with selected requirements related to screening, evaluation, and
coordination of care for patients affected by polytrauma. OIG evaluated polytrauma care at 57 facilities during
reviews conducted from October 1, 2011, through September 30, 2012. Fifty-four facilities had CAP reviews, and
separate visits were made to three facilities. OIG identified five areas where VHA facilities needed to improve
compliance. OIG recommended that: (1) VHA perform a detailed analysis of workload and resource use to
determine whether there is continued need for the numbers of sites at the current levels and whether changes in
the requirements for dedicated polytrauma resources are needed; (2) Level IV sites performing comprehensive
traumatic brain injury (TBI) evaluations have approved alternate plans; (3) clinicians consistently complete TBI
evaluations within 30 days of positive screens; (4) the case management process meets requirements; and (5) staff
caring for polytrauma patients have the documented competencies required for caring for these patients.



12   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                            Office of
                                                                                       Healthcare Inspections
Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany HR 6599, Military Construction, Veterans Affairs, and
Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review of VHA CBOCs. The purpose
of the cyclical reviews is to assess whether CBOCs are operated in a manner that provides Veterans with
consistent, safe, high-quality health care in accordance with VA policies and procedures. The CBOC inspection
process consists of four components: CBOC site-specific information gathering and review, medical record
reviews for determining compliance with VHA performance measures, onsite inspections, and CBOC contract
review. During this reporting period, OIG performed 194 CBOC reviews throughout 17 Veterans Integrated
Service Networks (VISNs). These reviews were captured in 35 reports, listed in Appendix A. The topics covered
this reporting period include: Environment of Care, Emergency Management, Vaccinations (Tetanus and
Pneumococcal Vaccines), Women’s Health (Cervical Cancer Screening), and Credentialing and Privileging
and Scopes of Practice. A roll up report for the CBOCs reviewed in FY 2012 was also published during this
reporting period and is included below.

OIG’s Review of 92 VA Clinics Results in 10 Recommendations for Improvement
The purpose of OIG’s evaluation was to assess if CBOCs provide Veterans with consistent, safe, and high-quality
health care. OIG performed this review with inspections of 92 VHA CBOCs during FY 2012. These inspected
CBOCs are a statistical sample of all VHA CBOCs with more than 500 patients aligned under selected parent
VA facilities. OIG’s review focused on four components: (1) FY 2012 CBOC-specific information gathering and
review; (2) EHR reviews of care performed in FY 2011 for determining compliance with VHA policies;
(3) on-site environment of care and emergency management inspections during FY 2012; and (4) CBOC contract
reviews of quarter 3 of FY 2011. OIG recommended that: (1) CBOC clinicians document foot care education
provided to diabetic patients in the EHR; (2) CBOC clinicians perform risk assessments and document risk levels
for diabetic patients in the EHR; (3) CBOC clinicians document referrals for preventative foot care, including
foot wear, as clinically indicated, for patients with diabetes in the EHR; (4) CBOC managers establish a process
to consistently link breast imaging and mammography results to the appropriate radiology mammogram
or breast study order for all fee basis and contract patients; (5) CBOC managers establish a process to notify
patients of normal mammogram results within the allotted timeframe and that notification is documented
in the EHR; (6) service chiefs’ documentation in VetPro reflects documents reviewed and the rationale for
privileging or re-privileging CBOC providers; (7) Facility Directors grant privileges consistent with the services
provided at the CBOCs; (8) adequate resources and controls are in place to address deficiencies in the invoice
validation process and to reduce the risk of overpayments; (9) the oversight of the contract acquisition process
is compliant with VA Directives, including a thorough pre-award review and interim contract authority prior to
contract approval; and (10) all new CBOCs undergo the required contract approval processes prior to initiating
operations.


National Healthcare Reviews
Review Finds Legionella Prevention Compliance Varies Across VA System, OIG Makes Four
Recommendations for Improvement
OIG conducted a review to assess how VHA medical facilities manage prevention of Legionnaires’ Disease (LD)
at the request of the VA Secretary, Senator Robert P. Casey, Jr., Congressman Tim Murphy, and the Chairmen
and Ranking Members of the House Committee on Veterans’ Affairs and the Senate Committee on Veterans’
Affairs. VHA Directive 2008-010, Prevention of Legionella Disease, outlines specific measures that VA facilities
should follow to monitor and reduce Legionella in the water distribution system.

Semiannual Report to Congress                                                                               |   13
Issue 70 | April 1 – September 30, 2013
Office of
           Healthcare Inspections
OIG found that compliance with the directive was variable. VHA is currently in the process of revising
Directive 2008-010. OIG recommended that the Under Secretary for Health (USH) address the reported
compliance issues when revising the directive and provide a plan that simplifies and monitors its
implementation. VHA Directive 2008-010’s risk stratification criteria are based at the facility level and focus
on transplant facilities. OIG recommended that the USH consider re-evaluation of the current stratification
of facilities that focuses on transplant status. OIG also recommended that the USH institute a national-level
water safety committee that will provide expert and technical assistance for collaborative decision-making at
the local level in the control and prevention of waterborne disease. The USH concurred with the findings and
recommendations and provided an acceptable action plan.

National Review Finds No Widespread Systemic Reuse of Insulin Pens on Multiple Patients
OIG conducted an inspection to evaluate how VHA followed up on the inappropriate use of insulin pens at
the VA Western New York Healthcare System (HCS), Buffalo, NY, and to determine what controls VHA has
in place to minimize the risk of other incidents involving insulin pens and similar devices. OIG conducted
the inspection at the request of the Ranking Member, Senate Committee on Veterans’ Affairs. Although two
other VHA facilities reported isolated incidents of nurses using insulin pens on multiple patients, OIG found no
evidence of widespread, systemic reuse of insulin pens on multiple patients. Further, OIG found that
VHA has processes in place to identify important patient safety alerts and disseminate this information
to facility managers, and numerous policies and procedures in place to address infection prevention. OIG
recommended that the USH implement procedures to ensure that future VHA internal assessments
resulting from adverse events include clear guidance to facilities on minimal required steps and supporting
documentation; require facilities to develop processes for assessing the risks and benefits of adopting new
medical products or devices that may require significant changes in nursing procedures; and ensure that facility
nursing education departments are sufficiently staffed to provide comprehensive and ongoing nursing education,
especially when adopting new medical products or devices that may significantly change nursing procedures.
The USH concurred with our findings and recommendations and provided an acceptable action plan.

OIG Makes Four Recommendations to Improve Contracted Counseling Services at Vet Centers
OIG completed an evaluation of Vet Center contracted counseling services. The purpose of the evaluation
was to: (1) determine if VA required contractors to complete specific components of client documentation in
accordance with Readjustment Counseling Service (RCS) policy, (2) determine if managers provided appropriate
oversight for the contracted clinicians’ required client documentation, (3) assess the management and oversight
of contracted care based on compliance with the contract, and (4) determine if invoicing practices complied with
RCS contract requirements. OIG conducted onsite and remote reviews for a random sample of 30 Vet Centers
during the weeks of June 11 and 18, 2012, and reviewed psychosocial assessments and initial treatment plans for
clients who received contracted counseling services during the study period from April 1, 2011, through
March 31, 2012. OIG identified six areas where Vet Centers needed improvement. OIG recommended that
team leaders (1) receive, review, and approve psychosocial assessments and counseling plans prior to authorizing
contracted counseling services; (2) conduct and document client assessments after 1 year of eligibility for
contracted client services; (3) conduct annual onsite quality reviews for contractors who participate in the
Contract for Fee Program; and (4) authorize contracted counseling services in accordance with RCS and
VHA policy. OIG also recommended that RCS use a standard template that includes terms and conditions
that are consistent with those in the RCS policy and maintains and monitors counseling service contracts in
accordance with RCS and VHA policy.




14   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                             Office of
                                                                                        Healthcare Inspections
Hotline Healthcare Inspections
Review Shows Use of Camera for Patient Safety Concerns Reasonable at Tampa VA Medical Center
At the request of several members of Congress, OIG initiated a review that a hidden camera was placed in a
brain-damaged patient’s room without next-of-kin consent. In June 2012, the patient’s family became aware of a
video surveillance camera (VSC) in a smoke-detector-like cover that had been placed in the patient’s room.
The patient’s family was aware when the VSC was activated 3 days after installation. OIG concluded that the use
of the camera for patient safety concerns was reasonable. OIG conducted a survey of VSC usage in VHA health
care facilities. VHA requires VSCs in MH Residential Rehabilitation Treatment Program (RRTP) facilities,
pharmacy vaults and controlled substances storage areas, childcare facilities, and canteens. VSCs are standard
in high traffic areas such as parking lots, building entrances, waiting rooms, stairwells, and research areas.
VSCs were reported in clinical areas such as: MH Units, Emergency Departments (EDs), Intensive Care Units
(ICUs), and Geriatrics/Extended Care Units. Half of the respondents had posted signs that VSCs were in use.
No facility reported current use of a hidden camera. Seven facilities employed hidden VSCs in the past for law
enforcement and/or suspected criminal activity. Ten medical centers reported current use of VSCs with audio
capability in police interview rooms; sleep laboratories; MH seclusion rooms; and in the common area of the
VA Manila, PI, Outpatient Clinic located on U.S. Embassy property. OIG recommended that the USH ensure
that VHA policy addresses the clinical uses of covert and overt VSCs in a clinical setting, including public
notification, informed consent, approval, and responsibility for use of these devices, as well as detail procedures
for staff to follow in obtaining video recordings for teaching, patient care and treatment, patient safety, health
care operations, general security, and law enforcement purposes. Restrictions on the use of personal electronic
devices within a VA facility to photograph and video should also be considered. The USH concurred with
OIG’s recommendation and provided an acceptable action plan.

OIG Review Finds Six Factors Contributed to Misuse of Insulin Pens at Buffalo, New York, Facility
OIG conducted an inspection to evaluate the circumstances surrounding the reported inappropriate use of
insulin pens at the VA Western NY HCS, Buffalo, NY. OIG conducted the inspection at the requests of the
Chairmen and Ranking Members of the House Committee on Veterans’ Affairs and the Senate Committee on
Veterans’ Affairs, Senator Charles Schumer, and Congressmen Brian Higgins and Chris Collins. This report
addresses questions raised by Members of Congress regarding the specific circumstances at the HCS.
OIG issued a separate report addressing broader questions pertaining to insulin pen use at other facilities, as
well as VHA oversight and follow-up, which can be found under the National Healthcare Reviews section.
OIG recommended that the USH finalize VHA’s Clinical Operations Guideline for “Implementation of a Large
Scale Disclosure Decision” and that the VISN Director review the facts that led to the misuse of insulin pens
and take appropriate administrative action. OIG also recommended that the Facility Director implement a
process to ensure the HCS’s Medication Use, Nursing Practice, and Commodity Standards Committees and
other relevant leadership evaluate the risks and benefits before introducing new medical products or supplies;
strengthen nurse education practices when introducing new medical products or supplies; and ensure that all
nurses are made aware of how to find and use the HCS’s nursing practice procedures. The USH concurred with
OIG’s findings and recommendations and provided an acceptable action plan.

Suspension of Inpatient Care at Fort Wayne Facility Shows Need for VHA Policy When Major
Clinical Services Are Paused
OIG conducted an inspection at the request of Senator Joe Donnelly and Congressman Marlin Stutzman
regarding the suspension (pause) of all inpatient admissions at the Fort Wayne campus (facility) of the


Semiannual Report to Congress                                                                                |   15
Issue 70 | April 1 – September 30, 2013
Office of
           Healthcare Inspections
VA Northern Indiana HCS in October 2012. OIG was asked to review overall quality of care and management
at the facility, define what issues led to suspension of inpatient care, and determine what measures need to be
taken to return the facility to normal operations. As of May 2013, inpatient operations had not resumed at full
capacity but were being phased in. OIG determined that the facility, VISN 11, and VHA could have improved
communication to stakeholders regarding the pause. In view of recurring qualitative issues relating to patient
care, lack of long-term stability in upper and mid-level leadership positions, and workload, VISN 11 may need
to consider the scope of services the facility is capable of reliably providing, namely, the appropriate designation
for ICU level care in the near term and whether an ICU is viable in the long term. OIG recommended that VHA
develop policy and guidance for facilities when major clinical services are paused, that the VISN Director ensure
the assigned ICU level of care is commensurate with facility capabilities, that the Facility Director ensure that
recruitment efforts continue for vacant leadership positions, that nurse competencies are consistently completed
and validated, and that the nurse staffing methodology is fully implemented. The USH, VISN, and Facility
Directors concurred with the inspection results. OIG will follow up on the planned actions until they are
completed.

Alleged Negligent Care of a Patient with Medication-Induced Acute Renal Failure, Amarillo VA
HCS, Amarillo, Texas
OIG conducted an inspection in response to Congressman Randy Neugebauer’s request to review an allegation
that a patient at the Amarillo VA HCS, Amarillo, TX, received negligent care resulting in permanent kidney
damage, which led to multiple other medical problems. It was alleged that: (1) a patient with a history of
renal cell carcinoma who had his right kidney removed was prescribed medication that led to a 4-day hospital
admission for acute renal failure (ARF), (2) the patient now has permanent damage to his remaining kidney as a
result, and (3) other medical problems have resulted from this kidney damage. OIG substantiated that a newly
prescribed blood pressure and cardiac medication, lisinopril, contributed to or caused the patient to develop
ARF. However, in view of the totality of the patient’s medical condition, OIG concluded that the lisinopril
prescription was justifiable. OIG did not substantiate that the patient has permanent damage as a result of the
ARF or that the patient’s current medical problems are a result of the ARF. OIG recommended that the System
Director consult with Regional Counsel to determine if disclosure of the events related to the patient’s episode
of ARF, as discussed in this report, is indicated and that the Chief of Staff conduct a thorough review of the care
provided to this patient by the system.

OIG Recommends Chaperone Policy Education for Primary Care Clinic Staff at VA Puget Sound
HCS, Seattle, Washington
At the request of Senator Patty Murray, OIG conducted an evaluation in response to allegations brought forth by

a patient related to a dermatology examination the patient received at the Seattle Division of the VA Puget Sound 

HCS, Seattle, WA. OIG did not substantiate that the examination was unnecessary as alleged. However,

OIG found the provider did not ensure a chaperone was present during the examination as required. 

OIG did not substantiate allegations that the provider nudged and pushed the patient, did not wash her hands,

or had ragged and unkempt fingernails. OIG substantiated that the provider did not wear gloves during the 

examination as alleged but determined the use of gloves was not indicated and that this was appropriate practice. 

OIG substantiated that the window in the examination room was not covered but determined the window was 

not covered to aid the provider’s diagnostic exam and it was unlikely the patient’s privacy was breached. 

OIG found that system staff did not fully respond to the patient’s concerns and did not report the patient’s 

allegations in accordance with Federal regulation and VHA policy. OIG recommended the System Director

ensure the Women Veterans Program Manager provides chaperone policy education to all primary care clinics. 



16   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                          Office of
                                                                                     Healthcare Inspections
OIG also recommended the System Director ensure all staff are informed about the VHA requirement to report
allegations of patient abuse and educated on the processes for reporting the alleged abuse.

Alleged Sterile Processing Service Deficiencies at VA Puget Sound HCS, Seattle, Washington
OIG conducted an inspection to assess allegations regarding operations within the Sterile Processing Service
(SPS) at VA Puget Sound HCS, Seattle, WA. OIG substantiated that instruments were processed in a pan that
was not approved for the sterilizer in use; however, OIG did not substantiate that this caused the instruments
involved to be unsterile. OIG did not substantiate that leadership knowingly covered-up and failed to disclose
processing problems associated with equipment. OIG did not substantiate that the HCS reused single-use
devices; however, OIG did find that the HCS resterilized single-use devices that had not yet been used. OIG did
not substantiate that standard operating procedures and staff competency folders are not accurate and current or
that SPS had not provided sufficient staff training. However, OIG did find deficiencies in the manner in which
the files were organized. OIG concluded that the HCS generally complied with clinical and administrative
processes within SPS. OIG found areas needing improvement in the management of single-use devices and the
maintenance and tracking of SPS staff competency files.

Noncompliance with Safe Medication Management Cited in Review of Unexpected Death at Lyons,
New Jersey, VA Medical Center
OIG conducted an inspection in response to a request by OIG’s Office of Investigations to review the care of a
patient who died unexpectedly while residing at the MH RRTP at the VA New Jersey HCS, Lyons, NJ. The Office
of the State of New Jersey Medical Examiner’s autopsy report listed “Acute intoxication due to the combined
effects of cyclobenzaprine, tramadol, gabapentin, sertraline, hydroxyzine, and amlodipine” as the cause of
death. The manner of death (suicide, homicide, accidental) was listed as undetermined and final diagnoses
included hypertensive and atherosclerotic cardiovascular disease. OIG found that program staff did not comply
with VHA and facility requirements for an effective, safe medication management program or document the
resident’s care sufficiently or timely. OIG also found that leadership did not provide sufficient professional
support for a MH RRTP advanced practice registered nurse (mid-level provider). OIG recommended that the
HCS Director ensures that the facility complies with MH RRTP safe medication management requirements,
completes required EHR documentation, and provides appropriate follow-up to requests for professional support
by MH RRTP mid-level providers.

Alleged Inadequate Oversight at a Contracted Homeless Program, VA New Jersey HCS, East
Orange, New Jersey
OIG conducted an inspection in response to allegations that Community Hope, Inc. (CH agency) and the
Veterans in Early Transitions Services (VETS) Program contributed to the death of a Veteran because of a case
manager’s negligence and lack of supervision, lacked supportive services promised to stabilize Veterans; made
inappropriate referrals for revenue generation based on payment earned for Veteran-occupied beds; provided
inadequate breakfasts for their patients; mismanaged medication causing some homeless Veterans to overdose;
violated CH agency policy by inappropriately discharging patients, for reasons which included positive substance
abuse screening, rendering them homeless; and employed non-experienced staff for the population being served
and employed a leader who did not have the education and experience required by the VA housing contract.
OIG did not substantiate the complainant’s allegations and found that following the two patients’ deaths, the
facility initiated a collaborative root cause analysis (RCA) with the CH agency. OIG concurred with the RCA
team’s findings, recommendations, and actions taken. OIG found that the CH agency and facility staff made
improvements to the VETS Program referral and admission process, patient supervision, monitoring, and safety.


Semiannual Report to Congress                                                                             |   17
Issue 70 | April 1 – September 30, 2013
Office of
           Healthcare Inspections
Furthermore, OIG’s interviews with VETS Program patients showed that they all had positive comments about
their experience in the program. OIG made no recommendations.

Review Finds Mismanagement, Lack of Oversight, and Coordination of Contracted MH Care at
Atlanta VA Medical Center
OIG conducted an inspection to assess the merit of allegations of mismanagement and lack of oversight of an
MH contract. OIG substantiated mismanagement in the administration of the contract, and also substantiated
additional allegations that there was inadequate coordination, monitoring, and staffing for oversight of
contracted MH patient care. Facility managers did not provide adequate staff, training, resources, support, and
guidance for effective oversight of the contracted MH program. MH Service Line managers and staff voiced
numerous concerns including challenges in program oversight, inadequate clinical monitoring, staff burnout,
and compromised patient safety. The lack of effective patient care management and program oversight by the
facility contributed to problems with access to MH care and contributed to “patients falling through the cracks.”
OIG recommended that the USH rectify the deficiencies described in this report with respect to the provision of
quality MH care and contract management, with the goal that Veterans receive the highest quality medical care
from either the VA or its partners. The USH and the VISN and Facility Directors concurred with
OIG’s recommendations and provided an acceptable action plan. OIG will follow up on the planned actions
until they are completed.

OIG Finds Need for National Policies on Contraband, Visitors, Drug Screening, and Escorts in
Inpatient MH Units
OIG evaluated allegations regarding the MH Service Inpatient Unit at the Atlanta VA Medical Center (VAMC),
Decatur, GA. Specifically, the complainant alleged that an inpatient’s death was due to MH service leadership’s
negligence and mismanagement of unit policies, patient monitoring, staffing, and lack of caring about
patients. OIG did not substantiate the allegations of inadequate staffing, inappropriate staff assignments, or
that leadership did not care about patients. However, OIG substantiated that the VAMC did not have adequate
policies or practices for patient monitoring, contraband, visitation, and urine drug screening. OIG found
inadequate program oversight including a lack of timely follow-up actions by leadership in response to patient
incidents. OIG recommended that the USH ensure that VHA develops national policies to address contraband,
visitation, urine drug screening, and escort services for inpatient MH units. OIG also recommended that the
VISN and Facility Directors ensure that the inpatient MH unit develops these policies; strengthen program
oversight and follow-up; improve communication with staff; and ensure functional and well-maintained life
support equipment.

OIG Makes Five Recommendations To Mitigate LD at VA Pittsburgh HCS
OIG conducted a review of LD at the VA Pittsburgh Healthcare System (VAPHS). VAPHS has a long history
of comprehensive mitigation efforts for LD, and following a recent outbreak, VAPHS instituted numerous
additional measures. However, OIG found that VAPHS inadequately managed its water treatment systems
during 2011–2012. OIG also found that VAPHS did not conduct routine flushing of hot water faucets and
showers as recommended by the manufacturer of the water treatment systems. OIG found that VAPHS
conducted environmental surveillance in accordance with VHA guidance. However, VAPHS responded to
positive cultures with corrective actions inconsistent with VHA or Centers for Disease Control and Prevention
guidance. In addition, VAPHS did not test all health care-associated pneumonia patients for Legionella as
required by VHA for transplant centers with a history of health care-associated LD. OIG recommended
that the VAPHS Director ensure that any disinfectant system in use for Legionella prevention is monitored
and maintained in accordance with manufacturer’s instructions, that hot-water faucets and showerheads

18   |                                                                          VA Office of Inspector General
                                                                               Issue 70 | April 1 – September 30, 2013
                                                                             Office of
                                                                                        Healthcare Inspections
are routinely flushed, and that close coordination between the Infection Prevention Team and Facilities
Management Service staff occurs. Additionally, OIG recommended that the VAPHS Director ensure that when
environmental cultures are positive, actions taken comply with VHA guidelines, and that all health care-
associated pneumonia patients are tested for Legionella infection.

Delays Noted in Providing Patients with Biopsy Results at Salisbury, North Carolina, Facility
OIG conducted an inspection in response to a complaint concerning delays in reporting biopsy test results to
patients and possible delays in treatment at the W.G. (Bill) Hefner VAMC, Salisbury, NC. OIG substantiated
the allegation that the facility was not timely in notifying patients of biopsy test results. However, OIG did not
substantiate that resulting treatments were delayed. In addition, OIG identified that notification procedures for
new malignancies found during outpatient test biopsies were not included in the facility’s critical biopsy policy.
OIG recommended that procedures be implemented to ensure that patients receive timely notification of biopsy
test results, notifications be documented in patients’ EHRs, performance improvement procedures be adjusted
to include periodic monitoring of test result communication to patients, and the facility’s written policy for
critical test results be revised to include outpatient biopsy test results. Management agreed with the findings and
recommendations and provided an acceptable improvement plan.

IG Recommends Improvements in Electronic Monitoring System, Nurse Training at Salisbury,
North Carolina, Community Living Center
OIG conducted an inspection in response to a complainant’s allegations of poor quality of care and patient safety
concerns in the Community Living Center (CLC) at the W. G. (Bill) Hefner VAMC in Salisbury, NC.
OIG generally did not substantiate that patients were improperly admitted to the CLC, and as a result, did not
receive appropriate treatment and services. In one case, the resident did not receive care consistent with VHA’s
defined concept of Hospice and Palliative Care. OIG substantiated that a high-risk resident could wander or
elope from a CLC unit because of an outdated electronic monitoring system, and policy, practices, and training
deficits. OIG did not substantiate that, to increase Veterans Equitable Reimbursement Allocation funding,
CLC leaders improperly admitted patients for rehabilitation, that CLC nurse practitioners were not supervised,
or that the CLC Chief Nurse Executive does not adequately address and follow up on staff concerns. Facility
leaders had not, however, conducted a risk assessment of the electronic monitoring system in spite of ongoing
safety concerns. OIG made three recommendations.

Quality of Surgical Technique of Specialty Service Surgeon Assessed at a VA HCS
OIG conducted an inspection in response to allegations that a VA HCS specialty service surgeon had licenses
suspended in two states and had several near misses, with some related to wrong site surgeries, and that the
Chief of Surgery declined to review two alleged sentinel event cases or take action on reported staff concerns.
OIG did not substantiate that the surgeon had suspended medical licenses in two states or had several wrong
site surgery “near misses.” OIG identified and had concerns with one case regarding the quality of surgical
technique. While the Chief of Surgery declined to review two alleged “near miss” cases as sentinel events,
OIG concurred that the cases did not meet the definition of a sentinel event. The Chief of Surgery had taken
multiple actions to address staff’s concerns regarding the surgeon’s surgical techniques. The HCS did not
delineate the surgeon’s privileges, the privileges were not facility or provider specific, and an initial FPPE was
not completed as required. OIG recommended that the System Director ensure the two alleged “near misses”
are referred to QM staff to determine if action should have been taken, consult with Regional Counsel regarding
possible clinical disclosure to the patient for whom quality of surgical technique concerns were identified,
ensure that initial FPPEs are completed on all newly hired providers, and that privileges are facility and provider


Semiannual Report to Congress                                                                                |   19
Issue 70 | April 1 – September 30, 2013
Office of
           Healthcare Inspections
specific. The VISN and Facility Directors concurred with OIG’s recommendations and provided acceptable
action plans.

Poor Recordkeeping, Nurse Understaffing Noted at VA Long-Term Spinal Cord Injury Unit in
Cleveland, Ohio
OIG conducted an inspection to assess the merit of allegations regarding poor quality care and management on
the long-term care (LTC) spinal cord injury (SCI) unit at the Louis Stokes VAMC in Cleveland, OH.
OIG did not substantiate allegations regarding infection control infractions. However, OIG found that staff
nurses did not consistently document resident care and nurse managers had not taken effective actions in
response to conduct, absences, and other issues. OIG also found understaffing on all shifts and that float staff
pulled from other units during staffing shortages lacked the training and competencies to work with this
complex and challenging patient population. OIG recommended that the VAMC Director ensure that: staffing
levels on the LTC SCI unit are consistent with VHA requirements and the VAMC’s SCI Master Nurse Staffing
Plan, LTC SCI nursing staff consistently provide and document resident care, LTC SCI nurse managers take
action to investigate and address conduct related issues, and float staff assigned to the LTC SCI unit have the
training and competencies required for the unit.

Review Substantiates Missed Cancer Diagnosis Allegation at Erie, Pennsylvania, VAMC
OIG conducted an inspection to evaluate the care and services a patient received at the Erie VAMC, Erie, PA;
the Warren CBOC, Warren, PA; and the VAPHS, University Drive Campus, Pittsburgh, PA. OIG substantiated
the allegations that VA providers missed the patient’s cancer diagnosis, did not manage his pain appropriately,
and that there were scheduling delays in the patient’s referrals and follow-up care. OIG could not confirm the
allegation that an outpatient specialty care provider was rude to the patient and family during the patient’s care
visit. OIG found factors that contributed to the missed diagnosis as well as opportunities for improvement in
system processes that affected this patient’s care. The oversight of the patient’s care continuum was lacking, and
there was inadequate communication between primary and specialty care providers and VA and community
health care facilities. OIG recommended that the Network Director initiate an RCA to evaluate system issues
outlined in this report and evaluate the care of the patient discussed in this report with Regional Counsel for
possible disclosure to the surviving family member(s) of the patient. The Network Director concurred with
OIG’s recommendations and provided an acceptable action plan.

Continued Vigilance Needed To Ensure Gastroenterology Consult Backlog in Columbia, South
Carolina, VA Facility Does Not Recur
OIG conducted a review at the William Jennings Bryan Dorn VAMC in Columbia, SC, to determine
whether deficient practices contributed to or caused delays in care, and whether facility leaders appropriately
addressed clinical managers’ concerns. OIG substantiated the allegations and found additional factors that
contributed to the events. In July 2011, VISN and facility leaders became aware of the gastroenterology (GI)
consult backlog involving 2,500 delayed consults, 700 “critical.” The VISN awarded the facility $1.02 million
for fee colonoscopies in September 2011. Because facility leaders did not ensure a structure for tracking and
accountability by December 2011, the backlog stood at 3,800. The facility developed an action plan in
January 2012, but had difficulty making progress in reducing the backlog. An adverse event in May 2012
prompted facility, VISN, and VHA leaders to re-evaluate the GI situation and initiate efforts to eliminate it
by October 2012. During the review “look-back,” 280 patients were diagnosed with GI malignancies; 52 of
these were associated with a delay in diagnosis and treatment. Several factors contributed to the GI backlog
and hampered efforts to improve the condition. Specifically, the facility’s Planning Council did not have a
supportive structure; Nursing Service did not include GI nurses on their priority hiring list; Fee Basis care had

20   |                                                                           VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                            Office of
                                                                                       Healthcare Inspections
been reduced; low-risk patients were being referred for screening colonoscopies, thus increasing demand; staff
members did not consistently and correctly use the consult management reporting and tracking systems; critical
VISN and facility leadership positions were filled by a series of managers who often had collateral duties and
differing priorities; and QM was not included in discussions about the GI backlogs.

Laboratory Delays and Alleged Staff Training Issues at Memphis VAMC, Memphis, Tennessee
OIG conducted a health care inspection to determine the merit of allegations related to laboratory delays
impacting patient care and a lack of staff training in the Pathology and Laboratory Medicine Service (PLMS)
at the Memphis VAMC, Memphis, TN. OIG substantiated that urgent laboratory tests were not processed in
a timely manner and that a patient experienced a lengthy delay in treatment while waiting for laboratory test
results. OIG did not substantiate that there were delays in reporting test results with critical values to ordering
providers. OIG also did not substantiate that PLMS staff were not trained on vital laboratory equipment and
processes. The VISN and Facility Directors concurred with OIG recommendations to ensure that processes be
strengthened to ensure that laboratory turnaround times adhere to facility and VISN expectations, and to ensure
that policies and processes are put in place to establish consistent and appropriate methods for data collection
and analysis of laboratory test processing times.

Inadequate Staffing, Poor Patient Flow Found in the ED of VA Maryland HCS
OIG evaluated allegations regarding staffing and poor patient flow in the ED at the VA Maryland HCS,
Baltimore, MD. A complainant alleged that patients were left unmonitored for extended periods of time and
experienced prolonged ED stays due to severe bed and staff shortages. The complainant also described poor
patient flow and problematic administrative processes. OIG substantiated that there were times when patients’
monitoring was interrupted due to lack of specialty (telemetry and isolation) beds; however, the facility had
already initiated plans to expand specialized bed capacity. OIG also found there were staff shortages and that
the facility did not have contingency plans for ED staffing in times of increased patient care demand. OIG found
problems with patient flow from the ED to inpatient areas, and noted that data used by the facility to address
flow issues was inaccurate. OIG made five recommendations to improve specialty bed access, contingency
staffing, and processes for patient flow.

Follow-Up Review of Long Beach, California, VAMC Radiation Therapy Program Results in Four
Recommendations for Improvement
OIG conducted a review of new allegations and a follow-up of its March 2011 report on radiation therapy.
OIG found that for three prostate cancer patients treated in 2009 and 2010, therapists did not follow local policy
when shifts in the field of delivered radiation occurred. However, appropriate corrections occurred and despite
shifts, all patients received full treatment to tumor-containing tissue. Additionally, there was no evidence
of complications attributable to errors in delivery of radiation therapy. A patient with vocal cord cancer had
transient skin abnormalities resulting from misdirection of the radiation beam. This was corrected with no
long-term adverse consequences and radiation was consistently delivered to the target lesion. For 27 patients
treated in 2012, whose care OIG evaluated, radiation treatment was appropriate but in some cases treatment was
delayed. EHR documentation was deficient. This deficiency had been cited in the 2011 OIG report and in two
accreditation surveys. OIG found improvements in QM, but adverse event reporting did not occur as specified
in the 2011 facility response action plan. Further, the facility was unaware of a radiation therapy complication
managed at a referring facility 5 months after completion of radiation treatment. OIG recommended that
radiation therapists adhere to local policy when shifts in the field of delivered radiation occur, deficiencies in
patient care documentation are addressed, adverse events are reported as specified in the facility’s 2011 report


Semiannual Report to Congress                                                                                |   21
Issue 70 | April 1 – September 30, 2013
Office of
           Healthcare Inspections
action plan, and radiation complications managed at referring facilities are reported to the facility that provided
the radiation therapy.

Allegations Regarding Provider Availability, VA Roseburg HCS, Roseburg, Oregon
OIG conducted an inspection of the VA Roseburg HCS, Roseburg, OR. The purpose of the inspection was to
determine the validity of allegations regarding provider availability. OIG did not substantiate the allegations.
In summary, OIG found that the HCS admitted only those patients with an acuity level appropriate to that for
which they were staffed and had the infrastructure/technology to handle and that the HCS had processes in
place to manage the care of inpatients on all shifts. OIG made no recommendations.




22   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                              Office of
                                    Audits and Evaluations
The Office of Audits and Evaluations provides independent evaluations of VA’s activities to ensure the integrity
of its programs and operations. Staff perform audits, evaluations, and inspections of VA programs, functions,
and facilities. Reviews address the areas of program results, economy and efficiency, finance, fraud detection,
and compliance. OIG reports on current performance challenges and accountability to help foster good
program management and financial stewardship, ensuring effective Government operations. Staff are involved
in evaluating diverse areas such as the access and delivery of medical care, Veterans’ eligibility for benefits and
benefits administration, resource utilization, financial management, forensic auditing, fraud, and information
security.


Veterans Health Administration Audits and Evaluations
OIG audits and evaluations of VHA programs focus on the effectiveness of health care delivery for Veterans.
These audits and evaluations identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.

VHA Could Pay Ineligible Agencies $893.5M, Make $13.2M in Improper Payments for In-Home
Care for Veterans
OIG assessed whether VHA effectively managed non-institutional purchased home care services to ensure
eligible Veterans receive entitled services. OIG audited these services because of their expected growth,
budgeted to increase to $798 million in FY 2013. VHA’s Non-Institutional Care program allows Veterans to
receive VA and contractor-provided services in the least restrictive environment possible. Under purchased
home care, contract agencies provide Veterans with home health aides or other skilled care services in their
homes. OIG estimated VHA’s waiting lists did not include at least 49,000 Veterans who had purchased home
care needs in FY 2012. OIG projected that 114 VA medical facilities limited access to purchased home care
services through the use of more restrictive eligibility criteria than VHA policy required, applying nonstandard
review processes and relying on inaccurate and nonstandard eligibility information. OIG found VA facilities
added requirements to limit Veterans’ access and did not always use required waiting lists to track eligible
Veterans. This occurred because VA medical facility officials limited the costs of services paid through fee
service, relied on inaccurate eligibility information for skilled care services, and redirected funds towards higher
priorities. VHA redistributed $76 million to other VHA healthcare areas, VA medical facilities spent
$99 million less than VA had budgeted for these services, and VHA did not meet its target to increase the
average daily census for these services in FY 2012. VA medical facilities’ staff also did not identify 31 ineligible
agencies and did not properly manage 19 high-risk agencies which were providing care to these Veterans.
Fee staff did not always verify billings before paying for services, resulting in $67,000 in improper payments.
Without actions to strengthen controls, VHA could pay ineligible agencies about $893.5 million and make just
over $13.2 million in improper payments over the next 5 years. OIG recommended the USH standardize the
application of eligibility reviews and criteria and strengthen controls to ensure eligible patients receive purchased
home care services. OIG also recommended that VHA adequately review and monitor agencies, properly
document orders, and review orders to verify payments. The USH concurred with OIG’s recommendations and
provided responsive action plans but had concerns about OIG’s sampling methodology and statistical analysis.

VHA Can Increase Rebates and Save $120 Million by Maximizing Use of Purchase Cards for
Micro-Purchases
OIG conducted this audit to evaluate whether opportunities exist for VA medical facilities to increase purchasing
efficiency and cost effectiveness by increasing purchase card use for micro-purchases. During FY 2012,
VHA spent about $3 billion on micro-purchases of $3,000 or less for supplies and services. VA’s Purchase

Semiannual Report to Congress                                                                                  |   23
Issue 70 | April 1 – September 30, 2013
Office of
         Audits and Evaluations
Card Program allows VHA to streamline the procurement process and earn rebates from purchase card use.
Although VHA has increased purchase card use over the past 5 years, opportunities still exist for VHA to
achieve significant procurement savings. OIG estimated VHA could decrease procurement-processing costs
by about $20 million and receive additional rebates of about $4 million annually by maximizing purchase card
use for micro-purchases. VHA did not identify micro-purchases and establish yearly goals for using purchase
cards. Additionally, VHA did not implement mechanisms to ensure purchase card use or establish policies and
procedures requiring VISNs to perform oversight of non-purchase card micro-purchases. As a result,
VHA could miss opportunities to achieve procurement savings ranging from approximately $102 to $133 million
over the next 5 years, with an estimate of $120 million. OIG recommended the USH work with the VA Office
of Management (OM) to establish policies and procedures to regularly identify and evaluate micro-purchases,
and establish annual and long-term strategic goals to increase the percentage of VA medical facility purchase
card micro-purchases. Additionally, OIG recommended the USH collaborate with OM to implement procedures
to ensure purchasers and approvers adequately consider purchase card use for micro-purchases, including
requiring VISNs to perform oversight of non-purchase card micro-purchases. The USH concurred with our
findings and recommendations and has a plan for corrective action.

OIG Recommends VHA Procurement & Logistics Office Conduct Annual Reviews of Duty Stations
To Ensure Correct Salaries
OIG conducted this review to determine the merits of four allegations claiming VHA’s Procurement and
Logistics Office (P&LO) mismanaged travel, duty stations assignments, salaries, and funds. OIG substantiated
two of the four allegations: P&LO did pay some employees the incorrect salaries for their duty station locations,
and P&LO did improperly use the VA Supply Fund to pay for travel. However, OIG did not substantiate that
P&LO authorized excessive, unnecessary travel or that employees were virtually stationed away from where they
needed to work. OIG determined P&LO needs to strengthen internal procedures for approving travel.
P&LO needs to ensure authorizing officials have direct knowledge of employee travel plans and only authorize
travel after validating the necessity of the travel. P&LO paid three employees incorrect salaries due to inaccurate
duty station assignments in FY 2010. Prior to OIG’s review, P&LO identified the errors for two of the three
employees and corrected the salaries and recouped related overpayments. The third employee was overpaid
about $18,000 into FY 2013 because P&LO did not have standard procedures in place to ensure accurate duty
station assignments. Finally, P&LO improperly augmented FY 2010 appropriations by using the VA Supply
Fund to pay travel costs for an employee whose salary was funded through appropriations. P&LO did not
have procedures in place to ensure appropriate use of the VA Supply Fund. OIG recommended the Chief
Procurement and Logistics Officer implement controls to strengthen employee travel review and authorization.
P&LO should initiate a periodic review of all employee duty station assignments to correct assignment errors
and recoup incorrect payments as appropriate. While the USH concurred, the Principal Executive Director
for the Office of Acquisitions, Logistics, and Construction (OALC) generally concurred with OIG’s report
recommendations.


Veterans Benefits Administration Audits and Evaluations
OIG performs audits and evaluations of Veterans’ benefits programs focusing on the effectiveness of benefits
delivery to Veterans, dependents, and survivors. These audits and evaluations identify opportunities for
enhancing the management of program operations and provide VA with constructive recommendations to
improve the delivery of benefits.




24   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                           Office of
                                                                                    Audits and Evaluations
Changes Needed in Approval Methods for Veterans Retraining Assistance Program To Reach
99,000 Participants
During OIG’s ongoing national audit of the Veterans Retraining Assistance Program (VRAP), OIG determined
that if VBA continued to use the current method of counting authorized participants, Veterans’ use of VRAP
would not achieve the levels authorized by Congress. The Veterans Opportunity to Work to Hire Heroes Act of
2011 authorized benefits for 99,000 participants from October 1, 2011, through March 31, 2014. In order not to
exceed the authorized limit of participants, officials counted approved applicants as participants. However, not
all approved applicants were actually participating in the program. As of February 2013, about 33 percent of
the authorized participants were enrolled and receiving program benefits. OIG recommended VBA continue to
accept applications until they have 99,000 Veterans enrolled in an approved training program or until
October 1, 2013, the last date a Veteran may apply for program benefits. The Under Secretary for Benefits (USB)
concurred with OIG’s recommendations.

VBA Needs To Do Better Job Verifying Payments on Foreclosure Maintenance, Closer Oversight
Could Reduce Safety Risks
OIG conducted this audit to determine if the VBA Loan Guaranty Service (LGY) approved payments for
allowable expenses submitted by VA’s foreclosed property management contractor. In addition, the audit
determined whether LGY ensured properties met safety, preservation, and maintenance requirements.
LGY made payments for 528 of 890 individual expense items not supported by vendor invoices. This
occurred because LGY did not ensure the contractor complied with the contractual requirement to provide
the documentation necessary to demonstrate the appropriateness and legitimacy of expenses claimed for
reimbursement. As a result, OIG found LGY made approximately $64,400 in payments from October 2010
through March 2012 for expense reimbursements submitted by the contractor without adequate supporting
documentation. In addition, LGY did not timely notify the contractor of property maintenance exceptions
that posed safety hazards or risk of immediate deterioration, or consistently ensure correction of these issues.
This occurred because LGY policies did not require LGY staff to report maintenance exceptions and ensure
correction. OIG recommended the USB ensure VBA’s contractor provides vendor invoices to substantiate
claimed expenses prior to reimbursement by LGY and determine whether it is cost effective to initiate recovery
of improper payments. Additionally, OIG recommended the USB develop policies that ensure LGY staff
report maintenance exceptions when identified and ensure contractor correction. The USB concurred with
Recommendations 1 and 3 but did not concur with Recommendation 2. OIG revised Recommendation 2 to
recognize that LGY can decide if recouping these improper payments from the prior property management
contractor is cost effective. However, OIG reiterated that VBA paid some expenses that were not supported by
sufficient evidence. Without adequate documentation to support expenses claimed, LGY cannot ensure prudent
use of taxpayer funds in compensating the contractor for managing VA-owned foreclosed properties.

VBA Pension Management Centers Need To Improve Timeliness of Payments to Low Income
Veterans
OIG conducted this audit to determine if the Pension Management Centers (PMCs) processed pension payments
accurately. VA paid nearly $5 billion in FY 2012 for pension benefits to over 500,000 low income Veterans or
their beneficiaries. Delayed or incorrect payments have the potential to affect the economic status of eligible
Veterans and beneficiaries. VBA can improve the timeliness, and therefore the accuracy, of pension payment
processing. During a 1-year period, an estimated 93,000, or 18 percent of 514,000 Veterans and beneficiaries,
experienced an average 15-month delay in receiving their new pension award or adjustments to their current
payment. Delays resulted in $308 million in underpayments and $194 million in overpayments. This included

Semiannual Report to Congress                                                                              |   25
Issue 70 | April 1 – September 30, 2013
Office of
         Audits and Evaluations
retroactive adjustments as early as 2006. Once PMC staff processed the claims, they correctly calculated pension
payments for new awards and adjustments 96 percent of the time. The delays occurred for two primary reasons.
First, PMCs did not process new awards and adjustments timely because of an increased workload and a lack
of clear communication of priorities. Second, PMCs did not receive timely notification of changes that affected
current pension benefits, and did not have an effective plan to reduce the time to collect income, expense, or
dependency changes. In addition, VBA systems contained a small rate of duplicate pension records. VBA
was aware of the potential for creating duplicate records and began taking action to control them. To reduce
notification delays, the USB should ensure Pension and Fiduciary Service implement a plan to reduce under and
overpayments due to changes in income and dependency, and establish and implement matching agreements.
To reduce processing delays, the USB should ensure Pension and Fiduciary Service implement new triage and
processing procedures at the PMCs. The USB should implement additional controls to identify and correct
duplicate records. The USB concurred with OIG recommendations and provided plans for corrective actions.

Weak Administration Could Cost VA $12M for Veterans’ Not Meeting Full-Time Attendance
Required for Retraining Program
OIG performed this audit to determine whether VBA’s VRAP was administered to maximize Veterans’ use
of the program. Congress passed the Veterans Opportunity to Work to Hire Heroes Act authorizing VRAP in
November 2011. As implemented by VA, VRAP offers training assistance to unemployed Veterans who are
not eligible for any other VA education benefits program. Enrollment for this program expires in March 2014.
Early in OIG’s audit, OIG issued an interim report stating that VRAP would not achieve the participant levels
authorized by Congress. The USB agreed with OIG recommendations to accept applications until VBA reached
the enrollment limit for this program. This report identifies additional issues since the interim report.
OIG found weak administration of the program allowed Veterans to enroll without complying with the
program’s full-time attendance requirements, and over half of those Veterans inaccurately certified their status
as full-time students. OIG also identified situations where some school officials did not adequately monitor
Veterans’ academic progress or accurately report enrollment information. In addition, VBA could have
better described the penalties for false certifications. VBA also approved one of the schools that did not have
appropriate procedures as a training institution. OIG projected that VBA paid about $12 million to just over
2,300 Veterans who were not complying with VRAP attendance requirements. Without increased oversight
and controls, VBA risks continuing inappropriate payments to Veterans who do not meet full-time attendance
requirements. OIG recommended the USB reinforce the schools’ requirement to monitor Veterans’ progress
and accurately report enrollments, clarify and establish procedures to manage VRAP, and warn Veterans of the
penalty for incorrect certifications. If extended beyond March 2014, VBA needs stronger controls to ensure the
long-term integrity of the program. The USB concurred with OIG recommendations and provided plans for
corrective actions.


Veterans Benefits Administration Benefits Inspections
The Benefits Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive timely and
accurate benefits and services. These independent inspections provide recurring oversight of VA Regional
Offices (VAROs), focusing on disability compensation claims processing and performance of Veterans Service
Center operations. The objectives of the Benefits Inspection Program are to evaluate how well VAROs are
accomplishing their mission of providing Veterans with convenient access to high quality benefits services and
report systemic trends in VARO operations. Benefits Inspections also determine whether management controls
ensure compliance with VA regulations and policies, assist management in achieving program goals, and
minimize the risk of fraud, waste, and other abuses. These inspections may also examine issues or allegations

26   |                                                                         VA Office of Inspector General
                                                                               Issue 70 | April 1 – September 30, 2013
                                                                            Office of
                                                                                     Audits and Evaluations
referred by VA employees, members of Congress, or other stakeholders. The Benefits Inspection Divisions issued
16 reports during this reporting period, which are listed in Appendix A.

Key findings included:
     • 	 Claims Processing: 39 percent of benefit claims reviewed requiring a rating decision were processed in
         error. These errors involved claims related to temporary 100 percent disability evaluations and TBI.
     • 	 Systematic Analysis of Operations (SAOs): 27 percent of SAOs reviewed were not completed timely and/
         or were incomplete.
     • 	 Homeless Veterans Outreach: 38 percent of VAROs inspected could not demonstrate adequate outreach
         efforts to homeless shelters and service providers.


National Cemetery Administration Audit and Evaluation
OIG performs audits and evaluations on Veterans’ memorial benefits programs focusing on the delivery of these
benefits and how NCA manages and administers a nationwide network of national cemeteries. These audits and
evaluations identify opportunities for enhancing the processes and improving management of NCA’s program
operations and provide VA with constructive recommendations to improve the delivery of benefits to deceased
Veterans and their families.

NCA Needs to Enforce Use of Competition, Make Full Use of Electronic Contracting System, and
Fully Implement the Integrated Oversight Process Reviews
NCA transferred contract responsibilities from VHA to NCA’s Office of Management Contracting Service
in February 2008 to improve its acquisition process. NCA administered 574 contracts during calendar year
2012 with an estimated contract value of about $382 million. OIG conducted this audit to access the adequacy
of contract development, award, administration, and oversight processes of the NCA Office of Management
Contracting Services. OIG found that NCA did not have effective internal controls, or existing controls were not
followed, to ensure adequate development, award, and administration of contracts. In a statistical sample of
50 competitive contracts and all 32 noncompetitive contracts, OIG found one or more contract deficiencies
in each of the 82 contracts reviewed. Contract files did not always have sufficient evidence of acquisition
planning, market research, and vendor past performance. NCA improperly awarded 16 of the
32 noncompetitive contracts, as opposed to competitively bid small business set-asides. Contracting officers
did not consistently provide a complete history of contract actions in VA’s mandatory Electronic Contract
Management System (eCMS). Additionally, NCA did not conduct Integrated Oversight Process (IOP) reviews of
25 of the 36 competitive contracts and 24 of the 29 noncompetitive contracts that were required to be reviewed
under this mandatory process. These deficiencies occurred because NCA did not have sufficient management
staff in place to lead and manage the newly established organization. Without sufficient management oversight,
NCA could not ensure internal controls were working properly or as planned when developing and awarding
contracts. As a result, NCA cannot ensure awarded contracts consistently met the Federal Acquisition
Regulation (FAR) and VA policies. OIG recommended NCA strengthen contracting processes and controls by
enforcing the proper use of competition requirements, make full use of eCMS, and fully implement IOP reviews.
The Under Secretary for Memorial Affairs agreed with OIG’s recommendations and provided an appropriate
action plan.




Semiannual Report to Congress                                                                               |	 27
Issue 70 | April 1 – September 30, 2013
Office of
         Audits and Evaluations
Other Audits and Evaluations
OIG performs audits of financial management operations, focusing on adequacy of VA financial management
systems in providing managers information needed to efficiently and effectively manage and safeguard VA
assets and resources. OIG oversight work satisfies the Chief Financial Officers Act of 1990, P.L. 101-576, audit
requirements for Federal financial statements and provides timely, independent, and constructive evaluations of
financial information, programs, and activities.

To improve VA acquisition programs and activities, OIG identified opportunities to achieve economy, efficiency,
and effectiveness for VA national and local acquisitions and supply chain management. In addition, OIG
examines how well major acquisitions are achieving objectives and desired outcomes, such as the use of funds
for VA’s minor construction program. OIG efforts focus on determining whether the Department is taking
advantage of its full purchasing power when it acquires goods and services. Auditors examine how well
VA is managing and safeguarding resources and inventories, obtaining economies of scale, and identifying
opportunities to employ best practices.

OIG performs audits of Information Technology (IT) and security operations and policies, focusing on the
adequacy of VA’s IT and security policies and procedures for managing and safeguarding Veterans and VA
employees, facilities, and information. OIG’s audit reports present VA with constructive recommendations
needed to improve IT management and security. OIG oversight also includes meeting its statutory requirement
to review VA’s compliance with the Federal Information Security Management Act of 2002 (FISMA),
P.L. 107-347, as well as IT security evaluations conducted as part of the Consolidated Financial Statements audit.
These evaluations have led OIG to report information security and security of data and data systems as a major
management challenge for VA.

VA in Compliance with Several Key Climate Change Mandates, but More Needed To Curb
Greenhouse Emissions
In response to a February 25, 2013, request from the Congressional Bicameral Task Force on Climate Change,
OIG assessed whether VA is doing all that it can to address this growing threat. OIG found VA partially
complied with several key requirements but can do more to address climate change. VA has done considerable
planning and met selected targets in the areas of energy management, water management, and green buildings
sustainability. However, VA did not meet selected targets for reducing greenhouse gas emissions and fleet
petroleum consumption. This was due to factors such as significant growth in VA programs, competing
operational standards, and regulatory requirements. Since 2008, VA has increased staffing by 21 percent and
expanded its fleet by 39 percent to better serve Veteran needs, but this has posed a challenge to meeting certain
targets. Generally, VA had the authority needed to reduce heat trapping pollution emissions and strengthen its
resiliency to climate change effects. OIG recommended the Executive in Charge for OM and Chief Financial
Officer coordinate with the Acting Assistant Secretary of the Office of Human Resources and Administration
(HR&A) to implement existing telework expansion plans and encourage VA employees to use alternative forms
of commuting for reducing greenhouse gas emissions. The Executive in Charge should also identify additional
strategies for meeting requirements to reduce both greenhouse gas emissions and fleet petroleum consumption.
The Executive in Charge concurred with OIG’s findings and recommendations and provided technical revisions
that were incorporated in OIG’s report as appropriate. HR&A planned to work with OM to address the report
findings and recommendations.




28   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                           Office of
                                                                                    Audits and Evaluations
VA Could Spend Up to $17.5M for Excess Call Center Capacity and Duplicative Human Resource
Services for Veteran Hiring Initiative
OIG evaluated whether HR&A had adequate controls to ensure its Veteran Employment Services Office (VESO)
acquisitions were appropriate and justified. OIG found that HR&A acquired excess services to support VESO
operations when it expanded an interagency agreement (IA) with the Office of Personnel Management (OPM)
to provide two employment call centers operating 24 hours a day, 7 days a week. These call centers had call
volumes so low during a 13-month period that each call center employee handled an average of 2.4 calls per day.
Additionally, HR&A funded its IA to develop and maintain VESO’s Veteran employment Web site, duplicating
key components of existing HR&A and VBA employment Web sites. VESO also awarded a $4.4 million
1-year contract for human resources support services that duplicated its own internal capabilities and contracted
for certain inherently Governmental functions. These acquisitions occurred because VESO did not conduct
a thorough analysis to justify the need for the services. OIG estimated at least $13.1 million will be spent
through FY 2015 on excess call center capacity unless corrective action is taken. These funds, and the estimated
$4.4 million, could be better used to provide employment services to Veterans with greater efficiency and
accountability. OIG recommended HR&A improve its acquisition practices by assessing program needs against
VA’s existing capacities and capabilities and by establishing program metrics. The Acting Assistant Secretary for
HR&A concurred with OIG’s findings and recommendations and provided an appropriate action plan.

VA’s Technology Acquisition Center Could Have Saved $108.7M By Competing Task Orders and
Contracts for IT Services
The Technology Acquisition Center (TAC) awarded approximately 1,200 IT services contracts, valued at
approximately $5.2 billion, from October 2010 through June 2012. OIG conducted this audit to determine
whether the TAC awards and administers IT services contracts in accordance with the FAR and VA policy.
OIG found no significant issues with 61 of 79 statistically selected IT services contracts. However, the TAC
awarded 18 contracts that did not meet the FAR competition requirements. This occurred because the TAC did
not adequately justify using an exception to the FAR competition requirements to award four of six task orders
under two Indefinite Delivery/Indefinite Quantity (IDIQ) contracts valued at approximately $143.1 million.
OIG extended its review procedures to include an additional 72 task orders processed under these contracts.
The TAC used the same FAR exception for 16 of the 72 task orders valued at approximately $146.6 million. In
addition, by not demonstrating IT services could not be obtained as conveniently or economically by contracting
directly with a commercial source the TAC did not follow FAR requirements before awarding 14 Interagency
Acquisitions valued at approximately $254 million. This occurred because VA’s IOP reviews did not identify
or prevent the TAC’s noncompliance with the FAR requirements concerning competing task orders and using
Interagency Acquisitions. OIG projects the TAC missed an opportunity to save approximately $57.9 million in
acquisition costs by not competing IDIQ task orders. OIG also projects the TAC could have saved approximately
$50.8 million by competing contracts among commercial sources instead of awarding Interagency Acquisitions.
OIG made three recommendations to the Principal Executive Director for OALC to ensure that IDIQ task order
awards and Interagency Acquisitions comply with FAR competition requirements. The Principal Executive
Director for OALC concurred with the recommendations and provided an acceptable action plan.

VA Incurred $13M Developing New System Functionality, Duplicating Existing Contract
Management System
OIG conducted this review to assess the merits of an anonymous Hotline allegation that the Virtual Office
of Acquisition (VOA) software development project was not managed under VA’s Project Management
Accountability System (PMAS) control and oversight. The complainant also alleged the VOA project was

Semiannual Report to Congress                                                                               |   29
Issue 70 | April 1 – September 30, 2013
Office of
         Audits and Evaluations
unnecessary because VA already owned a system that met 95 percent of VOA’s requirements. OIG substantiated
the allegation that the VOA software development project was not managed under PMAS. TAC officials believed
that because the OALC was managing VOA development, the project did not need PMAS oversight provided
by VA’s Office of Information and Technology (OIT). As such, the software development project was not
centrally evaluated to ensure it would support the best mix of projects to minimize duplication and maximize
VA’s investment in IT. OIG partially substantiated the allegation that VOA development was unnecessary.
OIG found VA owned eCMS, OALC’s mandatory contract management system, which VOA functionality
partially duplicated. The TAC did not develop a business case, as required under PMAS. Submitting a
business case under PMAS could have minimized duplication and maximized VA’s investment. By developing
duplicative eCMS functionality, VA potentially incurred unnecessary costs of approximately $13 million.
OIG recommended the Principal Executive Director for OALC implement controls to ensure that all future
software developments fall under PMAS control. OIG further recommended the TAC be required to submit
a business case justifying how the costs associated with duplicative system requirements and future system
maintenance will be managed moving forward. The Principal Executive Director for OALC concurred with
OIG recommendations and provided acceptable corrective action plans.

OIG Questions Nearly $2M Spent on Separately Priced Items for Conferences, Recommends
Discontinuing Agreements with OPM
VA reported spending approximately $15.5 million on three financial management training conferences in
2010 and 2011, using an IA with OPM. Of the $15.5 million VA reported spending on these conferences, about
$6.7 million was spent on Separately Priced Item (SPI) purchases and related service fees. OIG conducted this
review to assess VA’s oversight of SPI purchases. Our review of three conferences found VA paid about
$5.3 million of $6.7 million for goods and services the prime vendor should not have purchased as SPIs.
Instead, VA and OPM should have identified essential goods and services and required the prime vendor to
deliver them as firm-fixed-price tasks rather than as SPIs. VA and OPM did not approve all SPI purchases in
advance, and VA paid the prime vendor for SPIs and service fees without adequate supporting documentation.
VA paid the prime vendor about $697,000 in inappropriate service fees. Additionally, VA paid OPM about
$132,000 in service fees associated with inappropriate SPI purchases. VA placed its trust and reliance on
OPM to manage and administer the IA without establishing adequate oversight. This resulted in
VA relinquishing its responsibility and accountability to sufficiently monitor and review conference-related
expenditures. OIG questioned about $1.1 million in SPI purchases that could have been saved through
competitive contracting. OIG also questioned $697,000 in prohibited service fees paid to the prime vendor
and $132,000 in service fees paid to OPM associated with inadequate oversight. OIG recommended the
Assistant Secretary for HR&A consider discontinuing the use of assisted acquisition IAs with OPM for training
conferences and establish controls to improve oversight of SPIs purchased through existing assisted acquisition
IAs with OPM. OIG recommended the Principal Executive Director for OALC update its policy to ensure a
qualified individual with appropriate training in contracting is assigned to all IAs and take action to recover
service fees paid to the prime vendor and OPM that were inappropriate or associated with inadequate oversight.
The Assistant Secretary for HR&A and the Principal Executive Director for OALC concurred with OIG’s
recommendations and provided plans for corrective actions.




30   |                                                                         VA Office of Inspector General
                                                                              Issue 70 | April 1 – September 30, 2013
                                                                             Office of
                                                                                     Audits and Evaluations

Federal Information Security Management Act Compliance
In compliance with FISMA during this reporting period, OIG issued VA’s Federal Information Security Act
Audit for Fiscal Year 2012. This assessment determined the extent VA’s information security program complied
with FISMA requirements and applicable National Institute for Standards and Technology guidelines. We
found VA has made progress developing policies and procedures, but still faces challenges implementing
components of its agency-wide information security risk management program to meet FISMA requirements.
We continued to identify significant deficiencies related to controls in system access, configuration management,
continuous monitoring, as well as service continuity practices designed to protect mission-critical systems
from unauthorized access, alteration, or destruction. This report provides 32 recommendations for improving
VA’s information security program. The Acting Assistant Secretary for OIT agreed with our findings and
recommendations.


Federal Financial Management Improvement Act of 1996 Compliance
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires OIG to report instances and
reasons when VA has not met the intermediate target dates established in the VA remediation plan to bring VA’s
financial management system into substantial compliance with FFMIA. The audit of VA’s consolidated financial
statements for FY 2012 reported that VA did not substantially comply with the Federal financial management
systems requirements of FFMIA. This condition was due to one material weakness concerning IT security
controls and one significant deficiency concerning undelivered orders. Also, the audit reported that VA’s
complex and disjointed financial system architecture resulted in a lack of common system security controls and
inconsistent maintenance of critical systems. Consequently, VA continued to be challenged with consistent and
proactive enforcement of established policies and procedures throughout its geographically dispersed portfolio
of legacy applications and newly implemented systems. As a result, certain financial statement line items may
not be readily re-created and supported by audit trails of detailed financial transactions. Not all current systems
could be readily accessed and used without extensive manipulation, manual processing, and reconciliation.




Semiannual Report to Congress                                                                                |   31
Issue 70 | April 1 – September 30, 2013
                                  Office of
                                                Investigations
Veterans Health Administration Investigations
The Office of Investigations conducts criminal investigations into allegations of patient abuse, drug diversion,
theft of VA pharmaceuticals or medical equipment, false claims for health care benefits, and other frauds relating
to the delivery of health care to millions of Veterans. In the area of health care delivery, OIG opened 181 cases;
made 130 arrests; obtained nearly $2.9 million in fines, restitution, penalties, and civil judgments; and achieved
over $2.1 million in savings, efficiencies, cost avoidance, and recoveries.

During this reporting period, OIG opened 51 investigations regarding diversion of controlled substances.
Subjects of these investigations included VA employees, Veterans, and private citizens. Fifty defendants were
charged with various crimes relating to drug diversion. These investigations resulted in $108,080 in fines,
restitution, penalties, and civil judgments as well as $577,446 in savings, efficiencies, cost avoidance, and
recoveries. OIG also initiated 14 investigations related to the fraudulent receipt of health benefits,
which resulted in 20 defendants being charged with various related crimes. These investigations resulted in
$810,099 in fines, restitution, penalties, and civil judgments as well as $26,649 in savings, efficiencies, cost
avoidance, and recoveries. In addition, OIG initiates investigations related to beneficiary travel fraud involving
VA patients, and any VA employees who conspire with them, grossly inflating patient mileage to and from VA
facilities to increase reimbursement for travel expenses. During this reporting period, judicial action related
to these investigations included 5 arrests, 18 convictions, and 19 imprisonments as well as $632,471 in fines,
restitution, penalties, and civil judgments along with $144,730 in savings, efficiencies, cost avoidance, and
recoveries.

Additionally, during this reporting period, OIG opened 41 investigations regarding criminal activities by
VHA employees (not including drug diversion). The types of crimes investigated included Workers’
Compensation fraud, theft from Veterans, and theft of VA property or funds. Twenty-one defendants were
charged with crimes; court ordered payments of fines, restitution, and penalties amounted to over
$870,000 and over $1 million in savings, efficiencies, cost avoidance, and recoveries. The following entries
provide a representative sample of the type of VHA investigations conducted during this reporting period.

East Orange, New Jersey, VAMC Former Supervisory Engineer Pleads Guilty to Fraud
A former supervisory engineer at the East Orange, NJ, VAMC pled guilty to a criminal information containing
a variety of fraud charges. An OIG, Federal Bureau of Investigation (FBI), and Internal Revenue Service (IRS)
Criminal Investigation Division (CID) investigation revealed that the defendant accepted kickback payments
in connection with VA contracts awarded to companies he had relationships with and engaged in a scheme to
defraud VA by falsely claiming one of the companies was owned by a service-disabled Veteran. The defendant
also conspired with a partner to set up three companies that could be used to obtain VA contracts and then
directed more than $6 million worth of VA construction projects to those companies. Of this amount, more
than $3 million was paid to the falsely claimed Service-Disabled Veteran-Owned Small Business (SDVOSB).
The defendant admitted to accepting approximately $1,275,000 in kickbacks in exchange for his official action
and influence between 2007 and 2012.




32   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                              Office of
                                                                                            Investigations
Cleveland, Ohio, VAMC Former
Director Indicted on Multiple Charges
A former director of the Cleveland, OH,
VAMC was arrested as the result of an
OIG and FBI investigation that included
the execution of a search warrant at the
defendant’s residence. The defendant was
indicted for conspiracy to commit mail
and wire fraud and honest services mail
and wire fraud, bribery of public officials,
disclosing public contract information,
acts affecting a personal financial
interest, activities of employees in claims
against and other matters affecting the
Government, false statements, a 1-year ban
on communications, wire fraud, mail fraud,
and money laundering. The investigation revealed
                                              l d that
                                                  th t the
                                                       th defendant
                                                            d f d t engaged
                                                                          d in
                                                                            i the
                                                                               th fraudulent
                                                                                  f d l t activity
                                                                                             ti it while
                                                                                                    hil he
                                                                                                         h
was the director at two different VAMCs and after his retirement from VA.

                                                    OIG, FBI Operation to Combat Sale of Heroin
                                                    and Crack Cocaine at Two VAMCs in New Jersey
                                                    Results in Seven Arrests
                                                    Seven Veterans were arrested on Federal drug
                                                    distribution charges. The arrests were the result of a
                                                    2-year OIG, FBI, and VA Police Service investigation
                                                    undertaken following the death of a Veteran at
                                                    the Lyons, NJ, VAMC from a drug overdose. The
                                                    subsequent investigation resulted in the purchase of
                                                    various drugs including heroin, crack cocaine, and
                                                    pharmaceuticals from the defendants on VA property.
                                                    Following arraignment, five of the defendants were
                                                    remanded into custody based on their extensive
                                                    criminal histories.

                                                    Former Lyons, New Jersey, VAMC Patients Plead
                                                    Guilty to Concealing the Death of Veteran
                                                    A former Lyons, NJ, VAMC patient pled guilty to
                                                    misprision of the felony of distribution of heroin. A
                                                    second former VAMC patient pled guilty to obstruction
                                                    of justice. An OIG investigation revealed that the
                                                    defendants used heroin in the victim’s room at the
                                                    medical center. While using the drug, the Veteran
                                                    collapsed and the defendants departed the room and
                                                    failed to notify staff. The deceased victim’s body was
                                                    discovered the next morning, and the body’s positioning

Semiannual Report to Congress                                                                          |     33
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
initially led OIG to investigate his death as an apparent accidental suicide. Subsequent information developed
through a confidential source revealed that one of the defendants actually administered the heroin to the victim.
After the victim died, the same defendant propped up the body to make it appear as though the Veteran had
taken the heroin and overdosed on his own.

Three Former New Orleans, Louisiana, VAMC Employees Sentenced for Health Care Fraud
Three former New Orleans, LA, VAMC employees were sentenced after pleading guilty to health care fraud
for their role in a fraud scheme involving the billing of the medical center for services not rendered. The first
defendant was sentenced to 24 months’ incarceration and 3 years’ supervised release. The second defendant was
sentenced to 15½ months’ incarceration and 3 years’ supervised release. The third defendant was sentenced to
17 months’ incarceration and 3 years’ supervised release. All of the defendants were ordered to pay VA varying
amounts of restitution totaling $563,986.

Seattle, Washington, VAMC Travel Clerks and Veterans Sentenced for Travel Benefit Fraud
A Seattle, WA, VAMC travel clerk was sentenced to 42 months’ incarceration and 3 years’ supervised release. A
second travel clerk in the same office was sentenced to 37 months’ incarceration and 3 years’ supervised release.
Both defendants were also ordered to pay a total of $181,114 in restitution after pleading guilty to conspiracy
to defraud the U.S. Government and bribery. Two Veterans, who cooperated during the investigation, were
sentenced to 3 years’ supervised release and ordered to pay restitution of $23,089 and $19,992, respectively.
A third Veteran was sentenced to 4 months’ incarceration, 3 years’ supervised release, and ordered to pay
restitution of $21,260. An OIG investigation revealed a scheme in which the travel clerks recruited Veterans
to submit inflated and fictitious travel benefit vouchers. The clerks then received kickback payments from the
Veterans. The loss to VA is in excess of $188,000.

Former Tampa, Florida, VA Employee Faces Prison, Fines If Convicted of Misusing Patient
Information for Personal Financial Gain
A Tampa, FL, VAMC medical support assistant was indicted and subsequently arrested for wrongful disclosure
of health information, access device fraud, and aggravated identity theft. An OIG and local police investigation
revealed that the defendant stole patients’ personal identifying information (PII) from the medical center and
exchanged the information with another person for crack cocaine. The stolen information was subsequently
used to file $575,261 in fraudulent tax returns.

In another case at the Tampa, FL, VAMC, two non-Veterans were arrested for aggravated identity theft, access
device fraud, theft of Government funds, and conspiracy to defraud the United States. An OIG, IRS CID, and
local police investigation revealed that one defendant, a former Tampa, FL, VAMC volunteer, stole patients’ PII
from the Tampa, FL, VAMC and traded the information with a second defendant for crack cocaine. The second
defendant subsequently used the VA PII and additional PII to file approximately $550,000 in fraudulent tax
returns.

Philadelphia, Pennsylvania, VAMC Nursing Home Employee and Accomplice Sentenced After
Pleading Guilty to Theft by Deception
A Philadelphia, PA, VAMC nursing home employee and her accomplice were sentenced after pleading guilty
to theft by deception. The former employee was sentenced to 11½ to 23 months’ house arrest and 5 years’
probation. Additionally, the former employee’s license as a Certified Nursing Assistant was ordered revoked.
The co-defendant was sentenced to 4 years’ probation. An OIG and local police investigation revealed that the
perpetrators stole a Veteran’s credit card, fraudulently charged purchases and attempted to make an additional

34   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                                    Office of
                                                                                                  Investigations
$5,000 of charges to the card. Additionally, the former VA employee admitted to stealing cash from various
Veterans while being employed at the VA nursing home.

Former Pittsburgh, Pennsylvania, VAMC Program Support Clerk Charged with Theft of
Government Funds and False Statements
A former Pittsburgh, PA, VAMC program support clerk was charged in a criminal information with theft
of Government funds and false statements. An OIG and VA Police Service investigation revealed that the
defendant submitted to VA a fraudulent Special Order document from the PA Air National Guard. The Special
Order stated that the defendant was being deployed for active duty, and as a result, VA placed the defendant
into a military leave and pay status entitling the defendant to special leave and pay benefits. The investigation
determined that the defendant accepted employment with a local township government and never reported for
active duty. The defendant received $14,164 in special leave and pay benefits, which included health care benefits.

Topeka, Kansas, VAMC Neurologist Sentenced for Sexual Battery
A Topeka, KS, VAMC neurologist was sentenced to 32 months’ incarceration for aggravated sexual battery and
12 months’ incarceration (concurrent) for sexual battery. The defendant was granted a suspended imposition of
sentence and received 36 months’ probation. An OIG, VA Police Service, and local police investigation revealed
that the defendant administered full pelvic examinations, without a chaperone, to five patients without any
medical necessity for such procedures.

Augusta, Georgia, VAMC Nurse Arrested for Assault
An Augusta, GA, VAMC nurse was arrested for assault. An OIG and VA Police Service investigation revealed
that the defendant entered a patient’s room, while two other staff members attempted to treat the patient, and
punched the patient causing fractured ribs.

Long Beach, California, VAMC Health Care Technician Arrested for Theft and False Statements
A Long Beach, CA, VAMC health care technician was indicted and arrested for theft and false statements. 

An OIG investigation confirmed the results of an administrative investigation concerning time card fraud by

the defendant, who was terminated from employment. The defendant submitted fraudulent attendance and 

overtime information to her timekeeper and was paid for 1,695 hours of overtime pay. The loss to VA is $55,502.


Former Jamestown, New York, CBOC Nurse Indicted for Drug Violations
A former registered nurse at the Jamestown, NY, VA CBOC was indicted and arrested for conspiracy, possession
with intent to distribute a controlled substance, and obtaining a controlled substance by fraud. An OIG and
local police investigation determined that the defendant stole prescription forms from a nurse practitioner at
the clinic and subsequently forged prescriptions for Oxycontin that she then sold to co-conspirators for cash. A
friend of the defendant was also arrested and charged with possession of a controlled substance and possession
of a forged instrument. The friend received multiple forged Oxycontin prescriptions in his name from the
defendant and filled them at local pharmacies.

Former Nashville, Tennessee, VAMC Nursing Assistant Sentenced for Elder Abuse
A former Nashville, TN, VAMC certified nursing assistant was sentenced to 12 months’ incarceration
(suspended), 12 months’ supervised probation, and a $444 fine after pleading guilty to abuse or neglect of
an impaired adult. The sentencing prohibits the defendant from working as a nursing assistant during the
probationary period. An OIG investigation revealed that the defendant removed fentanyl patches from



Semiannual Report to Congress                                                                                |   35
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
terminally ill patients and either placed them on his own body or chewed them to support his drug addiction.
The employee resigned from his position at the VAMC after conviction.

Former Martinsburg, West Virginia, Registered Nurses Sentenced for Drug Diversion
A former Martinsburg, WV, registered nurse was sentenced to 14 days’ incarceration after previously pleading
guilty to acquiring and obtaining a controlled substance by fraud. An OIG and VA Police Service investigation
revealed that on approximately 78 occasions the defendant retrieved controlled medication from the facility’s
automated Pyxis medication dispensers using the names of VA patients whose electronic medical records
indicated they did not receive the drugs.

In another case at the Martinsburg, WV, VAMC, a former registered nurse pled guilty to acquiring and
obtaining a controlled substance by fraud, deception, and subterfuge. An OIG and VA Police Service
investigation determined that on approximately 23 occasions the defendant retrieved controlled medication
from the facility’s automated Pyxis medication dispensers using the names of VA patients whose electronic
medical records indicated that they did not receive the medication.

Former Roseburg, Oregon, VAMC Pharmacy Technician Pleads to Drug Diversion
A former Roseburg, OR, VAMC pharmacy technician pled guilty to receipt of stolen property. An OIG and
Drug Enforcement Administration (DEA) investigation revealed that for over 18 months the defendant received
a portion of over 6,000 tablets of controlled narcotics from another pharmacy technician. These thefts occurred
through the posting of false drug orders in the Vista Database. The loss to VA is approximately $23,475.

Former Palo Alto, California, VAMC Nurse Indicted for Drug Diversion
A former Palo Alto, CA, VAMC registered nurse was indicted for theft of Government property and obtaining a
controlled substance by fraud. An OIG investigation revealed that the defendant diverted approximately
1,200 syringes of hydromorphone by taking the doses that she claimed to have given to patients, logging in
under the profiles of other nurses, or initiating false wasting entries under both her profile and those of the other
nurses.

San Francisco, California, Social Worker Resigns After Drug Theft
A former San Francisco, CA, social worker resigned her position after an OIG investigation determined that she
entered a Veteran’s room and stole his prescription morphine.

Bristol, Virginia, Outpatient Clinic Practical Nurse Pleads Guilty to Drug Theft
A Bristol, VA, Outpatient Clinic licensed practical nurse pled guilty to acquiring and obtaining a controlled
substance by misrepresentation, fraud, forgery, deception, and subterfuge. An OIG and VA Police Service
investigation revealed that the defendant stole controlled substances from VA patients during scheduled
medication counts.

Manchester, New Hampshire, VAMC Physician Sentenced for Fraudulently Obtaining Controlled
Substances
A Manchester, NH, VAMC physician was sentenced to 3 years’ probation as a result of his conviction for
fraudulently obtaining controlled substances. A VA OIG, DEA, and OPM OIG investigation disclosed that
from June 2010 to January 2011, the defendant wrote approximately 17 prescriptions (68,760 total milligrams)
for oxycodone and Oxycontin that were not documented in the medical records of one of his patients. Some of
these prescriptions were written for the patient after the defendant went on workers’ compensation leave. This


36   |                                                                            VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                                                                    Office of
                                                                                                  Investigations
was in addition to 82,800 mg of oxycodone and Oxycontin that the patient received from VA during the same
time period. The patient later provided some of these pills to the defendant. As part of his plea agreement,
the defendant agreed to surrender his DEA registration and to never seek another one. The defendant also
entered into a separate civil agreement to resolve allegations that he violated Federal regulations when he issued
prescriptions that were not for a legitimate medical purpose and were outside the scope of his DEA registration.
While not admitting to any wrongdoing, the defendant paid $25,000 to resolve his potential civil liability.

Former Biloxi, Mississippi, VAMC Nurse Sentenced for Prescription Forgery
A former Biloxi, MS, VAMC nurse was sentenced to 3 years’ probation and fined $1,300 after pleading guilty
to prescription forgery. An OIG and state law enforcement investigation revealed that the defendant used the
names and PII of two Veterans from the medical center in order to fraudulently obtain narcotics from retail
pharmacies.

Atlanta, Georgia, VAMC Pharmacist Arrested for Theft
An Atlanta, GA, VAMC pharmacist was arrested on theft charges. An OIG investigation revealed that the
defendant stole pills from the VA pharmacy and attempted to conceal them in her personal bag. The defendant
subsequently admitted that the drugs were stolen.

Former Cleveland, Ohio, VAMC Nurse Sentenced for Theft of Dangerous Drugs
A former Cleveland, OH, VAMC nurse pled guilty to theft of dangerous drugs and was subsequently sentenced
to 18 months’ probation. An OIG and VA Police Service investigation revealed that the defendant stole vials of
fentanyl, midazolam, and lidocaine, as well as syringes and needles from the medical center.

Defendants Sentenced for Drug Violations
A Veteran entered into an 18 month Pre-Trial Diversion (PTD) program after being charged with the sale of
schedule III substances. A non-Veteran pled guilty to attempted trafficking in oxycodone and was sentenced
to 18 months’ incarceration. A VA employee was sentenced to 6 months’ incarceration, 5 years’ probation, and
500 hours’ community service after being convicted at trial for the sale of oxycodone. Operation Tango Vax, a
7-month multi-agency diversion task force operation, focused on combating the sale and distribution of illicit
and controlled prescription pharmaceutical drugs at the West Palm Beach, FL, VAMC and the surrounding
community by VA employees, Veterans, and their associates. The investigation identified that the majority of all
criminal activity occurred at the medical center and resulted in the seizure of over 3,000 oxycodone pills,
2 vehicles, and $180,920.

Veteran Arrested at VA Facility for Drug Trafficking
A Veteran was arrested at the Charlotte, NC, CBOC for drug trafficking and maintaining a dwelling in
furtherance of narcotics trafficking. An OIG and local law enforcement investigation revealed that the
defendant sold his VA-provided oxycodone to other people, to include an undercover officer. The Veteran was
held on a $100,000 secured bond.

Veteran Sentenced for Drug Trafficking
A Veteran was sentenced to 87 to 117 months’ incarceration and ordered to pay a $50,000 fine and
$2,254 in court costs after being convicted of trafficking in opium or heroin. An OIG and local drug task force
investigation revealed that the defendant sold his VA-provided hydrocodone to other people, to include an
undercover officer.



Semiannual Report to Congress                                                                                |   37
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Non-Veteran Sentenced for “Stolen Valor”
A non-Veteran was sentenced to 10 months’ incarceration, 36 months’ supervised release, and ordered to pay
$100,012 in restitution after pleading guilty to theft of Government property. An OIG investigation revealed
that the defendant never served in the U.S. Marine Corps and was previously removed from the Naval Reserve
Officer Training Corps. The defendant admitted to lying about being a Marine Corps combat Veteran and
receiving injuries from an improvised explosive device while serving in Afghanistan in order to fraudulently
receive VA medical benefits.

Former Rochester, New York, VA Employee Arrested for Workers’ Compensation Fraud
A former Rochester, NY, CBOC employee was arrested for making false statements to obtain Federal employee
compensation. An OIG and Department of Labor (DOL) OIG investigation revealed that the defendant, who
claimed an on-duty back injury and that she could only work for VA a limited number of hours each day, failed
to disclose to DOL or VA that she was working at a liquor store that she owned and operated. The defendant was
observed on numerous occasions working at her store after her limited shift at VA.

Former Miami, Florida, VAMC Chief of Canteen Service Arrested for Organized Fraud and Grand
Theft
A former Miami, FL, VAMC chief of canteen service was arrested for organized fraud and grand theft. 

An OIG investigation revealed that the defendant stole VA property, cash, a laptop, a Blackberry, misused his 

Government issued travel card, and negotiated several bad checks. The loss to VA is $22,450. 


Texas Valley Coastal Bend HCS VA Nurse Educator Indicted for Forgery
A VA nurse educator at the Texas Valley Coastal Bend HCS was indicted for forgery, tampering with
Government records, and misdemeanor perjury. An OIG investigation revealed that the defendant falsified
training records by forging the signatures of several VA employees on fraudulent course rosters and posting the
data to the VA Talent Management System in an attempt to obstruct a VHA audit of the Resuscitation Education
Initiative Program. The defendant also lied to OIG special agents during the course of the investigation resulting
in the misdemeanor perjury charge.

Asheville, North Carolina, VAMC Employee Indicted for Obtaining Property Under False Pretenses
An Asheville, NC, VAMC employee was indicted for obtaining property under false pretenses. An OIG
investigation determined that the defendant used a Government issued credit card to purchase items for
personal use. This was the second time in 2 years that the defendant misused a Government credit card. The
loss to VA is $4,293.

Waco, Texas, VAMC Police Service Employee Arrested for Theft
A Waco, TX, VAMC Police Service employee was arrested and indicted for theft of Government property and
access device fraud. A VA OIG and General Services Administration (GSA) OIG investigation revealed that the
defendant fraudulently used the GSA fleet vehicle credit card to purchase gas and services for others in exchange
for cash.

Former Memphis, Tennessee, VAMC Employee Sentenced for Theft
A former Memphis, TN, VAMC employee was sentenced to 2 years’ probation and ordered to pay $6,792 in
restitution after pleading guilty to theft of property over $1,000. An OIG and VA Police Service investigation
determined that the defendant used a Government issued credit card to purchase items for personal use.



38   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                                     Office of
                                                                                                   Investigations
Veteran Sentenced to Prison for Travel Benefit Fraud
A Veteran was sentenced to 4 months’ incarceration, 2 years’ probation, and ordered to pay VA $9,173 in
restitution after pleading guilty to fraudulent schemes. An OIG investigation revealed that the defendant
submitted false travel claims to the Prescott, AZ, VAMC claiming that she was traveling over 500 miles
roundtrip, when in actuality she was traveling only 180 miles.

Veteran Sentenced for Travel Benefit Fraud
A Veteran was sentenced to 4 months’ incarceration, 36 months’ probation, and ordered to pay VA
$30,448 in restitution after pleading guilty to theft of Government funds. An OIG investigation determined that
the defendant submitted approximately 150 fraudulent travel claims reporting 500 miles of round trip travel
from Yuma, AZ, to the Tucson, AZ, VAMC. The defendant resided within a few blocks of the Tucson, AZ,
VAMC.

Veteran Sentenced for Travel Benefit Fraud
A Veteran, who previously pled guilty to filing false claims for travel benefits, was sentenced to 5 years’ probation
and ordered to pay VA $17,361 in restitution. An OIG investigation disclosed that from June 2009 to
February 2012, the defendant submitted 156 false travel claims reporting that he was driving to the Togus, ME,
VAMC from locations that were over 300 miles roundtrip, when in actuality he resided only 3 miles from the
VAMC.

Veterans Sentenced for Theft of VA Travel Benefits
A Veteran was sentenced to 60 months’ probation, 100 hours’ community service, and ordered to pay restitution
of $57,535 after pleading guilty to theft of Government funds. An OIG investigation revealed that the defendant
had submitted fraudulent travel benefit vouchers to the Bay Pines, FL, VAMC since 1998. The defendant claimed
that he resided in Sebring, FL, and traveled 224 miles roundtrip, when in actuality he lived in St. Petersburg, FL,
and only traveled approximately 18 miles roundtrip to the medical center.

In another case at the Bay Pines, FL, VAMC, a Veteran was sentenced to 15 months’ incarceration and ordered to
pay restitution of $3,796 after pleading guilty to grand theft. An OIG investigation revealed that the defendant
filed 101 fraudulent travel vouchers at the Bay Pines, FL, VAMC claiming that he traveled 55 miles roundtrip
from Sarasota, FL, when in actuality he resided in St. Petersburg, FL, and only traveled approximately 18 miles
per trip.

Veteran Indicted for False Travel Claims
A Veteran was indicted for false claims after an OIG investigation revealed that he submitted 146 false travel
claims to the Albuquerque, NM, VAMC. The investigation revealed that the defendant was certifying that
he was traveling approximately 400 miles roundtrip when in actuality he was residing in Housing and Urban
Development-Veterans Affairs Supportive Housing in Albuquerque, NM. The loss to VA is approximately
$24,000.

Veteran Sentenced to Incarceration for VA Travel Benefit Fraud
A Veteran was sentenced to 72 months’ incarceration and ordered to pay VA $3,712 in restitution after pleading
guilty to felony theft. An OIG and VA Police Service investigation revealed that the defendant claimed that he
traveled 205 miles round trip to the Mountain Home, TN, VAMC, when in actuality he resided approximately
7 miles from the medical center.



Semiannual Report to Congress                                                                                  |   39
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Veteran Sentenced to Incarceration for VA Travel Benefit Fraud
A Veteran was sentenced to 8 months’ incarceration, 3 years’ supervised release, 200 hours’ community
service, and ordered to pay restitution of $5,893 after pleading guilty to theft of Government funds. An OIG
investigation revealed that the defendant filed false travel claims for travel from Tallahassee, FL, to the
Lake City, FL, VAMC. In actuality, the defendant resided in Lake City, FL. Also, the defendant committed an
identical fraud in 2011.

Veteran Indicted for VA Travel Benefit Fraud
A Veteran was indicted for false, fictitious, or fraudulent claims and fraudulent acceptance of payment after an
OIG investigation revealed that he submitted 259 fraudulent travel claims utilizing 11 different addresses. The
defendant and an unindicted co-conspirator also stole appointment slips from a fee basis provider and utilized
the stolen documents for travel benefits. The loss to VA is $18,961.

Veteran Sentenced for VA Travel Benefit Fraud
A Veteran was sentenced to 4 months’ home detention, 5 years’ probation, and ordered to pay $15,878 in
restitution. An OIG investigation revealed that the Veteran filed multiple false travel claims for daily travel from
Tallahassee, FL, to the Gainesville, FL, VAMC. The defendant actually drove to Gainesville at the beginning of
the week, slept in a vehicle or at a motel each night, and then returned to Tallahassee at the end of the week.

Veteran Sentenced for VA Travel Benefit Fraud
A Veteran was sentenced to 30 days’ incarceration, 36 months’ probation, and ordered to pay $8,882 in
restitution after pleading guilty to organized scheme to defraud. An OIG investigation revealed that the
defendant submitted fraudulent travel voucher claims with fictitious addresses to the Miami, FL, and West Palm
Beach, FL, medical centers in order to obtain $8,882 in travel reimbursement payments.


Veterans Benefits Administration Investigations
VBA administers a number of financial benefits programs for eligible Veterans and certain family members,
including VA guaranteed home loans, education, insurance, and monetary benefits. Investigations routinely
concentrate on payments made to ineligible individuals. For example, a Veteran may deliberately feign a medical
disability to defraud the VA compensation program. With respect to VA guaranteed home loans, OIG conducts
investigations of loan origination fraud, equity skimming, and criminal conduct related to management of
foreclosed loans or properties. VA appoints fiduciaries for Veterans in receipt of VA benefits who are deemed
incompetent and for minor children who are receiving VA benefits. OIG investigates allegations of fraud
committed by these fiduciaries.

OIG’s Information Technology and Data Analysis Division, in coordination with the Office of Investigations,
conducts an ongoing proactive Death Match project to identify deceased beneficiaries whose benefits continue
because VA was not notified of the death. When indicators of fraud are discovered, the matching results
are transmitted to OIG investigative field offices for appropriate action. Since the inception of the Death
Match project in 2000, OIG has identified 17,516 possible cases with over 3,249 investigative cases opened.
Investigations have resulted in the actual recovery of $71.1 million, with an additional $24 million in anticipated
recoveries. The 5-year projected cost savings to VA is estimated at $158 million. To date, there have been
640 arrests on these cases with additional cases awaiting judicial action.




40   |                                                                            VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                                    Office of
                                                                                                  Investigations
In the area of monetary benefits, OIG opened 163 investigations, made 85 arrests, and had a monetary impact of
over $6 million in fines, restitution, penalties, and civil judgments as well as more than $9.5 million in savings,
efficiencies, cost avoidance, and recoveries during this reporting period. One hundred and thirty-four of these
investigations involved the fraudulent receipt of VA monetary benefits including deceased payee, fiduciary
fraud, identity theft, and beneficiaries fraudulently receiving these benefits. Various criminal charges were filed
against 70 defendants for these types of investigations, and OIG obtained over $4.6 million in court ordered
payment of fines, restitution, and penalties and also achieved an additional $7.8 million in savings, efficiencies,
cost avoidance, and recoveries. The following entries provide a representative sample of the type of VBA
investigations conducted during this reporting period.

Veterans Sentenced for VA Compensation Fraud
A Veteran was sentenced to 12 months’ home detention, 36 months’ supervised release, 100 hours’ community
service, and ordered to pay $70,912 in restitution after pleading guilty to wire fraud. A second Veteran
was sentenced to 12 months’ home detention, 36 months’ supervised release, and ordered to pay $73,737 in
restitution after pleading guilty to wire fraud. A third Veteran was sentenced to 8 months’ home detention,
36 months’ supervised release, and ordered to pay $56,304 in restitution after pleading guilty to wire fraud.
From 2003 to 2011, while working at the Maryland Department of Veterans Affairs, an employee created
fraudulent doctor notes and amendment forms, commonly referred to as DD-215s, as part of claims for service
connected disabilities. An OIG investigation revealed that the State employee solicited and received cash
payments from the Veterans in exchange for assistance with their claims. The doctor’s notes claimed that the
Veterans had been diagnosed with diabetes and were insulin dependent. The fraudulent DD-215s were used
as proof of service in Vietnam. The State employee also filed a fraudulent DD-215 form to increase his own
rating for post-traumatic stress disorder (PTSD). A total of 17 Veterans received compensation benefits using
the fraudulent forms. The loss to VA is $1,151,219. The State employee also assisted the Veterans in receiving
$255,555 in property tax waivers from the state that they were not entitled to receive.

Former VA Fiduciary Pleads Guilty to Immigration Charge
A former VA fiduciary pled guilty to harboring a foreign national. A female co-defendant also pled guilty to a
similar immigration charge. An OIG investigation revealed that the VA fiduciary became romantically involved
with the co-defendant and helped arrange a fraudulent marriage between the co-defendant and an incompetent
Veteran. The VA fiduciary and co-defendant subsequently embezzled funds from the Veteran to help fund
immigration fees and living expenses. The fiduciary has agreed to make full restitution.

Three Former Veteran Caretakers Sentenced for Conspiracy and Theft of Government Funds
Three former Veteran caretakers were sentenced after pleading guilty to conspiracy and theft of Government
funds. The first defendant was sentenced to 24 months’ incarceration, and the other two defendants were
sentenced to 16 months’ incarceration. Additionally, all defendants were ordered to serve 3 years’ supervised
release. An OIG and U.S. Postal Inspection Service (USPIS) investigation revealed that the defendants applied
for and received VA pension benefits without the knowledge of the Veteran while he resided in their personal
care home. The defendants used a post office box to receive all of the Veteran’s VA benefit checks from
August 2003 to October 2010. The approximate loss to VA is $123,000.

Former VA Fiduciary Arrested for Misappropriation by a Fiduciary
A former VA fiduciary was arrested for misappropriation by a fiduciary. An OIG investigation determined that
the former fiduciary, who was a former attorney and former police officer, embezzled approximately $130,000 of
VA benefits from his brother-in-law, a disabled Veteran.

Semiannual Report to Congress                                                                                 |   41
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Former VA-Appointed Guardian Pleads Guilty to Misappropriation by a Fiduciary
A former VA-appointed guardian pled guilty to misappropriation by a fiduciary. An OIG investigation
determined that the defendant stole funds payable to his sister, who is the incompetent dependent of a deceased
Veteran, and used the funds for his personal use. The loss is approximately $153,000.

Former Fiduciary Arrested for Misappropriation
A former fiduciary was arrested after being indicted for misappropriation by a fiduciary. An OIG investigation
revealed that from October 2004 to September 2010 the defendant embezzled approximately $251,534 by
submitting fraudulent accountings and fictitious certificate of deposit forms to VA. In the accountings, the
defendant claimed that $244,857 of the Veteran’s assets were in savings and certificate of deposit accounts,
when, in actuality, there was less than $100 in the accounts. The defendant admitted to fabricating the financial
records to prevent VA from terminating her as the Veteran’s fiduciary.

Former Fiduciary Sentenced for Theft
A former VA fiduciary was sentenced to 41 months’ incarceration, 36 months’ supervised probation, and
ordered to pay $639,618 in restitution after pleading guilty to theft of Government funds. An OIG investigation
revealed that the defendant embezzled $460,679 of VA benefits and $176,246 of Social Security benefits from an
incompetent Veteran. The defendant admitted to submitting fraudulent accountings to both VA and the court
by altering reports and creating fraudulent certificates of deposit.

VA Appointed Fiduciary Indicted for Misappropriation
A VA appointed fiduciary was indicted for theft of Government funds, misappropriation by a fiduciary, and false
statements after an OIG investigation revealed he misused funds intended for his Veteran brother. As a result of
his actions, the Veteran sustained a loss of approximately $50,000.

VA Fiduciary Indicted for Misappropriation by a Fiduciary
A VA fiduciary was indicted for misappropriation by a fiduciary. An OIG investigation revealed that the
defendant, who is the Veteran’s sister, used the Veteran’s VA funds for personal expenses and for approximately
2 years failed to pay the Veteran’s mortgage payments. The Veteran’s home subsequently entered into foreclosure
status as a result of the defendant’s actions.

Former Chicago, Illinois, VARO Employee Sentenced for Theft
A former Chicago, IL, VARO employee, who was a union official, was sentenced to 24 months’ probation
and ordered to pay restitution of $18,662 after pleading guilty to theft. The defendant resigned prior to being
terminated. An OIG and DOL investigation revealed that the defendant withdrew funds from a union account
for personal use, forged the signatures of other union officials to checks written to himself, and purchased two
computers for personal use with a union debit card.

Veteran Indicted for VA Home Loan Guaranty Fraud
A Veteran was indicted for fraudulently obtaining a $58,000 VA Home Loan Guaranty. An OIG investigation
determined that the defendant falsely certified to VA that he would occupy the home as his primary residence.
The defendant provided a fraudulent lease agreement to VA and the lender regarding his primary residence in
order to qualify for the home loan. In 2011, the defendant refinanced the home and again falsely certified that he
had previously occupied the home as his primary residence. The defendant subsequently admitted that he never
intended to occupy the home as his primary residence, and in fact, purchased the home for his son.




42   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                                      Office of
                                                                                                    Investigations
Veteran Pleads Guilty to Theft and Making False Statements
A Veteran pled guilty to theft of Government funds and making false statements after a VA OIG, U.S. Postal
Service (USPS) OIG, and DOL OIG investigation revealed that he was committing workers’ compensation fraud
against the Postal Service and disability fraud against VA by claiming he could not work due to his medical
issues. The investigation further determined that the defendant was coaching little league sports, going on
vacations, breeding and selling dogs for profit, and lifting heavy objects. The loss to VA is $51,269 and the loss to
the Postal Service is in excess of $288,000.

North Carolina Man Admits To Lying About Physical Condition to VA, Judge Orders $519K in
Restitution and 2 Years in Prison
A Veteran was sentenced to 2 years’ incarceration, 3 years’ supervised release, and ordered to pay VA restitution
of $519,293 and the Social Security Administration (SSA) restitution of $7,575. A VA OIG and SSA OIG
investigation revealed that the defendant submitted false statements in order to receive various VA compensation
benefits based on the loss of use of his hands and feet due to Reflex Sympathetic Dystrophy. The defendant, who
received approximately $7,500 per month from VA, was able to ambulate without any human or mechanical
assistance and carry out other self-sufficient daily activities.

Veteran Indicted for Theft of Government Funds and Illegally Possessing Weapons, Wife Indicted
for Theft of Government Funds
A Veteran and his wife were indicted for theft of Government funds after an OIG investigation revealed that he
fraudulently received more than $7,000 per month in VA compensation benefits by claiming the loss of use of
both legs. Surveillance video showed the Veteran ambulating freely on several occasions, driving an automobile
unattended, moving hay bales, and driving a riding lawnmower. After the initial indictment, the defendant
failed to register as a sex offender after moving back to North Carolina and was subsequently indicted for that
as well. Police reports filed by the defendant in 2011 claimed firearms were stolen from his home. Subsequent
investigation revealed the defendant’s mother and stepfather had purchased over 23 firearms for him in 2011.
As a result, a second superseding indictment was filed charging the defendant with being a convicted felon in
possession of firearms and conspiracy. The defendant’s mother and stepfather were also indicted for conspiracy
and making material false statements intended to deceive Federal licensed firearms dealers.

Veteran Indicted for Compensation Fraud
A Veteran was indicted and subsequently arrested for theft of Government funds and mail fraud. A VA OIG
and USPS OIG investigation revealed that the defendant, who was in receipt of VA individual unemployability
benefits as well as other Federal disability benefits, reported he was unemployed and had no income. The
investigation determined that the defendant owned and operated an auto sales and laundromat business and
also owned several rental properties. The loss to the Government is approximately $500,000, which includes
VA’s loss of approximately $125,000.

Veteran Pleads Guilty to VA Compensation Fraud
A Veteran pled guilty to making materially false statements after an OIG and USPIS investigation determined
that the defendant was employed while in receipt of VA individual unemployability benefits. The defendant
purportedly created a medicinal remedy for several serious ailments and received monetary compensation
as well as royalties for his product. The defendant subsequently sold stock in his product, which was later
determined to be fraudulent. The loss to VA is $82,912.



Semiannual Report to Congress                                                                                  |   43
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Veteran Pleads Guilty to Using a False Military Discharge Certificate
A Veteran pled guilty to using a falsely altered military discharge certificate. An OIG investigation revealed
that the defendant applied for VA benefits in 2010 claiming PTSD from combat service in Vietnam. The
Veteran submitted an altered DD-214 reflecting 2 years of combat service, multiple medals for valor, and injuries
sustained in combat. The investigation determined that the Veteran never served in Vietnam and made multiple
false statements for the purpose of receiving VA benefits.

Veteran Sentenced for Theft of Government Benefits
A Veteran was sentenced to 18 months’ incarceration, 3 years’ supervised probation, and ordered to pay
$221,500 in restitution to VA and $174,926 in restitution to SSA after pleading guilty to theft of Government
funds and false statements to obtain Federal benefits. A VA OIG, USPS OIG, and SSA OIG investigation
revealed that the defendant, who was in receipt of VA individual unemployability as well as other Federal
disability benefits, reported that he was unemployed and had no income. In actuality, the defendant was
employed as the Bishop of a church and also owned and operated a daycare business.

Veteran Sentenced for VA and Workers’ Compensation Fraud
A Veteran, who was a former civilian U.S. Navy employee, was sentenced to 24 months’ incarceration and
ordered to pay $357,977 in restitution. At sentencing, the defendant paid full restitution to VA. The defendant
fraudulently received VA individual unemployability benefits and workers’ compensation benefits while actively
managing a landscaping business. The loss to VA was $143,195.

Veteran Sentenced for VA Compensation Benefits Fraud
A Veteran was sentenced to 2 years’ incarceration, 36 months’ probation, and ordered to pay VA $654,081 in
restitution. An OIG investigation revealed that the Veteran and his wife falsified the Veteran’s service-connected
disability to include dementia symptoms. The Veteran and his wife continued to fraudulently report the
symptoms to VA for over 20 years in order to obtain VA compensation benefits, VA educational benefits, and
Civilian Health and Medical Program of VA medical benefits for the family.

Veteran Pleads Guilty to Theft of Government Funds
A Veteran pled guilty to theft of Government funds. An OIG investigation revealed that from June 2004 to
December 2012 the defendant used his brother’s identity in order to fraudulently receive VA benefits and avoid
being identified as a fugitive felon. The defendant’s brother is a Veteran who has not resided in the U.S. since
1973. The defendant’s deception allowed him to obtain unauthorized medical care and receive VA pension
benefits. The loss to VA is approximately $178,600. The defendant is scheduled for sentencing in October 2013.

Veteran Pleads Guilty to Threats and False Impersonation
A Veteran pled guilty to interstate threats against VA employees and false impersonation of an officer or
employee of the United States. An OIG, Defense Criminal Investigative Service (DCIS), and Immigration and
Customs Enforcement investigation revealed that the defendant submitted a fraudulent DD-214 to VA that
misrepresented his true level of functioning. The defendant also impersonated military personnel, participated
in civilian contracted military exercises, taught martial arts, and brought and sold military grade lasers overseas
while fraudulently collecting VA compensation benefits. When the Veteran learned he was about to have his
benefits reduced, he threatened to kill VA employees. The loss to VA is $120,093.

Veteran Pleads Guilty to Theft of Government Funds
A Gulf War Veteran pled guilty to theft of Government funds. An OIG investigation revealed that the defendant
submitted false claims to VA, related to PTSD, in order to receive health care and compensation benefits that she

44   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                                     Office of
                                                                                                  Investigations
was not entitled to receive. The defendant, who claimed to be unemployable and housebound since 1996, earned
a Bachelor’s and Master’s Degree in Education and worked full-time as a teacher. The loss to VA is $205,402.

Veteran Indicted for Theft of Government Funds and Making False Statements
A Veteran was indicted for theft of Government funds and making false statements. An OIG investigation
revealed that the defendant submitted an altered DD-214, which reflected service in Vietnam, a Purple Heart,
and a Bronze Star, and then made false statements during a compensation and pension examination claiming
that he had been an assassin in Vietnam. The investigation further disclosed that the defendant never served in
combat and was never awarded a Bronze Star or Purple Heart. The loss to VA is $114,208.

Veteran Arrested for Theft and Fraud
A Veteran was indicted and subsequently arrested for theft of Government funds, wire fraud, false statements,
false claims, and failure to file a tax return. An OIG and IRS CID investigation revealed that the defendant
received VA unemployability benefits while operating a Ponzi scheme that defrauded investors of over
$3.5 million. The loss to VA is approximately $250,000.

Veteran Sentenced for Theft of Government Funds
A Veteran was sentenced to 3 years’ probation and fined $2,500 after pleading guilty to theft of Government
funds. An OIG and FBI investigation revealed that the Veteran fraudulently claimed the loss of use of both feet,
which entitled him to Special Monthly Compensation. Prior to sentencing, the Veteran made full restitution of
$61,686 to the VA Debt Management Center.

Veteran Arrested for Theft of Government Funds
A Veteran was arrested for theft of Government funds relating to his fraudulent award of VA compensation
benefits for PTSD. An OIG investigation revealed that the defendant was awarded compensation at the
100 percent rate based on false stressors he fabricated to support his claim. Some of these false stressors included
his claimed participation in a dead body detail during Operation Desert Storm, his involvement in an incident
where a fellow soldier’s vehicle was fired upon causing the vehicle to crash, and being subjected to constant
incoming rounds. The loss to VA is approximately $185,000. Also, the defendant was previously convicted in
1996 of defrauding VA’s home loan guarantee program.

Veteran Indicted for False Claims and False Statements
A Veteran was indicted for false claims and false statements. An OIG investigation, initiated as a result of a
referral from a VBA employee, revealed that the defendant submitted fraudulent military documents to VA in
order to receive VA compensation benefits for PTSD. The defendant claimed to be an Air Force Ranger, to have
been under fire and engaged in hand-to-hand combat in Vietnam, to have 7 confirmed kills, and to have saved
a comrade by carrying him for 6 miles to safety. The investigation revealed that the defendant was a carpenter
in the military with no foreign service. These false statements were discovered early in the investigation and
prevented the awarding of any VA compensation benefits.

Veteran Sentenced for Theft of Government Funds
A Veteran was sentenced to 25 months’ incarceration and ordered to pay $4,824 in restitution after pleading
guilty to theft of Government funds. An OIG investigation determined that for approximately 3 years the
defendant assumed the identity of a deceased Veteran in order to obtain medical treatment at four different
VAMCs. In addition to obtaining medical care, the defendant also applied for and received pension benefits
under the assumed identity. When interviewed, the defendant stated that he assumed the identity of the


Semiannual Report to Congress                                                                                 |   45
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
deceased Veteran because he knew he had an outstanding warrant and would not be able to obtain medical care
from VA under his own name. The loss to VA is in excess of $182,000.

Veteran Sentenced for Theft of VA Benefits
A Veteran was sentenced to 36 months’ incarceration, 36 months’ supervised release, and ordered to pay
$142,668 in restitution after pleading guilty to theft of Government property. An OIG investigation disclosed
that the defendant made false statements in order to fraudulently obtain VA disability benefits. From 2000 to
2012, the defendant received VA compensation payments for panic disorder with agoraphobia, a back injury,
and aid and attendance. The defendant admitted that he exaggerated his disabilities and lied about his ability
to work. Because the Veteran violated his probation on an unrelated case by committing this fraud, he was
sentenced to an additional 8 months’ incarceration to be served consecutive to the sentence imposed in this
OIG case. The loss to VA is approximately $329,000.

Veteran Indicted for Theft of Government Funds and Health Care Benefits Fraud
A Veteran was indicted for theft of Government funds and health care benefits fraud. The defendant falsely
claimed compensation for disabilities to include pain in his back, ankle and shoulder pain that prevented
him from lifting his child, pain that required him to walk with a cane, and depression so severe that he was
unemployable and socially isolated. An OIG investigation revealed that the defendant frequented bars in the
area, attended college, and played recreational men’s softball at an extremely high athletic level. The loss to VA is
$119,490.

Veteran Arrested for Theft of Government Funds and False Statements
A Veteran was arrested for theft of Government funds and false statements. A VA OIG and SSA OIG
investigation revealed that the defendant was awarded individual unemployability and Social Security Disability
Insurance based on a false claim that he was unable to work due to service-related injuries. The defendant, a
full-time treasurer of a Fire Department since 2007, had his salary paid to his wife in order to hide his income
from VA and SSA. The loss to VA is $60,837, and the loss to SSA is $141,181.

Defendant Sentenced after Pleading Guilty to Fraud
A defendant was sentenced to 30 months’ incarceration, 36 months’ supervised release, and ordered to pay VA
$437,000 in restitution after pleading guilty to wire fraud. An OIG and Naval Criminal Investigative Service
investigation revealed that the defendant submitted fraudulent science and engineering degrees to the U.S. Navy
and was subsequently accepted into the nuclear program with the rank of Ensign. The defendant then used her
fraudulently acquired military status to apply for a VA-backed home loan and submitted forged and fraudulent
bank statements and military documents confirming her actual and anticipated income and assets. In 2010,
after the investigation revealed that the defendant had never been awarded any of the degrees, she was court­
martialed and incarcerated for the false representations relating to her enlistment. The defendant will serve her
new sentence after her current period of imprisonment.

Veteran Arrested for Defrauding Other Veterans
A Veteran was arrested for mail fraud after an OIG and IRS CID investigation determined that he fraudulently
took payments from 16 Veterans with the promise of getting the Veterans VA compensation benefits at a
100 percent rating. The payments were allegedly used to pay an attorney to do research and file the claims with
VA. The defendant stole over $400,000 from these Veterans and never filed a single claim on their behalf.




46   |                                                                            VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                                                                    Office of
                                                                                                  Investigations
Veteran and Business Owner Indicted for VA Education Fraud
A Veteran and a former business owner of a Veteran vocational training program were indicted for theft by
deception, forgery in the first degree, and identity fraud. An OIG investigation revealed that the defendant
forged signatures and submitted false certifications to the VA Education Program, falsely claiming that the
co-defendant was an apprenticeship trainee in a training program operated by the defendant. The investigation
also revealed that the co-defendant provided false statements regarding the receipt of VA funds generated by the
false certifications. The loss to VA is approximately $14,169.

Veteran Sentenced for VA Education and Health Care Fraud
A Veteran was sentenced to 12 months’ incarceration, 3 years’ supervised probation, and ordered to pay VA
$10,051 in restitution. An OIG investigation determined that the defendant submitted fraudulent DD-214s to
the Montana National Guard and the Ft. Harrison, MT, VAMC. Before being discharged from active duty as
“Other than Honorable,” the Veteran purchased eight fictitious DD-214s from a service member at the Miramar
Air Force Base indicating an “Honorable” discharge. The Veteran then used an ink signature stamp to make the
DD-214s appear more authentic. The Veteran submitted one of the fictitious DD-214s to re-enter the military,
where he immediately made a claim for VA educational benefits under the GI Bill. The Veteran also submitted
one of the fictitious DD-214s to the VAMC and began receiving VA health care benefits to which he was not
entitled.

Widow Sentenced for Theft of VA Benefits
The widow of a Veteran was sentenced to 15 months’ incarceration, 3 years’ supervised release, and ordered to
pay VA restitution of $308,040. An OIG investigation revealed that the defendant repeatedly made false reports
to VA by failing to report her April 1978 remarriage. The defendant filed the false reports in order to continue to
receive Dependency and Indemnity Compensation (DIC) benefits.

Veteran Sentenced for Theft of Government Funds
A Veteran was sentenced to 15 months’ incarceration, 3 years’ supervised release, and ordered to pay restitution
of $77,850 after pleading guilty to theft of Government funds. An OIG investigation revealed that for over
4 years the defendant was receiving individual unemployability benefits while employed with the U.S. Coast
Guard.

VA Pension Beneficiary Sentenced for Theft of Benefits
A VA pension beneficiary was sentenced to 21 months’ home confinement with electronic monitoring, 5 years’
probation, and ordered to pay $351,000 in restitution to VA and New York City after pleading guilty to mail
fraud and theft of Government funds. An OIG and local police investigation revealed that the defendant
fraudulently received her deceased husband’s teacher’s pension, which she failed to report to VA, causing VA to
pay her approximately $132,000 in VA pension benefits she was not entitled to receive.

Veteran Arrested for VA Pension Benefits Fraud
A Veteran was arrested for theft of Government funds and false statements. An OIG investigation disclosed that
the defendant fraudulently obtained a VA pension by falsifying his initial application and attempting to hide his
assets from VA. The loss to VA is approximately $75,250.

Non-Veteran Sentenced for Theft of VA Benefits
A non-Veteran, falsely claiming to be a Vietnam Veteran, was sentenced to 6 months’ incarceration and ordered
to pay $51,868 in restitution. An OIG and DCIS investigation revealed that the defendant submitted a fraudulent
DD-214 to VA and subsequently obtained VA health care and pension benefits.

Semiannual Report to Congress                                                                                |   47
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Daughter of Deceased VA Beneficiary Sentenced for Theft of Government Funds
The daughter of a deceased VA beneficiary was sentenced to 4 years’ probation and ordered to pay
$63,300 in restitution after pleading guilty to theft of Government funds. An OIG investigation determined that
the defendant stole VA benefits that were direct deposited into a joint account after her mother’s death in
May 2007. The defendant admitted to converting the funds for personal use.

Son of Deceased Veteran Sentenced for Theft of VA Funds
The son of a deceased Veteran was sentenced to 366 days’ incarceration, 3 years’ supervised release, and ordered
to pay $202,662 in restitution. An OIG investigation determined that the defendant stole VA benefits that were
direct deposited into a joint account after his father’s death in March 2006. The defendant admitted to spending
the stolen funds at nightclubs and golf courses.

Nephew of a Deceased VA Beneficiary Pleads Guilty to Theft of Government Funds
The nephew of a deceased VA beneficiary was arrested and subsequently pled guilty to theft of Government
funds. An OIG and U.S. Secret Service investigation revealed that the defendant stole VA benefit payments
issued after his aunt’s death in January 2010. The loss to VA is $124,994.

Daughter of Deceased Beneficiary Pleads Guilty to Theft of Government Funds
The daughter of a deceased beneficiary pled guilty to theft of Government funds. An OIG investigation revealed
that the defendant stole VA benefits that were direct deposited into her mother’s bank account after her mother’s
death in May 2005. The loss to VA is $103,557.

Granddaughter of Deceased VA Beneficiary Sentenced for Theft of VA Benefits
The granddaughter of a deceased VA beneficiary was sentenced to 3 months’ incarceration, 12 months’
probation, and ordered to pay VA restitution of $50,073 after pleading guilty to theft of Government funds.
An OIG investigation determined that the defendant stole VA DIC benefits that were direct deposited after her
grandmother’s death in April 2009. The defendant admitted to using the stolen funds for her own expenses.
The loss to VA is $51,227.

Daughter of a Deceased Veteran Sentenced for Theft of VA Benefits
The daughter of a deceased Veteran was sentenced to 6 months’ home confinement, 2 years’ probation,
and ordered to pay VA $50,674 in restitution after pleading guilty to theft of Government funds. An OIG
investigation revealed that the defendant stole VA benefits direct deposited into her father’s bank account after
his death in December 2009.


Other Investigations
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false claims submitted
by contractors, and other fraud relating to VA procurement activities. During this reporting period, in the
area of procurement practices, OIG opened 20 cases, made 6 arrests, and obtained more than $629,000 in fines,
restitution, penalties, and civil judgments. Over $143,000 was achieved in savings, efficiencies, cost avoidance,
and recoveries.

OIG also investigates theft of IT equipment or data, network intrusions, and child pornography. During this
reporting period, in the area of information management crimes, OIG opened two cases, made one arrest, and
achieved $31,000 in savings, efficiencies, cost avoidance, and recoveries.


48   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                                     Office of
                                                                                              Investigations
Veteran Indicted for Murder of Another Veteran
A Veteran was indicted for first degree murder and conspiracy to commit first
degree murder. A VA OIG, SSA OIG, Tennessee Bureau of Investigation, and a
district attorney investigation revealed that the defendant and his current spouse
conspired to murder her previous husband, a combat Veteran and VA beneficiary,
by forcing him to overdose on prescription drugs. The defendant and spouse
then staged a crime scene to make it appear that the victim committed suicide.
The victim’s former spouse then fraudulently applied for DIC benefits, claiming
his drug overdose was related to his service connected PTSD. The defendant
has agreed to fully cooperate with the upcoming prosecution against his wife in
exchange for a reduced sentence. The loss to VA is over $100,000.

Former Health Care Worker Pleads Guilty to Drug Possession and
Tampering
A former health care worker, who provided contract services to VA in 2008, pled
guilty to acquiring or obtaining possession of a controlled substance by fraud
and tampering with consumer products with reckless disregard. A multi-agency
investigation revealed that the defendant stole syringes of fentanyl that were
prepared and intended for patients scheduled to undergo a medical procedure and
replaced them with syringes that he had previously stolen and filled with saline.
The defendant used the stolen syringes to inject himself, causing the syringes to
become tainted with his blood that was infected with Hepatitis C. As a result of
the defendant’s conduct, over 40 patients became infected with Hepatitis C, to
include three Veterans. Two of the Veterans became infected during procedures
at a private hospital and one during a procedure at a VAMC. As part of the plea
agreement, the defendant agreed to a sentence of between 30 and 40 years of
incarceration.

Construction Company Owner Pleads Guilty to Obstructing a Federal
Grand Jury Investigation
The owner of a large construction company pled guilty to obstructing a Federal
grand jury investigation by altering and deleting documents from his computer.
A multi-agency investigation revealed that the defendant, a former minority
owner of two SDVOSBs, received a grand jury subpoena for records relating to his
business dealings with another company and claims that this other company was
an SDVOSB. The defendant subsequently deleted documents on his computer that
were relevant to the pending investigation.

New Jersey Construction Contractor Faces Up to 15 Years in Prison,
$250K Fine for $5,000 Bribe to VA Official
A contractor pled guilty to bribing a VA official. An OIG and FBI investigation revealed that the contractor
became affiliated with two businesses that were applying to be placed on a VA list known as the Multiple Award
Task Order Contract (MATOC) and that certain VA construction projects were available only to contractors
who were placed on this list. Between October 2012 and February 2013, the contractor offered to make a
$5,000 bribe payment to a VA employee for assistance in having his two companies placed on the MATOC.


Semiannual Report to Congress                                                                            |   49
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Subsequently, the contractor made two cash payments totaling $1,000 to the VA employee in exchange for the
employee’s assistance in placing the two businesses on the list.

Georgia Contractor Sentenced for SDVOSB Fraud
A Georgia contractor was sentenced to 24 months’ incarceration and 2 years’ supervised release after pleading
guilty to making false statements. As part of the plea agreement, the defendant paid $181,556 in restitution.
Subsequent to a referral received from the U.S. Government Accountability Office (GAO), a VA OIG, Small
Business Administration (SBA) OIG, U.S. Department of Agriculture OIG, and U.S. Army CID investigation
revealed that the defendant fraudulently obtained five SDVOSB set-aside contracts worth over $2 million.

Construction Company Owners Sentenced for SDVOSB Fraud
Two owners of a construction company were sentenced after pleading guilty to defrauding the SDVOSB and
8(a) Business Development Programs. The non-Veteran defendant, who actually founded and managed the
construction company, was sentenced to 366 days’ incarceration, 2 years’ probation, and a criminal asset
forfeiture of $399,000. The service-disabled Veteran defendant, who was listed as president and majority owner
of the company but who actually worked full-time for an unrelated company, was sentenced to 6 months’ home
confinement, 2 years’ probation, 200 hours’ community service, and a criminal forfeiture of approximately
$38,000. A multi-agency investigation revealed that the defendants conspired to create an SDVOSB using
the service-disabled defendant’s status knowing that he was essentially only a figurehead and that the
non-Veteran defendant was actually managing the company. The defendants submitted false certifications to the
Government regarding the company’s SDVOSB status, and while seeking 8(a) status with SBA, submitted other
false documents to support their claim of being eligible for that program. The defendants caused the company
to receive more than $20 million in contracts from VA, the U.S. Army, and GSA that were set aside or preferred
for SDVOSB or 8(a) entities. This case was one of the original fraudulent companies identified in GAO’s
2009 report concerning SDVOSB fraud.

Defendants Plead Guilty to Fraud in SDVOSB Investigation
A defendant pled guilty to mail fraud and a second defendant pled guilty to wire fraud and making material
false statements. A multi-agency investigation determined that the owner of a company utilized Veterans
for labor without paying them wages and utilized a service-disabled Veteran’s name to apply for and receive
Government contracts. Both of the above defendants were employed by this company. The company was
awarded a painting contract under a set-aside SDVOSB solicitation and was paid $44,742 by the Buffalo, NY,
VAMC. Criminal charges are still pending against the owner of the company and two additional defendants.

Business Owner Pleads Guilty to Making False Statements
A business owner pled guilty to making false statements. A VA OIG and SBA OIG investigation revealed that
the defendant used personal information from a service-disabled Veteran to form a joint venture. The defendant
then signed the Veteran’s name on bids and correspondence and was subsequently awarded two VA construction
contracts for $1,029,598.

Defendant Sentenced for Theft of Veterans’ Identities
A defendant was sentenced to 65 months’ incarceration, 36 months’ supervised probation, ordered to pay
$462,039 in restitution, and forfeit $159,265 after pleading guilty to wire fraud and aggravated identity theft.
An OIG, IRS CID, and local police investigation revealed that the defendant used Veterans’ PII stolen from
VA medical records to file fraudulent Federal income tax returns. Additional stolen identities of non-Veterans
obtained outside VA were also used by the defendant during this scheme. The defendant received approximately


50   |                                                                         VA Office of Inspector General
                                                                               Issue 70 | April 1 – September 30, 2013
                                                                                      Office of
                                                                                                    Investigations
$462,039 in illicit proceeds from fraudulent returns and attempted to file additional fraudulent income tax
returns in an amount exceeding $600,000.

Non-Veteran Sentenced for Identity Theft
A non-Veteran was sentenced to 152 days’ incarceration and ordered to pay VA $19,072 in restitution after
pleading guilty to fraud charges. An OIG, VA Police Service, and local police investigation revealed that the
defendant stole a Veteran’s identity and for 3 months fraudulently received VA medical care.

Veteran Indicted for Fraud and Aggravated Identity Theft
A Veteran was indicted for wire fraud, mail fraud, and aggravated identity theft. A multi-agency investigation
revealed that from 2007 to 2013 the defendant created a series of fraudulent charter schools in order to receive
approximately $25,000,000 in surplus Government computer equipment under a GSA Computers for Learning
program. The defendant subsequently obtained computers from VA facilities located in multiple states. The loss
to VA is approximately $1,900,000.

Veteran Arrested for Identity Theft and Fraud
A Veteran was indicted for aggravated identity theft, wire fraud, and mail fraud. A VA OIG, SSA OIG,
Department of Treasury OIG, and Washington State Department of Social and Health Services investigation
revealed that the defendant stole the personal identification of two Veterans in order to establish fraudulent VA
e-benefits accounts and re-route VA compensation payments to prepaid debit cards. As part of the scheme,
the defendant utilized Direct Express to set up fraudulent accounts with prepaid debit card issuing banks.
Also, a recent search of the defendant’s residence revealed numerous stolen and counterfeit Washington State
drivers’ licenses, social security cards, business checks, birth certificates, and debit and credit cards. A cursory
examination of the evidence revealed that there are over 25 identity theft victims. At this time, the loss to VA is
approximately $60,000.

Non-Veteran Arrested for Identity Theft and Fraud
A non-Veteran was indicted and subsequently arrested for aggravated identity theft, wire fraud, and theft
of Government funds. An OIG, IRS CID, and state police investigation revealed that the defendant used
Veterans’ PII obtained from stolen VAMC medical records and other individuals’ information to file $630,783 in
fraudulent tax returns.

Veteran Sentenced for Using Stolen Identities to Defraud VA
A Veteran was sentenced to 3 months’ incarceration, 3 months’ home detention, 3 years’ supervised release,
and ordered to pay $18,000 in restitution. An OIG investigation determined that the defendant assumed the
identities of six other Veterans in order to fraudulently receive advanced education payments under the GI Bill.
While on active duty, the defendant obtained a personnel roster that contained PII of other service members.
After the defendant’s discharge, she assumed the identities of the six Veterans in order to request advance
education payments online. The defendant had the checks mailed to her residence and created false powers of
attorney in order to negotiate the checks. The loss to VA is $18,000.

Veteran Sentenced for Identity Theft
A Veteran was sentenced to 140 months’ incarceration, lifetime supervision, and ordered to pay $53,935 in
restitution, $12,027 of this amount to be paid to VA. The defendant previously pled guilty to possession of child
pornography, failure to register as a sex offender, health care fraud, and possession of firearms as a convicted
felon. An OIG investigation revealed that for 7 years the defendant, who resided in Vermont, assumed a North
Carolina Veteran’s identity and used the false identity to obtain a U.S. Passport, purchase firearms, vote, obtain

Semiannual Report to Congress                                                                                  |   51
Issue 70 | April 1 – September 30, 2013
Office of
              Investigations
employment, and obtain VA medical care through the VA fee basis program. A computer analysis conducted by
OIG’s Computer Forensics Laboratory also linked the defendant to child pornography.

Veteran Indicted for Theft of Government Funds and Aggravated Identity Theft
A Veteran was indicted for theft of Government funds and aggravated identity theft. A VA OIG and SSA OIG
investigation determined that the Veteran received VA individual unemployability benefits since 1997 while
working as a golf professional, car salesman, Pentecostal preacher, mortgage loan specialist, and in a variety of
other jobs. In an effort to hide earned income, the defendant used other individuals’ Social Security Numbers
(SSNs) for employment. The Veteran also used these SSNs to obtain automobile loans. The loss to VA is
approximately $350,000, and the loss to SSA is approximately $407,000.

Non-Veteran Arrested for Access Device Fraud and Theft of Government Funds
A non-Veteran was arrested for access device fraud and theft of Government funds. During an OIG, IRS CID,
and local police investigation, the defendant used PII, supplied by an undercover officer, to file $126,793 in
fraudulent tax returns. Also, during the investigation, the defendant sold illicit drugs and stolen firearms to an
undercover officer. Illicit drugs, PII, a ballistic vest, and firearms were found during a search of the defendant’s
residence.

Physician’s Assistant Sentenced for Health Care Fraud
A physician’s assistant was sentenced to 8 months’ home confinement, 2 years’ supervised probation, and
ordered to pay VA restitution of $154,872 after pleading guilty to health care fraud and conspiracy to commit
health care fraud. The defendant’s wife was sentenced to 18 months’ probation after entering into a PTD
agreement as a co-conspirator to the health care fraud. An OIG investigation revealed that the defendant, his
wife, and their medical director, who is a physician, were contracted to conduct disability rating examinations
of Veterans in northern Mississippi. The contract with VA stipulated that the physician perform all disability
rating examinations. The investigation determined that the defendant conducted 337 of the 347 exams
performed at the clinic between September 2005 and August 2008. The defendant forged the doctor’s signature
on all of the reports and then submitted the reports and false claims to VA for payment.

Former VA Contract Employee Sentenced for Possession of Child Pornography
A former VA contract employee was sentenced to 78 months’ incarceration after pleading guilty to possession
of child pornography and receipt of child pornography. An OIG investigation determined that the defendant
accessed internet websites containing images of child pornography and then saved the images to his VA-issued
computers while working at two VA clinics in New Mexico.

10-Year Prison Sentence, Lifetime Supervision for Dayton, Ohio, Man Involved in Online
Exploitation of Children
A Veteran was sentenced to 120 months’ incarceration and lifetime court supervision after pleading guilty to
possessing and viewing sexually explicit images of minor children while he was an inpatient at the Dayton,
OH, VAMC. An OIG investigation that included the issuance of three search warrants and a forensic analysis
revealed more than 500 images and over a dozen videos of child pornography, including sadism and violence.
The National Center for Missing and Exploited Children was able to identify 20 known child victims among the
images retrieved.




52   |                                                                             VA Office of Inspector General
                                                                                   Issue 70 | April 1 – September 30, 2013
                                                                                      Office of
                                                                                                    Investigations
Home Health Aide of Disabled Veteran Sentenced for Theft
The home health aide of a service-connected disabled Veteran was sentenced to 15 years’ incarceration, with the
first 3 years to be served in confinement and the remainder to be served on probation. The defendant was also
ordered to pay $17,500 in restitution, a $2,550 fine, and perform 40 hours’ community service after pleading
guilty to identity theft, exploitation of the elderly or disabled, felony theft by taking, and transaction card theft.
An OIG investigation revealed that the defendant stole the Veteran’s personal and financial information while
acting as a caregiver for the Veteran. The defendant subsequently contacted VA and re-directed the Veteran’s VA
compensation benefit payments. To further the scheme, the defendant applied for and received several prepaid
debit cards in the Veteran’s name and used the prepaid debit cards for his personal use. The loss to the Veteran
was $17,908.

Former VA Homeless Grant and Per Diem Program Participant Pleads Guilty to Making False
Statements
A former participant in the VA Homeless Grant and Per Diem program pled guilty to making false statements to
VA. An OIG investigation revealed that the defendant made false representations when applying for a grant to
provide funds for the purchase of property to be used to house indigent Veterans. The defendant later admitted
to keeping $25,000 of the $80,600 provided by VA and failing to make mortgage payments, which resulted in
foreclosure. The defendant also received an additional $280,000 in grant funds for the purchase of an apartment
building to house Veterans and a specialty van to provide transportation for indigent Veterans, neither of which
was purchased.

Health Care Worker Pleads Guilty to Theft
A healthcare worker at a VA contracted facility pled guilty to theft and was sentenced to 30 days’ incarceration,
ordered to have no contact with the Veteran for 10 years, to pay restitution of $9,303, and not to have any
employment (paid or volunteer) with vulnerable adults for 10 years. An OIG and local police investigation
revealed that the defendant stole VA compensation funds from an elderly Veteran’s bank account.

USPS Manager Pleads Guilty to Mail Theft
A USPS maintenance manager pled guilty to mail theft. A VA OIG and USPS OIG investigation revealed that
from April to September 2012 the defendant stole approximately 17 VA parcels of controlled narcotics intended
for disabled Veterans.

Former USPS Employee Sentenced for Drug Theft
A former USPS employee was sentenced to 4 years’ probation after pleading guilty to theft of mail by an
employee. An OIG and USPS OIG investigation revealed that between January 2010 and May 2012 the
defendant stole approximately 52 VA narcotic packages from the mail. The defendant admitted to stealing the
controlled substances for personal use.

Former USPS Employee Pleads Guilty to Mail Theft
A former USPS employee pled guilty to theft of mail by an employee. A VA OIG and USPS OIG investigation
determined that between September 2012 and February 2013 the defendant stole approximately 85 VA drug
packages from a USPS distribution facility. The defendant admitted to stealing the controlled substances for
personal use.




Semiannual Report to Congress                                                                                   |   53
Issue 70 | April 1 – September 30, 2013
Office of
             Investigations
Former United Parcel Service Employee Arrested for Theft of VA Narcotics
A former United Parcel Service (UPS) employee was arrested after being charged with theft of Government
property and possession of a controlled substance. The defendant was caught with a stolen VA narcotic package
by OIG and UPS investigators and admitted to stealing VA narcotics from the Flagstaff, AZ, UPS for personal
use.

Former Employee of a VA Affiliated Non-Profit Research Institute Arrested for Theft
A former employee of a VA affiliated non-profit research institute was arrested for theft from programs receiving
Federal funds. An OIG investigation revealed that the defendant fraudulently opened two corporate accounts
in the name of a VA research group and deposited 20 checks totaling approximately $68,000. When arrested,
the defendant was living approximately 100 miles away from the location of the crime and had obtained
employment and housing using a fictitious name, social security number, date of birth, and passport.

Former Calverton National Cemetery, New York, Mechanic Pleads Guilty to Theft of Workers’
Compensation
A former Calverton National Cemetery, NY, mechanic pled guilty to a criminal information charging him
with theft of Government funds. An OIG investigation revealed that the defendant, who filed a workers’
compensation claim for an on-the-job injury in 2006, was working as a mechanic at an auto body shop.
The earnings from this employment, which were not reported to DOL, Office of Workers’ Compensation
Program, were in excess of $10,000 for a period of 5 months. During this period, the defendant claimed he was
unable to return to work for VA in any capacity. The defendant, who was receiving $3,200 per month in workers’
compensation benefits, is no longer receiving any benefits.


Assaults and Threats Made Against VA Employees
During this reporting period, OIG initiated 32 criminal investigations resulting from assaults and threats made
against VA facilities and employees. Twenty-four defendants were charged with related charges as a result of the
investigations. OIG investigative work resulted in the following:
     • 	 A Veteran was sentenced to 18 months’ incarceration and a $1,855 fine after being convicted at trial of
         disorderly conduct and sexually assaulting two VA staff members at the Great Falls, MT, CBOC. The
         defendant is facing additional charges of sexual assault as a result of this investigation.
     • 	 A Veteran was indicted for felony assault of a Federal officer after assaulting a Reno, NV, VAMC police
         officer. The defendant became upset after learning that his travel pay would not be issued in cash and
         began yelling racial slurs and profanities. VA Police responded and the defendant became combative.
         When the officers attempted to take the Veteran into custody, he punched one of the officers in the face
         and chest.
     • 	 A former Northport, NY, VAMC employee was sentenced to 2 years’ probation after being found guilty at
         trial of assault. An OIG and VA Police Service investigation revealed the defendant assaulted a co-worker
         in a private office at the medical center and caused injuries to the victim’s hand and wrist.
     • 	 A Veteran was indicted for making threats and assault of a Federal employee after assaulting a Poplar
         Bluff, MO, VAMC social worker. VA Police and local police officers responded to the assault and arrested
         the Veteran. After the defendant was taken into custody, VA Police observed evidence of weapons in the
         Veteran’s vehicle. The Veteran had previously made threatening statements that he would bring firearms
         to the medical center and begin shooting VA employees. A shotgun, handgun, over 300 rounds of


54   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                                   Office of
                                                                                                 Investigations
        ammunition, knives, and zip-cuffs were recovered from the defendant’s vehicle. The defendant remains
        in custody pending trial.
     • 	 A Veteran pled guilty to assault of a Federal employee. An OIG and VA Police Service investigation
         revealed that the defendant, an inpatient at the Portland, WA, VAMC, assaulted a nurse and fractured
         her jaw. The defendant remains in custody pending sentencing.
     • 	 A Veteran was arrested for the assault of a Northport, NY, VAMC employee and patient. An OIG and
         VA Police Service investigation revealed that the defendant, while an inpatient, assaulted a VA pharmacy
         technician and a fellow patient, resulting in extensive head injuries to the employee. The defendant
         previously assaulted a VAMC nurse and VA police officer in the emergency room. The defendant was
         criminally charged based on the severity of the injuries sustained by the victims and the subject’s past
         history of violence. The defendant is being held without bail pending a psychiatric evaluation.
     • 	 A Veteran was indicted for the assault of a VA psychiatrist at the Waco, TX, VAMC. An OIG and VA
         Police Service investigation revealed that the defendant choked the doctor while being admitted as a
         psychiatric inpatient.
     • 	 The daughter of a Veteran was sentenced to 12 months’ probation and ordered to receive psychological
         counseling after assaulting a VA police officer at the Bronx, NY, VAMC. An OIG and VA Police
         Service investigation revealed that the defendant and her brother assaulted VA police officers in the
         medical center’s emergency room. One officer required medical attention. The defendant’s brother was
         previously sentenced in this case.
     • 	 A Veteran pled guilty to threatening to murder a Federal official. An OIG and FBI investigation revealed
         that during a VA compensation and pension appointment the defendant discussed his plan to execute a
         General with the Mississippi Army National Guard in Jackson, MS.
     • 	 A former Atlanta, GA, VAMC Compensated Work Therapy Program employee was indicted for making
         terroristic threats. An OIG and VA Police Service investigation revealed that the defendant threatened to
         assault his supervisor after he accused the supervisor of intentionally short-changing his salary. During
         the course of the investigation, the defendant also threatened to shoot law enforcement officers if they
         attempted to initiate contact with him.
     • 	 A Veteran was sentenced to 90 days’ incarceration, $392 in court costs, and ordered to attend
         anger management counseling after being found guilty of the harassment of a VA employee.
         Seventy-six days of the incarceration were suspended contingent upon successful completion of the
         course. Also, the defendant was ordered to avoid contact with the VA employee and to not visit the
         Montgomery, AL, VARO. The OIG investigation determined that the defendant threatened to shoot a VA
         vocational rehabilitation employee.
     • 	 A Veteran was sentenced to time served, 1 year of probation, and ordered not to visit the Memphis, TN,
         VAMC for 3 years after pleading guilty to knowingly and recklessly causing fear of imminent bodily
         injury to another. The defendant was involuntarily committed for a mental evaluation after his arrest.
         An OIG investigation revealed that the defendant harassed and threatened a VA physician after he
         refused to prescribe pain medication to the defendant.
     • 	 A Veteran was sentenced to 10 years’ incarceration (suspended), 3 years’ probation, a $1,500 fine, and
         ordered to have no contact with the VA clinic in Dothan, AL, after pleading guilty to making terroristic
         threats. An OIG investigation revealed that the defendant threatened to use his .45 caliber handgun to
         kill 42 people at the Dothan, AL, CBOC. The initial contact with the defendant at his residence resulted


Semiannual Report to Congress                                                                               |	 55
Issue 70 | April 1 – September 30, 2013
Office of
              Investigations
         in a 2-hour standoff as he barricaded himself in his home with a firearm. The defendant was arrested
         without incident after he attempted to flee from the residence.
     • 	 A Veteran was arrested for making terroristic threats by telephone. An OIG and local sheriff’s
         investigation was initiated after the Veteran called the VA Crisis Hotline and said he had 4 pounds of
         C-4 and ball bearings and that he was going to the Detroit, MI, VARO for payback after being denied
         benefits. Arrest and search warrants were subsequently obtained for the Veteran and his residence. The
         MI State Police Special Weapons and Tactics team executed the entry and took the Veteran, who resisted
         and attempted to flee, into custody. Two shotguns and a 30-06 scoped rifle were recovered from the
         Veteran’s home.
     • 	 A Veteran, upset with his VA medical care, was arrested for making threats. An OIG and FBI
         investigation revealed that the defendant called a U.S. Congressman’s office and threatened to physically
         assault a congressional staff member and a West Palm Beach, FL, VAMC patient advocate.
     • 	 A Veteran was arrested for making a terroristic threat. An OIG investigation revealed that the defendant
         contacted a VA call center and threatened to blow up the Buffalo, NY, VAMC after receiving a collections
         notice for an unpaid bill. The Veteran has a lengthy criminal record and was well known by local
         authorities.
     • 	 A Veteran was indicted for terroristic threats made towards the medical staff at the Atlanta, GA, VAMC.
         An OIG investigation revealed the Veteran threatened to kill the medical staff by shooting them in the
         head if he didn’t receive his 100 percent disability pension.
     • 	 A Veteran was arrested and involuntarily committed for a psychological evaluation after making
         telephonic threats to VA employees. An OIG and local police investigation revealed that the defendant
         repeatedly called the Nashville, TN, VAMC and told staff members that he was going to kill everyone at
         the facility.
     • 	 A Veteran was arrested for aggravated harassment. An OIG and State Police investigation revealed that
         the Veteran made numerous telephonic threats to several employees at a VA call center relating to his
         attempts to obtain various medications, including methadone, from VA.


Fugitive Felons Arrested with OIG Assistance
OIG continues to identify and apprehend fugitive Veterans and VA employees as a direct result of the OIG
Fugitive Felon Program. To date, 51.7 million felony warrants have been received from the National Crime
Information Center and participating states resulting in 64,852 investigative leads being referred to law
enforcement agencies. Over 2,371 fugitives have been apprehended as a direct result of these leads. Since
the inception of the OIG Fugitive Felon Program in 2002, OIG has identified $1.01 billion in estimated
overpayments with an estimated cost avoidance of $1.19 billion. During this reporting period, OIG opened
29 and closed 32 fugitive felon investigations, identifying $57.1 million in estimated overpayments.
OIG investigative work resulted in the arrest of 25 fugitive felons, including 6 VA employees. Apprehension
of VA employees includes the following charges: drug violations, child pornography, felony driving under the
influence, and probation violations. Based on the information provided to OIG, at least 12 additional arrests
were made by other law enforcement agencies.
     • 	 OIG and VA Police Service assisted the local police with the arrest of a Veteran at the Asheville, NC,
         VAMC. The fugitive was wanted for discharging a firearm into an occupied residence and assault with a
         deadly weapon with intent to kill.


56   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                                                     Office of
                                                                                                  Investigations
     • 	 OIG assisted a local sheriff’s office with the arrest of a Loma Linda, CA, VAMC housekeeping supervisor
         wanted for a dangerous drug violation. During a search of the subject incident to the arrest, agents found
         hidden inside the employee’s sock a plastic bag containing a white substance and a glass pipe. A field test
         of the white substance tested positive for methamphetamines. The employee was transported by the local
         sheriff ’s office and a new charge was filed for possession of controlled substances. The employee has an
         extensive drug history and is pending judicial and administrative procedures.
     • 	 A Veteran was arrested at the Atlanta, GA, VAMC on outstanding warrants for aggravated child
         molestation, aggravated sodomy, child molestation, aggravated sexual battery, and incest. A U.S.
         Marshals Fugitive Task Force and local law enforcement arrested the fugitive with the assistance of OIG
         and VA Police Service.
     • 	 A Veteran wanted in Missouri for first degree assault, armed criminal action, and unlawful use of a
         weapon was arrested by local authorities at the Fayetteville, NC, VAMC with the assistance of OIG and
         VA Police Service.
     • 	 Another Veteran wanted for aggravated battery and aggravated assault with a firearm was arrested at the
         West Palm Beach, FL, VAMC with the assistance of OIG and VA Police Service.


Administrative Investigation
OIG’s Administrative Investigations Division independently reviews allegations and conducts administrative
investigations generally concerning high-ranking senior officials and other high profile matters of interest to the
Congress and the Department. During this reporting period, OIG opened nine and closed nine administrative
investigations. The Division investigated 17 allegations, 8 of which were substantiated. This work resulted
in the issuance of one report containing two recommendations for administrative or corrective action. This
investigation concerned Conduct Prejudicial to the Government Veteran Employment Office.

The Administrative Investigations Division issues advisory memoranda when an allegation has been
substantiated and VA needs to take some action, but where the violation does not rise to the level of a formal
recommendation. The Division also issues administrative memoranda in cases where one or more of the
allegations were not substantiated. During this reporting period, the Administrative Investigations Division
issued four advisory memorandums and seven administrative memorandums. OIG also obtained $509,884 in
dollar recoveries.

Former VA Senior Human Resources Official and VA Contractor Misrepresented Veteran Hiring
Results for 2012 VA Hiring Fair in Detroit, Michigan
A former (retired) VA Senior Official and a VA contractor employee knowingly misrepresented the results of the
June 2012 Detroit, MI, VA for Vets Veterans Hiring Fair. Further, the former VA Senior Official did not properly
manage the VA workforce, frequently used obscene and demeaning language, engaged in verbally abusive
behavior toward VA staff and VA contractor employees, and engaged in the appearance of a conflict of interest.
In addition, a contractor received over $500,000 for a data management system that was not designed to capture
accurate data to support VA’s needs.




Semiannual Report to Congress                                                                                 |	 57
Issue 70 | April 1 – September 30, 2013
           Office of
                         Management and Administration
The Office of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efficiency through reliable and timely management and administrative support,
and through products and services that promote the overall mission and goals of OIG.


Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations; provides
strategic, operational, and performance planning; prepares and publishes OIG-wide reports, such as the
Semiannual Report to Congress; develops OIG policies and procedures; and electronically distributes all
OIG oversight reports. The Operations Division also promotes organizational effectiveness and efficiency by
managing all OIG contracting and providing reliable, timely human resources management, and related support
services.


Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efficiency by ensuring the accessibility, usability, and security
of information assets; developing, maintaining, and enhancing the enterprise database application; facilitating
reliable, secure, responsive, and cost-effective access to VA databases and e-mail by all authorized employees;
providing internet document management and control; and providing support to all OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal and
governmental agencies requiring information from VA files. Data Analysis Division products facilitate the
identification of fraud-related activities and support OIG comprehensive initiatives that result in solutions
beneficial to VA.


Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and efficiency
by providing reliable and timely management and administrative support services such as employee travel, credit
card purchases, and property management.


Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of budgetary
formulation and execution services to management and organizational components, including formulation
of submissions and operating plans; monitoring allocations, expenditures, and reserves; conducting financial
analyses; and developing internal budget policies.


Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 9:00 AM to 4:00 PM Eastern Time. OIG receives phone calls,
letters, and e-mails from employees, Veterans, the general public, Congress, GAO, and other Federal agencies
reporting issues of criminal activity, waste, abuse, and mismanagement. During this reporting period, the
Hotline received 14,146 contacts, 616 of which became OIG cases. An additional 384 of the Hotline contacts
became OIG non-case referrals. The Hotline makes non-case referrals to the appropriate VA organization if the
allegation does not rise to the level of a case but appears to warrant VA action. The Hotline also closed

58   |                                                                            VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                                                     Office of
                                                                         Management and Administration
614 cases during this reporting period, substantiating allegations 39 percent of the time. During FY 2013, 

external Hotline cases resulted in 704 administrative sanctions and corrective actions and 

$10 million in monetary benefits. The following cases were initiated as a direct result of Hotline contacts.


Social Worker Falsifies Medical Records and Misuses Government Vehicle
A review by the VA Great Lakes HCS substantiated that a Chicago-area VA social worker systematically created
bogus medical record entries to falsely indicate that he met, or performed services for, 6 Veterans on a total
of 131 occasions between July 2011 and January 2013. The review also found that the social worker used a
Government vehicle without authorization 12 times during FY 2013. As a result, the VAMC initiated action to
remove the individual from Federal service.

Philadelphia VAMC Paid Excessive Charges for Sleep Studies
A review by VISN 4 substantiated that the Philadelphia, PA, VAMC paid $287,958 in excessive charges for sleep
studies by the affiliated Hospital of the University of Pennsylvania for FY 2009 through 2011. The overpayments
occurred, in part, because the University continued to bill VA for studies at a flat annual contract rate, even
though the contract had expired in FY 2008. As a result of the review, the VAMC discontinued services under
the expired contract and initiated collection for the overpayments.

Hotline Review Terminates Compensation for Unsupported Condition
A review conducted by the St. Petersburg, FL, VARO found that a Veteran’s medical records did not support his
claimed disability of Lou Gehrig’s disease, for which he was receiving 100 percent disability compensation since
January 2012. As a result, the VARO terminated the benefits resulting in an estimated cost savings of
$238,859 over a 5-year period.

Hotline Reviews in Minnesota Uncover Improper Receipt of VA Benefits
Hotline reviews by the St. Paul, MN, VARO identified improper payments to two persons that would have
totaled $224,674 over a 5-year period if not reported and stopped. The first case identified a surviving spouse
who improperly continued to receive DIC benefits because she concealed from VA her April 2007
common-law marriage. The second case involved a Veteran who improperly received VA pension benefits
because he concealed from VA his Social Security income beginning in February 2010.

VARO Reduces Compensation for Incarcerated Veteran Following Hotline Tip
A review conducted by the Houston, TX, VARO substantiated that a Veteran receiving disability compensation
did not report his December 2011 incarceration and projected release date of May 2026 to the VARO. The case
resulted in the reduction of his benefits and an estimated 5-year savings of $216,144.




Semiannual Report to Congress                                                                                   |   59
Issue 70 | April 1 – September 30, 2013
                                  Office of
                                          Contract Review
The Office of Contract Review operates under a reimbursable agreement with VA’s OALC to provide preaward,
postaward, and other requested reviews of vendors’ proposals and contracts. In addition, OIG provides advisory
services to OALC contracting activities. OIG completed 52 reviews in this reporting period. The tables that
follow provide an overview of OIG performance during this reporting period.


Preaward Reviews
Preaward reviews provide information to assist VA contracting officers in negotiating fair and reasonable
contract prices and ensuring price reasonableness during the term of the contract. Thirty-four preaward reviews
identified approximately $150 million in potential cost savings during this reporting period. In addition to
Federal Supply Schedule (FSS) and Architecture/Engineering Services proposals, preaward reviews during this
reporting period included seven health care provider proposals, accounting for approximately $38.3 million of
the identified potential savings.

                   Period                   Preaward Reports Issued               Potential Cost Savings
     October 1, 2012 – March 31, 2013                 49                              $505,143,202
     April 1 – September 30, 2013                     34                               $149,913,083
     FY Total                                         83                              $655,056,285


Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including compliance with
the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products. Postaward reviews resulted
in VA recovering contract overcharges totaling over $4.9 million, including approximately $4.4 million related
to Veterans Health Care Act compliance with pricing requirements, recalculation of Federal ceiling prices, and
appropriate classification of pharmaceutical products. Postaward reviews continue to play a critical role in the
success of VA’s voluntary disclosure process. Of the 16 postaward reviews performed, 6 involved voluntary
disclosures. In four reviews, OIG identified additional funds due. VA recovered 100 percent of recommended
recoveries for postaward contract reviews.

                   Period                   Postaward Reports Issued                 Dollar Recoveries
     October 1, 2012 – March 31, 2013                 17                               $12,720,968
     April 1 – September 30, 2013                     16                                $4,940,952
     FY Total                                         33                               $17,661,920




60    |                                                                         VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                                 Office of
                                                                                            Contract Review
Claim Reviews
OIG provides assistance to contracting officers when contractors have filed claims against VA. The objective
of these reviews is to validate the basis of the claim and to determine that the claimed amount is supported
by accounting and other financial records. During this period OIG reviewed two claims and determined that
approximately $192,643 of claimed costs were unsupported and should be disallowed.

                 Period                      Claim Reports Issued               Potential Cost Savings
   October 1, 2012 – March 31, 2013                   2                              $1,860,602
   April 1 – September 30, 2013                       2                               $192,643
   FY Total                                           4                              $2,053,245




Semiannual Report to Congress                                                                            |     61
Issue 70 | April 1 – September 30, 2013
                      Other
                               Signiﬁcant OIG Activities
Congressional Testimony
Deputy Inspector General Testifies on Challenges Facing VA
Richard J. Griffin, Deputy Inspector General, testified before the Subcommittee on Military Construction,
Veterans’ Affairs, and Related Agencies, Committee on Appropriations, United States Senate, on the recent
results and recommendations of OIG reports on VA programs and operations in connection with
VA’s FY 2014 budget request. Specifically, he focused on OIG work in the area of claims processing and access to
health care. Mr. Griffin was accompanied by Ms. Linda A. Halliday, Assistant Inspector General for Audits and
Evaluations (AIGAE), and Dr. John D. Daigh, Jr., Assistant Inspector General for Healthcare Inspections.

AIGAE Discusses OIG’s Recommendations to NCA To Improve Gravesite Reviews
Linda A. Halliday, AIGAE, testified before the Subcommittee on Disability Assistance and Memorial Affairs,
Committee on Veterans’ Affairs, United States House of Representatives, on the results of OIG’s audit of NCA
internal gravesite reviews. She discussed OIG’s findings that NCA’s Phase One review did not identify or report
all misplaced headstones and unmarked gravesites. The audit also reported that NCA’s review lacked controls
to ensure an independent review was conducted; NCA did not allow adequate time or resources to conduct the
review; and cemetery directors lacked updated gravesite layout maps. Ms. Halliday also commended the Under
Secretary for Memorial Affairs for acting immediately when presented with OIG’s findings. Ms. Halliday was
accompanied by Ms. Cherie Palmer, Director of OIG’s Chicago Office of Audits and Evaluations.

OIG Offers Views on Draft Bill That Would Require VA to Report Managers Slow To Implement IG
Recommendations
OIG provided a statement for the record for a hearing before the Subcommittee on Health, Committee on
Veterans’ Affairs, United States House of Representatives, on OIG’s follow-up process and views on a draft
bill that would require the VA Secretary to identify managers who do not implement OIG recommendations
in a timely manner. OIG’s statement explained the process for tracking recommendations and reporting on
recommendations that are not implemented within 1 year. OIG also offered technical corrections to a draft bill
by the Health Subcommittee Chairman.

AIGAE Tells Congress That VA Systems Remain at Risk Due to Weaknesses in IT Security
Linda A. Halliday, AIGAE, testified before the Subcommittee on Oversight and Investigations, Committee on
Veterans’ Affairs, United States House of Representatives, on OIG reports related to the security of
VA’s IT systems and Veterans’ data. Ms. Halliday discussed IT security control weaknesses that OIG has
reported on for over 10 years through the Audit of VA’s Consolidated Financial Statements and in audits
conducted under FISMA, as well as other audits and reviews recently conducted. VA’s decentralized and
complex system infrastructure poses significant challenges to implementing effective security measures.
Until VA fully implements key elements of its information security program and addresses OIG’s outstanding
audit recommendations, VA’s mission-critical systems and sensitive Veterans’ data remain at increased and
unnecessary risk of attack or compromise. Ms. Halliday was accompanied by Ms. Sondra McCauley, Deputy
AIGAE, and Mr. Michael Bowman, Director, OIG’s Information Technology and Security Audits Division.

OIG’s Testimony Outlines VA’s Treatment and Care for Survivors of Military Sexual Trauma and
How VA Can Improve
Dr. Michael L. Shepherd, Senior Physician, OHI, testified before the Subcommittee on Health, Committee on
Veterans’ Affairs, United States House of Representatives, on a December 2012 OIG report dealing with inpatient
and residential programs for female Veterans with conditions related to military sexual trauma (MST).

62   |                                                                         VA Office of Inspector General
                                                                               Issue 70 | April 1 – September 30, 2013
                                                                               Other
                                                                                  Signiﬁcant OIG Activities
His testimony outlined the results of the report, which included program user demographics, VA treatment
prior to admission, referrals to specialized programs, program structure and treatment characteristics, aftercare,
outreach, access, and potential actions to enhance program utilization. To improve service to Veterans, he
recommended that VHA establish a centrally coordinated, comprehensive, and descriptive MST program
resource list; ensure that MST Coordinators have adequate time to fulfill their outreach role; and review existing
travel funding for this population. Dr. Shepherd was accompanied by Ms. Karen McGoff-Yost, Associate
Director, Bay Pines, FL, OHI.

OIG Promises Vigorous Follow Up on Atlanta, Georgia, VAMC MH Services at Senate Veterans’
Affairs Committee Field Hearing
Dr. Michael L. Shepherd, Senior Physician, OHI, testified at a field hearing of the Committee on Veterans’
Affairs, United States Senate, in Atlanta, GA, on two April 2013 OIG reports on MH care at the Atlanta, GA,
VAMC. His testimony outlined the findings of those reports which include deficiencies in the administration of
the acute MH inpatient unit and deficiencies in administration, tracking, and monitoring of contract
MH services and the clinical impact. Dr. Shepherd assured the Committee that OIG will continue to review
actions by the Atlanta VAMC to implement our recommendations. Dr. Shepherd was accompanied by Mr.
Murray Leigh, Director of the Healthcare Financial Analysis Division, OHI.


False Claims Act Settlements
This reporting period, VA received over $7.8 million in funds from settlements in cases filed under the
qui tam provisions of the False Claims Act. The amount represents VA’s damages in four cases involving
off-label marketing, two of which included anti-kickback violations. Another involved the sale of
pharmaceuticals manufactured in unapproved plants, and the last case involved fraudulent billings for care.
The total recovered for VA this fiscal year was over $18.3 million.


American Recovery and Reinvestment Act of 2009 Oversight Activities
Enacted in February 2009, the American Recovery and Reinvestment Act of 2009 (ARRA) requires OIG to
conduct oversight of the VA projects, programs, grants, and initiatives that received a total of $1.4 billion in
funding under the Act. OIG’s program of oversight includes audits, evaluations, investigation, fraud awareness
and prevention training, and other monitoring activities covering the major VA programs that received ARRA
funding. The VA programs and the amounts of their ARRA funding include:
     • 	 $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.
     • 	 $150 million for VHA Grants to States for extended care facilities.
     • 	 $50 million for NCA headstone, marker, gravesite, and monument repairs; NRM, energy, and road repair
         projects; and equipment upgrades.
     • 	 $150 million for VBA claims processing hiring initiative and support of Veterans economic recovery
         payments.
     • 	 $45 million for OIT support of VBA implementation of the new Post-9/11 GI Bill education assistance
         programs for Veterans.

Additionally, the Act provided for an estimated $700 million for the one-time $250 economic recovery payments
to Veterans and their survivors or dependents.

Semiannual Report to Congress                                                                                |	 63
Issue 70 | April 1 – September 30, 2013
Other
         Signiﬁcant OIG Activities
As of September 30, 2013, OIG has expended $2.5 million (the entire $1.0 million OIG received under ARRA
and $1.5 million from regular appropriations) in conducting its comprehensive program of ARRA oversight.
OIG’s ARRA-related accomplishments and activities completed to date include:
     • 	 Issued seven final audit and evaluation reports and one interim advisory report on VA management of
         ARRA program activities.
     • 	 Conducted 622 fraud awareness training and outreach sessions across the country attended by over
         17,250 VA and other officials responsible for managing or overseeing ARRA programs and projects.
     • 	 Opened 529 and closed 425 criminal investigations, including 120 convictions, 188 referrals for monetary
         reclamation, and $91,750 in recoveries related to ARRA-funded programs and projects.
     • 	 Received 64 Hotline complaints of potential fraud or waste related to ARRA programs or projects.
     • 	 Maintains the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides access to the
         VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud prevention training
         materials.

Under ARRA, an employee of any non-Federal employer receiving covered ARRA funds may not be discharged,
demoted, or otherwise discriminated against as a reprisal for disclosing information that the employee
reasonably believes is evidence of: 1) gross mismanagement of an agency contract or grant relating to covered
funds; 2) a gross waste of covered funds; 3) a substantial and specific danger to public health or safety related
to the implementation or use of covered funds; 4) an abuse of authority related to the implementation or use
of covered funds; or 5) a violation of law, rule, or regulation related to an agency contract or grant, awarded or
issued relating to covered funds. Pursuant to the reporting requirements under this provision, OIG conducted
no investigations such as those described above. Consequently, OIG did not request or receive an extension
beyond the 180-day period for such investigations.


Peer and Qualitative Assessment Reviews
The Restoring American Financial Stability Act of 2010, P.L. 111-203, requires VA OIG to report the results of any
peer review conducted of VA OIG’s audit operation by another OIG during the reporting period or to identify
the date of the last peer review conducted by another OIG, in addition to any outstanding recommendations that
have not been fully implemented. On March 21, 2013, DOL OIG completed their quality control peer review
of VA OIG’s system of quality control, and provided a peer review rating of ‘pass.’ There was one finding not
considered of sufficient significance to affect the opinion expressed in their report.

The Act also requires VA OIG to report the results of any peer review it conducted of another OIG’s audit
operation during the reporting period, including any outstanding recommendations that have not been fully
implemented from any peer review conducted during or prior to the reporting period. VA OIG did not complete
any peer reviews on fellow OIGs for the period ending September 30, 2013. VA OIG completed a peer review of
the SSA OIG and issued the final report on August 16, 2012, which contained no recommendations.

Additionally, OIG reports that no Council of the Inspectors General on Integrity and Efficiency (CIGIE)
Qualitative Assessment Review (QAR) was conducted by another OIG during this reporting period. The
last CIGIE QAR conducted on VA OIG’s investigative operations was completed by the Environmental
Protection Agency OIG in March 2013. The final report was issued on August 23, 2013, and contained no



64   |                                                                          VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                                                  Other
                                                                                         Signiﬁcant OIG Activities
recommendations. VA OIG conducted a CIGIE QAR of the SBA OIG’s investigative operations and issued the
final report on December 21, 2011, which contained no recommendations.


Government Contractor Audit Findings
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each IG appointed under
the Inspector General Act of 1978 to submit an appendix on final, completed contract audit reports issued to the
contracting activity that contain significant audit findings—unsupported, questioned, or disallowed costs in an
amount in excess of $10 million, or other significant findings—as part of the Semiannual Report to Congress.
During this reporting period, OIG issued one report under this requirement concerning VA’s Technology
Acquisition Center Contract Operations. A summary of this report is available on page 29, and the report can
be accessed at the following address: http://www.va.gov/oig/pubs/VAOIG-12-02387-343.pdf.


IG Act Reporting Requirements Not Elsewhere Reported
Reviews of Legislative, Regulatory, and Administrative Proposals
OIG is required to review existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy, efficiency, or the prevention and
detection of fraud and abuse in the administration of programs and operations administered or financed by VA.
During this reporting period, OIG reviewed 230 proposals and made 31 comments.

Refusals to Provide Information or Assistance
The Inspector General Act of 1978, as amended, authorizes OIG to have access to all VA records, documents, or
other materials related to VA programs and operations. The Act also authorizes OIG to request information
or assistance from any Federal, State, or local government agency or unit as necessary in order to carry out the
duties and responsibilities prescribed to OIG in the Act. OIG is required to provide a summary of instances
when such information or assistance is refused. OIG reports no such instances occurring during this reporting
period.


Employee Recognition
OIG Special Agents Recognized for Achievements
     • 	 Christopher Algieri, Special Agent, Northeast Field Office, Newark, New Jersey, was recognized by
         the U.S. Attorney’s Office, Eastern District of New York, in March 2013 for his outstanding work
         in the Amgen Inc. investigation that resulted in the successful prosecution of Amgen for the illegal
         misbranding of the drug Aranesp. The global settlement of $762 million represented the single largest
         criminal and civil fraud settlement involving a biotechnology company in U.S. history.
     • 	 Gerard Poto, Special Agent, Northeast Field Office, Newark, New Jersey, and Donna Neves, Resident
         Agent in Charge, Manchester, New Hampshire, received the Boston U.S. Attorney’s Outstanding
         Collaborative Investigation award in May 2013 and the Department of Health and Human Services
         OIG’s Inspector General Cooperative Achievement Award in June 2013 for their work on the U.S. v.
         GlaxoSmithKline, LLC investigation. In July 2012, GlaxoSmithKline agreed to plead guilty and pay
         $3 billion to resolve its criminal and civil liability arising from the company’s unlawful promotion of
         certain prescription drugs, its failure to report certain safety data, and its civil liability for alleged false

Semiannual Report to Congress                                                                                         |	 65
Issue 70 | April 1 – September 30, 2013
Other
         Signiﬁcant OIG Activities
         price reporting practices. As a result, the resolution of this parallel criminal and civil investigation is the
         largest health care fraud settlement in the Department of Justice history and the largest payment ever by
         a drug company.
     • 	 Colin Davis, Special Agent, Southeast Field Office, Bay Pines, Florida, is a member of the Tampa Bay
         Identity Theft Alliance recently recognized by the International Association of Financial Crimes
         Investigators (IAFCI) with the Task Force of the Year Award in August 2013. The IAFCI recognized
         the Tampa Bay Identity Theft Alliance for investigative excellence of financial crimes, outstanding
         public service, and dedication. The Tampa Bay Identity Theft Alliance was formed in July 2012 and
         is comprised of 20 Tampa Bay Federal, state and local law enforcement agencies and prosecutors to
         investigate identity theft crimes and pinpoint vulnerabilities in personal and business transactions.
         Since its inception in July 2012, the Alliance has arrested dozens of individuals and stopped millions of
         dollars in fraudulent tax returns from being approved. Specifically, this award highlighted the arrest of
         12 subjects who committed a combined $8.5 million in tax fraud and who were ultimately sentenced to
         a combined 860 months of incarceration. Successful investigations of thefts of PII from a VA medical
         facility which were used to file fraudulent tax returns were prominent accomplishments by the Alliance.

2013 Council of the Inspectors General for Integrity and Efficiency Award Recipients
     • 	 The Veterans Access to Mental Health Care Team was recognized for the collaborative efforts of the
         Office of Audits and Evaluations and the Office of Healthcare Inspections that determined data reported
         by VHA to Congress on Veterans’ wait times for MH evaluations and treatment were not reliable or
         accurate. The team examined documentation for 700 appointments, interviewed hundreds of schedulers
         and MH providers, reviewed VHA clinic structure and patient flow, and researched private sector
         scheduling practices and metrics. This highly anticipated report was issued in only 4 months from the
         date of the request from Congress and the VA Secretary and led to VHA’s commitment to make major
         changes to its performance metrics, the hiring of over 3,000 MH providers and administrative staff, two
         hearings before the Senate and House Committees on Veterans’ Affairs, and extensive media coverage.
         Team members included Marilyn Barak, Beverly Carter, Lee Giesbrecht, Monika Gottleib, Lance Kramer,
         Brad Lewis, Russell Lewis, Claire McDonald, Karen McGoff-Yost, Daniel Morris, Ken Myers, Carla Reid,
         Larry Reinkemeyer, Jason Schuenemann, Michael Shepherd, Nelvy Viguera-Butler, Sarah White, and
         Oscar Williams.
     • 	 The CJMS Contracting LLC, SDVOSB Fraud Team was recognized for the successful investigation and
         prosecution of two Missouri commercial construction contractors and a VA employee who conspired
         to defraud the SDVOSB Program. The VA OIG team, along with members of the GSA and SBA OIGs,
         collected and analyzed evidence gathered from 23 subpoenas, 5 search warrants, and VA computer
         systems that proved the contractors used a “rent-a-vet” scheme to compete for set-aside Government
         contracts. They further proved that a VA employee improperly steered $3.4 million in contracts to the
         company in exchange for luxury box tickets at sporting events, lunches, and interest-free loans. As
         part of a plea agreement in Federal District Court, one contractor agreed to forfeit $1.5 million and a
         2011 Jaguar Series XKR Model XK. He was sentenced to serve 3 years’ probation and ordered to pay
         $1.55 million in restitution and a $60,000 fine. The other contractor was sentenced to 2 years in prison
         followed by 1 year of probation and ordered to pay a $50,000 fine. The now retired VA employee was
         sentenced to 15 months in prison and 12 months’ probation. The companies and individuals involved
         were debarred from doing business with the Federal government. Team members included Greg
         Billingsley, Sally Stevens, and William Stumme.



66   |                                                                               VA Office of Inspector General
                                                                                     Issue 70 | April 1 – September 30, 2013
                                                                            Other
                                                                                   Signiﬁcant OIG Activities
     • 	 The OIG Reports and Financial Operations Technology Enhancement Team was recognized for
         developing three electronic tracking systems in SharePoint that have significantly improved management
         of report distribution, follow-up on report recommendations, and procurement actions. This 2-year
         effort was undertaken by a multi-disciplinary team from across the Office of Management and
         Administration (OMA) that developed approaches to track report recommendations in an integrated
         system accessible to OMA staff, other OIG directorates, and VA program offices; developed requirements
         pertaining to budget execution, fiscal control, acquisition, IT security, and property management;
         researched methods to publish OIG reports; and tested various prototypes. The new follow-up system
         has improved communication both within the OIG and with VA program offices, eliminated voluminous
         e-mail transmissions, and established real-time visibility on the status of report recommendations. The
         paperless procurement system has simplified the acquisition process for all OIG users and to date has
         processed over 2,500 actions. The electronic report distribution system has reduced the time to publish
         reports and improved coordination between OIG directorates and staff offices. Team members included
         Debra Beatty, Megan Beidler, Joyce Bowman, Jeff Brewer, Mark Cherry, Kimberly Cowins, Jess Del
         Mundo, Quintin Durden, Kara Francis, Jennifer Geldhof, Benny Gelillo, Kathy Hewlett, Ann Hively, Jay
         Johnson, Kyra Moore, Greg Mroz, Jim Schank, and Gracie Turner.
     • 	 The NCA’s Internal Gravesite Review of Headstone and Marker Placement Audit Team was recognized
         for a report that will ensure gravesites in NCA cemeteries are accurately marked and that Veterans
         are honored with final resting places befitting their service to our country. Following the discovery
         that markers were offset by one gravesite at the Fort Sam Houston National Cemetery in San Antonio,
         TX, NCA initiated a review of nearly half of its 3.1 million gravesites to verify the placement of
         gravesite markers where raise and realign projects had been completed. The audit team found that
         NCA’s procedures had not identified and reported all misplaced headstones and unmarked graves,
         and consequently NCA had reported unreliable and understated results to Congress. Recognizing the
         need for urgent corrective actions before NCA embarked on the second phase of its review, the team
         provided the Under Secretary for Memorial Affairs with a Management Advisory Memorandum with
         recommendations to use independent teams rather than local cemetery directors to conduct additional
         reviews. The revised procedures enabled NCA to identify many additional gravesite errors that initially
         went undetected. The final audit report was the subject of a House Committee on Veterans’ Affairs
         hearing in April 2013. Team members included Alicia Castillo-Flores, Joseph DeAntonis, Kevin
         Gibbons, Lee Giesbrecht, Cynnde Nielsen, Cherie Palmer, Maria Stone, Nelvy Viguera-Butler, and Ora
         Young.
     • 	 The Veteran Homelessness Review Team was recognized for a first ever comprehensive analysis of the
         incidence and risk factors of service members for becoming homeless after military service. The team’s
         study involved the analysis of VA and Department of Defense data for a population of almost 500,000
         Veterans who separated from the military from July 2005 to Sept 2006, and followed a group of Veterans
         through treatment records who became homeless after military discharge. The study found that about
         half of the newly homeless became homeless after 3 years from discharge and that the presence of
         mental disorders, including substance-related disorders and/or mental illness, is the strongest predictor
         of becoming homeless. These findings will help VA improve its homeless strategy and program by
         focusing funding and assistance on those Veterans who are at elevated risk for homelessness during a
         window of opportunity for prevention of homelessness. The report was presented at the annual meeting
         of the American Public Health Association, publicized widely to state-level stakeholders by the Army
         OneSource project, and accepted for publication in the American Journal of Public Health. Team


Semiannual Report to Congress                                                                                |	 67
Issue 70 | April 1 – September 30, 2013
Other
         Signiﬁcant OIG Activities
         members included Elizabeth Bullock, Lin Clegg, Nathan McClafferty, Karen McGoff-Yost, Patrick Smith,
         and Jarvis Yu.

OIG Employees Currently Serving on or Returning From Active Military Duty
We extend our thanks to OIG employees listed below who are on or have returned from active military duty.
     • 	 John Moore, a Hotline Analyst at OIG Headquarters, was activated by the Army National Guard in
         March 2013.
     • 	 Kenneth Sardegna, an Auditor at OIG Headquarters, was activated by the U.S. Army in June 2007.
     • 	 Wessley Dumas, a Special Agent in the Little Rock, AR, Office of Investigations, was activated by the
         Army National Guard in July 2012. Wessley returned from active military duty in August 2013.
     • 	 Peter Moore, a Special Agent in the Dallas, TX, Office of Investigations, was activated by the Army
         Reserves in June 2012. Peter returned from active military duty in June 2013.




68   |                                                                           VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                          Appendix A
                                                  List of Reports Issued
                                 Table 1: List of Reports Issued by Type
                     Office of Audits and Evaluations | Audits, Evaluations, and Reviews
                                                                       Dollar Value of Funds
   Issue Date
                                                                  Recommended                      Questioned
   and Report                             Title                                     Agreed to by
                                                                  for Better Use                     Costs
    Number                                                                          Management
                                                                      by OIG
 4/15/2013          Interim Report - Participation in VBA’s
 12-04524-171       Veterans Retraining Assistance Program
 6/25/2013          Review of VA’s Acquisitions Supporting the      $17,500,000      $17,500,000
 13-00644-231       Veteran Employment Services Office
 6/27/2013          VA’s Federal Information Security
 12-01712-229       Management Act Audit for Fiscal Year 2012
 6/28/2013          Review of VA’s Programs for Addressing
 13-01846-235       Climate Change
 8/9/2013           Audit of Non-Purchase Card                     $120,000,000     $120,000,000
 12-01860-237       Micro-Purchases
 8/27/2013          Audit of Foreclosed Property Management
 12-01899-238       Contractor Oversight
 9/4/2013           Audit of VBA’s Pension Payments                $502,000,000     $502,000,000
 12-00181-299
 9/17/2013          Audit of VBA’s Veterans’ Retraining             $12,000,000      $12,000,000
 12-04524-321       Assistance Program Participation
 9/18/2013          Review of Alleged System Duplication in         $13,000,000      $13,000,000
 12-02708-301       VA’s Virtual Office of Acquisition Software
                    Development Project
 9/26/2013          Audit of NCA’s Contracting Practices
 12-00366-339
 9/27/2013    Audit of VA’s Technology Acquisition Center                                          $108,700,000
 12-02387-343 Contract Operations
 9/30/2013    Review of VHA’s Management of Travel,                                                    $17,803
 11-01653-300 Duty Stations, Salaries and Funds in the
              Procurement and Logistics Office
 9/30/2013    Audit of Selected VHA Non-Institutional              $893,500,000     $893,500,000    $13,200,000
 11-00330-338 Purchased Home Care Services
 9/30/2013    Review of VA’s Separately Priced Item                   $1,100,000      $1,100,000      $829,000
 13-00455-345 Purchases for Training Conferences
                                                                  $1,559,100,000 $1,559,100,000    $122,746,803




Semiannual Report to Congress                                                                             |   69

Issue 70 | April 1 – September 30, 2013
Appendix A
     List of Reports Issued

                       Office of Audits and Evaluations | Benefits Inspections
 Issue Date      Number                                           Facility
4/9/2013       12-03475-169   VA Regional Office, Philadelphia, Pennsylvania
4/11/2013      12-04179-167   VA Regional Office, Baltimore, Maryland
4/24/2013      12-04525-170   VA Regional Office, Denver, Colorado
4/29/2013      12-03885-168   VA Regional Office, Boise, Idaho
6/11/2013      12-04328-211   VA Regional Office, Wilmington, Delaware
6/24/2013      13-00367-226   VA Regional Office, Houston, Texas
7/1/2013       12-04456-232   VA Regional Office, Roanoke, Virginia
7/12/2013      13-00586-228   VA Regional Office, San Juan, Puerto Rico
7/29/2013      13-00709-257   VA Regional Office, Jackson, Mississippi
7/30/2013      13-00368-244   VA Regional Office, Waco, Texas
8/8/2013       13-01445-271   VA Regional Office, Milwaukee, Wisconsin
8/28/2013      13-01625-273   VA Regional Office, Newark, New Jersey
8/28/2013      13-00993-274   VA Regional Office, Albuquerque, New Mexico
9/3/2013       12-04326-275   VA Regional Office, Muskogee, Oklahoma
9/9/2013       13-01550-286   VA Regional Office, St. Paul, Minnesota
9/9/2013       13-02257-294   VA Regional Office, Togus, Maine


              Office of Healthcare Inspections | Combined Assessment Program Reviews
 Issue Date      Number                                           Facility
4/4/2013       13-00278-164   Dayton VA Medical Center, Dayton, Ohio
4/12/2013      13-00431-173   William S. Middleton Memorial Veterans Hospital, Madison, Wisconsin
4/12/2013      13-00374-174   Manchester VA Medical Center, Manchester, New Hampshire
5/2/2013       12-03746-161   VA Pittsburgh Healthcare System, Pittsburgh, Pennsylvania
5/9/2013       13-00893-195   VA Texas Valley Coastal Bend Health Care System, Harlingen, Texas
5/20/2013      13-00433-199   Robley Rex VA Medical Center, Louisville, Kentucky
5/20/2013      13-00887-204   Marion VA Medical Center, Marion, Illinois
5/30/2013      13-00378-202   Louis A. Johnson VA Medical Center, Clarksburg, West Virginia
5/30/2013      13-00888-203   VA Southern Nevada Healthcare System, Las Vegas, Nevada
5/30/2013      13-00889-206   Salem VA Medical Center, Salem, Virginia
5/31/2013      13-00376-201   Captain James A. Lovell Federal Health Care Center, North Chicago, Illinois
6/12/2013      13-00432-217   Spokane VA Medical Center, Spokane, Washington
6/13/2013      13-00886-210   VA New Jersey Health Care System, East Orange, New Jersey
6/18/2013      13-00894-216   VA Manila Outpatient Clinic, Manila, Philippines
6/19/2013      13-00274-224   VA Pacific Islands Health Care System, Honolulu, Hawaii
6/20/2013      13-00890-220   Alaska VA Healthcare System, Anchorage, Alaska
7/11/2013      13-00896-234   VA Maryland Health Care System, Baltimore, Maryland


70   |                                                                         VA Office of Inspector General
                                                                               Issue 70 | April 1 – September 30, 2013
                                                                                   Appendix A
                                                                                       List of Reports Issued

                Office of Healthcare Inspections | Combined Assessment Program Reviews
  Issue Date        Number                                              Facility
 7/11/2013        13-01673-240      Tuscaloosa VA Medical Center, Tuscaloosa, Alabama
 7/15/2013        13-00897-242      VA Western New York Healthcare System, Buffalo, New York

 7/18/2013        13-01971-245      James A. Haley Veterans’ Hospital, Tampa, Florida
 7/25/2013        13-01674-256      Sioux Falls VA Health Care System, Sioux Falls, South Dakota

 7/25/2013        13-01672-260      VA Butler Healthcare, Butler, Pennsylvania
 8/5/2013         13-00899-261      Hunter Holmes McGuire VA Medical Center, Richmond, Virginia

 8/7/2013         13-01675-266      Kansas City VA Medical Center, Kansas City, Missouri
 8/7/2013         13-01670-269      Jack C. Montgomery VA Medical Center, Muskogee, Oklahoma

 8/9/2013         13-01671-262      Sheridan VA Healthcare System, Sheridan, Wyoming
 8/16/2013        13-01669-270      Jesse Brown VA Medical Center, Chicago, Illinois

 8/19/2013        13-01972-284      Charlie Norwood VA Medical Center, Augusta, Georgia
 8/26/2013        13-01973-288      Fargo VA Health Care System, Fargo, North Dakota

 8/27/2013        13-01975-292      VA Central California Health Care System, Fresno, California
 9/11/2013        13-02312-304      Cheyenne VA Medical Center, Cheyenne, Wyoming

 9/12/2013        13-01976-312      VA Connecticut Health Care System, West Haven, Connecticut
 9/13/2013        13-02313-310      Amarillo VA Health Care System, Amarillo, Texas

 9/23/2013        13-02316-322      Richard L. Roudebush VA Medical Center, Indianapolis, Indiana
 9/26/2013        13-02315-332      Edward Hines, Jr. VA Hospital, Hines, Illinois

 9/27/2013        13-01974-337      Philadelphia VA Medical Center, Philadelphia, Pennsylvania


             Office of Healthcare Inspections | Community Based Outpatient Clinic Reviews
  Issue Date        Number                                         Reports
 4/11/2013        13-00026-166 Dayton VA Medical Center, Dayton, Ohio
 4/19/2013        12-03853-172 Battle Creek VA Medical Center, Battle Creek, Michigan, and Captain James A.
                               Lovell Federal Health Care Center, North Chicago, Illinois
 4/24/2013        13-00026-176 Central Arkansas Veterans Healthcare System, Little Rock, Arkansas, and G.V.
                               (Sonny) Montgomery VA Medical Center, Jackson, Mississippi
 4/26/2013        13-00026-177 Robley Rex VA Medical Center, Louisville, Kentucky
 5/2/2013         13-00026-185 Manchester VA Medical Center, Manchester, New Hampshire
 5/2/2013         13-00026-189 Northport VA Medical Center, Northport, New York
 5/7/2013         13-00026-190 VA New Jersey Health Care System, East Orange, New Jersey
 5/8/2013         13-00026-191 Cheyenne VA Medical Center, Cheyenne, Wyoming
 5/14/2013        13-00026-196 Edith Nourse Rogers Memorial Veterans Hospital, Bedford, Massachusetts
 5/16/2013        13-00026-197 VA Maine Healthcare System, Augusta, Maine
 5/17/2013        13-00026-198 Sioux Falls VA Health Care System, Sioux Falls, South Dakota
 5/31/2013        13-00026-207 North Florida/South Georgia Veterans Health System, Gainesville, Florida

Semiannual Report to Congress                                                                           |     71
Issue 70 | April 1 – September 30, 2013
Appendix A
     List of Reports Issued

            Office of Healthcare Inspections | Community Based Outpatient Clinic Reviews
 Issue Date      Number                                         Reports
5/31/2013      13-00026-212 Oklahoma City VA Medical Center, Oklahoma City, Oklahoma

6/13/2013      13-00026-213 Central Texas Veterans Health Care System, Temple, Texas, and VA Texas Valley
                            Coastal Bend Health Care System, Harlingen, Texas
6/25/2013      13-00026-223 VA Pacific Islands Health Care System, Honolulu, Hawaii

7/15/2013      13-00026-233 Jesse Brown VA Medical Center, Chicago, Illinois
7/19/2013      13-00026-248 VA Butler Healthcare, Butler, Pennsylvania

7/22/2013      13-00026-251 Edward Hines, Jr. VA Hospital, Hines, Illinois
7/23/2013      13-00026-252 Amarillo VA Health Care System, Amarillo, Texas, and Northern Arizona VA
                            Health Care System, Prescott, Arizona
7/24/2013      13-00026-259 Jack C. Montgomery VA Medical Center, Muskogee, Oklahoma
7/26/2013      13-00026-258 Hunter Holmes McGuire VA Medical Center, Richmond, Virginia

8/15/2013      13-00026-279 VA Pittsburgh Healthcare System, Pittsburgh, Pennsylvania
8/15/2013      13-00026-281 Louis A. Johnson VA Medical Center, Clarksburg, West Virginia

8/19/2013      13-00026-285 Charlie Norwood VA Medical Center, Augusta, Georgia
8/19/2013      13-00026-290 Carl Vinson VA Medical Center, Dublin, Georgia

8/20/2013      13-00026-272 VA Connecticut Healthcare System, West Haven, Connecticut
8/20/2013      13-00026-276 Coatesville VA Medical Center, Coatesville, Pennsylvania

8/21/2013      13-00026-293 VA Central California Health Care System, Fresno, California
8/26/2013      13-00026-280 Philadelphia VA Medical Center, Philadelphia, Pennsylvania

8/29/2013      13-00026-302 Chillicothe VA Medical Center, Chillicothe, Ohio
9/11/2013      13-00026-306 VA Maryland Health Care System, Baltimore, Maryland

9/16/2013      13-00026-317 Fargo VA Health Care System, Fargo, North Dakota
9/18/2013      13-00026-314 James A. Haley Veterans’ Hospital, Tampa, Florida

9/19/2013      13-00026-316 Sheridan VA Healthcare System, Sheridan, Wyoming
9/26/2013      13-00026-327 Chalmers P. Wylie Ambulatory Care Center, Columbus, Ohio



                    Office of Healthcare Inspections | National Healthcare Reviews
 Issue Date       Number                                         Title
4/25/2013      12-01480-183 Combined Assessment Program Summary Report – Evaluation of Quality
                            Management in Veterans Health Administration Facilities Fiscal Year 2012
4/29/2013      13-01742-188 Combined Assessment Program Summary Report – Evaluation of Mental
                            Health Treatment Continuity at Veterans Health Administration Facilities
4/30/2013      13-01744-187 Combined Assessment Program Summary Report – Evaluation of Nurse
                            Staffing in Veterans Health Administration Facilities
5/2/2013       13-01743-192 Combined Assessment Program Summary Report – Evaluation of Moderate
                            Sedation in Veterans Health Administration Facilities



72   |                                                                    VA Office of Inspector General
                                                                          Issue 70 | April 1 – September 30, 2013
                                                                                  Appendix A
                                                                                      List of Reports Issued

                        Office of Healthcare Inspections | National Healthcare Reviews
  Issue Date         Number                                         Title
 6/12/2013        13-01741-215 Combined Assessment Program Summary Report – Evaluation of Colorectal
                               Cancer Screening and Follow-Up in Veterans Health Administration Facilities
 8/1/2013         13-01987-263 Healthcare Inspection – Review of VHA Follow-Up on Inappropriate Use of
                               Insulin Pens at Medical Facilities
 8/1/2013         13-01189-267 Healthcare Inspection – Prevention of Legionnaires’ Disease in VHA Facilities
 8/16/2013        12-00040-268 Vet Center Contracted Care Program Review
 9/11/2013        12-01702-303 Combined Assessment Program Summary Report – Evaluation of Polytrauma
                               Care in Veterans Health Administration Facilities
 9/30/2013        13-00090-346 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


                      Office of Healthcare Inspections | Hotline Healthcare Inspections
  Issue Date        Number                                           Title
 4/11/2013        12-03939-175 Alleged Inappropriate Surveillance James A. Haley Veterans’ Hospital Tampa,
                               Florida
 4/17/2013        12-02955-178 Patient Care Issues and Contract Mental Health Program Mismanagement,
                               Atlanta VA Medical Center, Decatur, Georgia
 4/17/2013        12-03869-179 Mismanagement of Inpatient Mental Health Care, Atlanta VA Medical Center,
                               Decatur, Georgia
 4/23/2013        13-00994-180 Legionnaires’ Disease at the VA Pittsburgh Healthcare System, Pittsburgh,
                               Pennsylvania
 5/1/2013         12-03743-184 Alleged Questionable Surgical Care in a VA Health Care System
 5/9/2013         13-01320-200 Inappropriate Use of Insulin Pens, VA Western New York Healthcare System,
                               Buffalo, New York
 5/13/2013        13-00940-193 Alleged Delays in Notifying Patients of Biopsy Results, W.G. (Bill) Hefner VA
                               Medical Center, Salisbury, North Carolina
 6/27/2013        12-02186-227 Nursing Care in the Community Living Center for Spinal Cord Injury, Louis
                               Stokes VA Medical Center, Cleveland, Ohio
 7/16/2013        12-01344-243 Alleged Inadequate Oversight at a Contracted Homeless Program, VA New
                               Jersey Health Care System, East Orange, New Jersey
 7/18/2013        13-01241-250 Provider Availability, VA Roseburg Healthcare System, Roseburg, Oregon
 7/22/2013        13-01123-249 Quality and Patient Safety Concerns in the CLC, W.G. (Bill) Hefner VA Medical
                               Center, Salisbury, North Carolina
 7/29/2013        13-01988-253 Review of a Patient with Medication-Induced Acute Renal Failure, Amarillo VA
                               Health Care System, Amarillo, Texas
 7/31/2013        13-00696-254 Follow-Up Assessment of Radiation Therapy, VA Long Beach Healthcare
                               System, Long Beach, California
 8/2/2013         13-00670-265 Review of Circumstances Leading to a Pause in Providing Inpatient Care, VA
                               Northern Indiana Healthcare System, Fort Wayne, Indiana


Semiannual Report to Congress                                                                            |     73

Issue 70 | April 1 – September 30, 2013
Appendix A
       List of Reports Issued

                     Office of Healthcare Inspections | Hotline Healthcare Inspections
 Issue Date         Number                                           Title
8/13/2013         13-02235-277 Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound
                               Health Care System, Seattle, Washington
9/3/2013          13-01351-296 Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care
                               System, Seattle, Washington
9/6/2013          12-04631-313 Gastroenterology Consult Delays, William Jennings Bryan Dorn VA Medical
                               Center, Columbia, South Carolina
9/16/2013         13-02599-311 Laboratory Delays and Alleged Staff Training Issues, Memphis VA Medical
                               Center, Memphis, Tennessee
9/17/2013         13-01498-318 An Unexpected Death in a Mental Health Treatment Program, VA New Jersey
                               Health Care System, Lyons, New Jersey
9/18/2013         12-03887-319 Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA
                               Maryland Health Care System, Baltimore, Maryland
9/25/2013         13-01855-336 Quality of Care Issues, Erie VA Medical Center, Erie, Pennsylvania, and VA
                               Pittsburgh Healthcare System, Pittsburgh, Pennsylvania


                           Office of Investigations | Administrative Investigation
 Issue Date         Number                                         Title
6/25/2013
        13-00235-225
 Conduct Prejudicial to the Government, Veteran Employment Services Office,
                                Office of Human Resources and Administration, Washington, DC


                                Office of Contract Review | Preaward Reviews
                                                                                                Savings and
     Issue Date     Number                                 Title
                                                                                               Cost Avoidance
4/16/2013         13-01473-182 Review of Contract Extension Proposal Submitted Under an             $3,736,605
                                FSS Contract
4/23/2013         13-01430-181 Review of Proposal Submitted Under a Solicitation                     $5,956,965
4/30/2013         13-01929-186 Review of Proposal Submitted Under a Solicitation                      $901,441
4/30/2013         13-01472-194 Review of Proposal for Product Additions to an FSS Contract           $8,615,256
5/14/2013         13-00337-208 Review of FSS Proposal Submitted Under a Solicitation                  $143,608
5/16/2013         13-02232-209 Review of FSS Proposal Submitted Under a Solicitation                 $5,211,347
5/22/2013         13-01120-205 Review of Proposal Submitted Under a Solicitation                    $23,921,077
5/22/2013         13-01379-214 Review of Proposal Submitted Under a Solicitation
5/30/2013         13-01359-218 Review of Proposal Submitted Under a Solicitation                      $1,049,934
6/4/2013          13-00482-221 Review of Contract Extension and Production Addition
                                Proposals Submitted Under an FSS Contract
6/4/2013
         13-00844-222
 Review of Contract Extension Proposal Submitted Under an                   $5,494

                                FSS Contract


74     |                                                                     VA Office of Inspector General
                                                                             Issue 70 | April 1 – September 30, 2013
                                                                                     Appendix A
                                                                                         List of Reports Issued

                                   Office of Contract Review | Preaward Reviews
                                                                                                   Savings and
  Issue Date         Number                                    Title
                                                                                                  Cost Avoidance
 6/19/2013        13-01380-230      Review of Proposal Submitted Under a Solicitation
 6/28/2013        13-02582-241      Review of Proposal Submitted Under a Solicitation                 $1,192,800
 7/8/2013         13-01382-246      Review of Proposal Submitted Under a Solicitation
 7/9/2013         13-02250-247      Review of Contract Extension Proposal Submitted Under an          $1,394,290
                                    FSS Contract
 7/16/2013        13-02522-255      Review of FSS Proposal Submitted Under a Solicitation             $1,054,744
 8/6/2013         13-03209-283      Review of FSS Proposal Submitted Under a Solicitation              $115,729
 8/8/2013         13-02231-287      Review of FSS Proposal Submitted Under a Solicitation             $7,410,580
 8/8/2013         13-01314-289      Review of FSS Proposal Submitted Under a Solicitation
 8/13/2013        13-03478-291      Review of Contract Extension Proposal Submitted Under an
                                    FSS Contract
 8/14/2013        13-02956-295      Review of FSS Proposal Submitted Under a Solicitation
 8/20/2013        13-03258-298      Review of Proposal Submitted Under a Solicitation                    $66,619
 8/28/2013        13-03317-282      Review of FSS Proposal Submitted Under a Solicitation            $70,539,634
 8/29/2013        13-03207-305      Review of Proposal for Product Additions to an FSS Contract
 9/10/2013        13-03572-320      Review of FSS Proposal Submitted Under a Solicitation             $1,694,345
 9/13/2013        13-04012-325      Review of Product Additions Submitted Under an FSS
                                    Contract
 9/17/2013        13-03205-329      Review of Contract Extension Proposal Submitted Under an         $10,060,050
                                    FSS Contract
 9/18/2013        13-03388-331      Review of Proposal Submitted Under a Solicitation                 $5,256,601
 9/18/2013        13-03031-333      Review of FSS Proposal Submitted Under a Solicitation
 9/19/2013        13-03261-334      Review of Product Additions Submitted Under an FSS
                                    Contract
 9/19/2013        13-03479-335      Review of FSS Proposal Submitted Under a Solicitation
 9/23/2013        13-03263-328      Review of FSS Proposal Submitted Under a Solicitation               $427,620
 9/24/2013        13-03694-340      Review of FSS Proposal Submitted Under a Solicitation
 9/30/2013        13-02139-353      Review of FSS Contract Extension Proposal Submitted Under         $1,158,344
                                    a Solicitation
                                                                                                    $149,913,083


                                   Office of Contract Review | Postaward Reviews
                                                                                                      Dollar
  Issue Date         Number                                    Title
                                                                                                    Recoveries
 6/4/2013         10-02206-219 Review of Public Law Compliance Issues Under an FSS                           $425
                               Contract


Semiannual Report to Congress                                                                               |   75
Issue 70 | April 1 – September 30, 2013
Appendix A
       List of Reports Issued

                                Office of Contract Review | Postaward Reviews
                                                                                                   Dollar
     Issue Date     Number                                 Title
                                                                                                 Recoveries
6/26/2013         12-00078-236 Review of Compliance with Public Law Under FSS Contracts                   $307
7/23/2013         13-01454-264 Review of Voluntary Disclosure and Refund Offer of Price                $2,435
                               Reductions Under an FSS Contract
8/7/2013          13-00932-278 Review of Drug Pricing Violations of Public Law Under FSS                $15,681
                               Contracts
8/19/2013         13-03779-297 Review of Compliance with Public Law Regarding an                          $1,520
                               Acquisition
9/3/2013          13-01814-309 Review of Compliance with Public Law Under FSS Contracts                   $5,961
9/6/2013          13-03716-315 Review of Overcharges for Late Additions of Covered Drugs                  $7,707
                               Under an FSS Interim Agreement
9/16/2013         13-03751-324 Review of Compliance with Public Law Under FSS Contracts                     $29
9/16/2013         13-03599-326 Review of Public Law Overcharges for the Late Additions of              $278,211
                               Covered Drugs
9/17/2013         09-02278-330 Review of Industrial Funding Fee Compliance
9/24/2013         13-00934-341 Review of Voluntary Disclosure Submitted under FSS                       $93,791
                               Contracts
9/24/2013         12-00440-342 Review of Voluntary Disclosure and Refund Offer under an                $230,407
                               FSS Contract
9/25/2013         13-01036-344 Review of Voluntary Disclosure and Refund Offer Under an                $330,774
                               FSS Contract
9/26/2013         11-01848-347 Review of Compliance with Public Law Under an FSS                       $113,881
                               Contract
9/30/2013         09-03739-323 Review of Self-Audit of Public Law Drug Pricing Compliance            $3,057,200
                               Under Seven FSS Contracts
9/30/2013         13-00913-351 Review of Self-Audit of Public Law Drug Pricing Compliance              $802,623
                               Under an FSS Contract
                                                                                                     $4,940,952


                                  Office of Contract Review | Claim Reviews

                                                                                               Savings and
 Issue Date         Number                                 Title
                                                                                              Cost Avoidance
9/30/2013         13-03755-349 Review of Self-Audit of Public Law Drug Pricing Compliance           $109,128
                               Under an FSS Contract
9/30/2013         13-03755-350 Review of Self-Audit of Public Law Drug Pricing Compliance               $83,515
                               Under an FSS Contract
                                                                                                       $192,643



76     |                                                                    VA Office of Inspector General
                                                                            Issue 70 | April 1 – September 30, 2013
                                                                                       Appendix A
                                                                                              List of Reports Issued

                               Total Potential Monetary Benefits of Reports Issued
                                                     Better Use of    Questioned    Savings and           Dollar
                  Report Type
                                                         Funds           Costs     Cost Avoidance       Recoveries
 Audits, Evaluations, and Reviews                    $1,559,100,000   $122,746,803
 Preaward Reviews                                                                    $149,913,083
 Postaward Reviews                                                                                        $4,940,952
 Claims Reviews                                                                           $192,643
                                                     $1,559,100,000   $122,746,803     $150,105,726       $4,940,952


               Table 2: Resolution Status of Reports with Questioned Costs
                                 Resolution Status                                   Number           Dollar Value

 No management decision made by commencement of reporting period                               0                  $0
 Issued during reporting period                                                                4        $122,746,803
 Total inventory this period                                                                   4       $122,746,803
 Management decisions made during the reporting period
  Disallowed costs (agreed to by management)                                                   4        $122,746,803
  Allowed costs (not agreed to by management)                                                  0                  $0
 Total management decisions this reporting period                                              4        $122,746,803
 Total carried over to next period                                                             0                  $0


           Table 3: Resolution Status of Reports with Recommended Funds
                       To Be Put To Better Use By Management
                                 Resolution Status                                   Number           Dollar Value

 No management decision made by commencement of reporting period                               0                  $0
 Issued during reporting period                                                                7      $1,559,100,000
 Total inventory this period                                                                   7      $1,559,100,000
 Management decisions made during the reporting period
  Disallowed costs (agreed to by management)                                                   7      $1,559,100,000
  Allowed costs (not agreed to by management)                                                  0                  $0
 Total management decisions this reporting period                                              7      $1,559,100,000
 Total carried over to next period                                                             0                  $0

OIG reports that there were no significant revised management decisions made during the reporting period, nor
any significant management decisions with which the Inspector General is in disagreement.



Semiannual Report to Congress                                                                                   |    77
Issue 70 | April 1 – September 30, 2013
 Appendix B
         Unimplemented Reports and Recommendations
Table 1 identifies the number of open OIG reports and recommendations with results sorted by action office.
As of September 30, 2013, there are 223 total open reports and 1,106 total open recommendations. However,
six reports and eight recommendations are counted multiple times in Table 1 because they have actions at more
than one office. Table 2 identifies the 47 reports and 136 recommendations that, as of September 30, 2013,
remain open for more than 1 year. The total monetary benefit attached to these reports is $1,307,917,553.


                        Table 1: Number of Unimplemented OIG
                        Reports and Recommendations by Office

                                                Reports Open More




                                                                                        Total Reports Open
                                                                    Reports Open Less




                                                                                                               Recommendations



                                                                                                                                 Recommendations




                                                                                                                                                   Recommendations
                                                                                                                Open More Than



                                                                                                                                  Open Less Than
                                                   Than 1 Year



                                                                      Than 1 Year




                                                                                                                    1 Year



                                                                                                                                      1 Year



                                                                                                                                                        Open
                                                                                                                                                        Total
Veterans Health Administration                     30                143                173                        71               829               900

Veterans Benefits Administration                     4                 19               23                         10                63                73

National Cemetery Administration                     0                   2               2                          0                 6                 6
Office of Acquisitions, Logistics,
                                                     4                   5               9                         11                11                22
and Construction
Office of Management                                 2                   1               3                         24                 3                27

Office of Information and Technology                 5                   5              10                         13                43                56
Office of Human Resources
                                                     3                   4               7                          7                13                20
and Administration
Office of Operations, Security,
                                                     3                   0               3                          2                 0                 2
and Preparedness (OSP)
Office of General Counsel                            2                   1               3                          4                 2                 6

Chief of Staff                                       0                   1               1                          0                 2                 2
Total                                              53                181                234                       142               972             1,114




78   |                                                                                                       VA Office of Inspector General
                                                                                                             Issue 70 | April 1 – September 30, 2013
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                    Monetary
    Issue                                                                      Responsible
                  Number                            Title                                        Impact of Open
    Date                                                                      Organization(s)
                                                                                                Recommendations
                                    Review of Issues Related to the Loss of
  07/11/06     06-02238-163        VA Information Involving the Identity of        OSP                None
                                            Millions of Veterans
  Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and
  have proper sensitivity level designations, that there is consistency nationwide for positions that are similar
  in nature or have similar access to VA protected information and automated systems, and that all required
  background checks are completed in a timely manner.
                                     Administrative Investigation, Misuse
                                     of Position, Abuse of Authority, and
  08/18/09     09-01123-195             Prohibited Personnel Practices,            OIT                None
                                     Office of Information & Technology,
                                                Washington, DC
  Recommendation 5: We recommend that the Assistant Secretary for Information and Technology confer
  with the Office of Human Resources to determine the appropriate corrective action concerning _______’s
  appointment, to include her appointment at a rate above the minimum, and take such corrective action.
                                   Administrative Investigation, Nepotism,
                                   Abuse of Authority, Misuse of Position,
  08/18/09     09-01123-196          Improper Hiring, and Improperly               OIT                None
                                       Administered Awards, OI&T,
                                             Washington, DC
  Recommendation 6: We recommend that the Assistant Secretary for Information and Technology confer with
  the Office of HR to determine the appropriate corrective action concerning _______’s appointment, to include
  her appointment at a rate above the minimum, and take such action.

  Recommendation 10: We recommend that the Assistant Secretary for Information and Technology confer
  with the Office of HR to determine the appropriate corrective action concerning _______’s improper VA
  appointment, and take such action.

  Recommendation 13: We recommend that the Assistant Secretary for Information and Technology confer
  with the Office of HR to determine the appropriate corrective action concerning _______’s improper VA
  appointment, to include her appointment at a rate above the minimum, and take such action.

  Recommendation 26: We recommend that the Assistant Secretary for Information and Technology confer with
  the Office of HR to determine the appropriate corrective action concerning the improper FCIP [Federal Career
  Intern Program] appointments, failure to provide 2-year formal training programs, and subsequent conversions
  to career-conditional status of _______, and take such action.


Semiannual Report to Congress                                                                                 |     79

Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                  Monetary
     Issue                                                                 Responsible
               Number                           Title                                          Impact of Open
     Date                                                                 Organization(s)
                                                                                              Recommendations
 Recommendation 27: We recommend that the Assistant Secretary for Information and Technology confer with
 the Office of HR to determine whether OI&T managers made additional improper FCIP appointments, failed
 to provide a 2-year formal training program, and subsequently converted employees to career-conditional
 status, and take appropriate corrective action.

 Recommendation 29: We recommend that the Assistant Secretary for Information and Technology confer with
 the Office of HR to determine the appropriate corrective action concerning the improper DHA [Direct Hire
 Authority] appointments of _______ and take such action.

 Recommendation 30: We recommend that the Assistant Secretary for Information and Technology confer with
 the Office of HR to identify any additional improper VA appointments made using DHA, and take appropriate
 corrective action.

 Recommendation 33: We recommend that the Assistant Secretary for Information and Technology ensure that
 a review of OI&T retention incentives is conducted to ensure that they are necessary and support the mission
 and program needs and that they fully comply with law, OPM regulations, and VA policy.

 * OIG disagrees with the Office of General Counsel’s (OGC’s) legal opinions finding that a violation of the
 nepotism statute did not occur and no legal basis exists for collecting funds from individual employees, but
 closed recommendations 1, 3, and 18-24 because OIT is planning no further action in light of OGC’s legal
 opinions. OIG stands by the recommendations, but will not waste any more resources in pursuit of corrective
 action.
                               Review of Brachytherapy Treatment
                                 of Prostate Cancer, Philadelphia,
 05/03/10    09-02815-143                                                       VHA                   None
                               Pennsylvania and Other VA Medical
                                              Centers
 Recommendation 3: VHA should review the controls that are in place to ensure that VA contracts for health care
 comply with applicable laws and regulations, and where necessary, make the required changes in organization
 and/or process to bring this contracting effort into compliance.
                                Review of Federal Supply Schedule
 06/07/10    08-02969-165    621 I--Professional and Allied Healthcare         OALC                   None
                                         Staffing Services
 Recommendation 1: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National
 Acquisition Center] to not award any 621 I contracts unless the Contracting Officer can determine that the
 prices offered are fair and reasonable.




80    |                                                                         VA Office of Inspector General
                                                                               Issue 70 | April 1 – September 30, 2013
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                     Monetary
    Issue                                                                       Responsible
                  Number                            Title                                         Impact of Open
    Date                                                                       Organization(s)
                                                                                                 Recommendations
  Recommendation 2: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to eliminate
  national NTE [not-to-exceed] pricing as a pricing objective, and to establish pricing objectives under 621 I
  contracts that are consistent with the goals of the FSS Program (MFC pricing, or the best pricing to commercial
  customers purchasing under similar terms and conditions as the Government).

  Recommendation 3: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to revise the
  621 I Solicitation’s CSP [Commercial Sales Practices] format to require disclosure of information relevant to
  Recommendation 2.

  Recommendation 4: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to use price
  analysis methodologies that place significant reliance on the 621 I CSP disclosures, once revised.

  Recommendation 5: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to cease using
  comparisons to existing FSS prices and/or national market surveys as methodologies for establishing price
  reasonableness.
                                     VA Has Opportunities to Strengthen
  09/30/10     10-01575-262         Program Implementation of Homeland              OSP               None
                                       Security Presidential Directive 12
  Recommendation 8: We recommend the Assistant Secretary for Operations, Security, and Preparedness finalize
  the VA Directive and VA Handbook defining the roles, responsibilities, and processes for implementation and
  ongoing operations of the HSPD-12 [Homeland Security Presidential Directive 12] Program.
                                     Veterans Benefits Administration
  01/24/11      09-03359-71                                                         VBA           $1,130,000,000
                                 Audit of 100 Percent Disability Evaluations
  Recommendation 7: We recommended the Acting Under Secretary for Benefits conduct a review of all temporary
  100 percent disability evaluations and ensure each evaluation has a future exam date entered in the Veterans’
  electronic records.
                                      Veterans Benefits Administration
  02/18/11      09-03850-99                                                         OIT            $35,000,000
                                    Audit of the Veterans Service Network
  Recommendation 3: We recommend the Assistant Secretary, Office of Information and Technology, define the
  level of effort and apply the resources required to complete data migration for all entitlement programs and
  decommission the Benefits Delivery Network legacy system.




Semiannual Report to Congress                                                                                 |     81
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                    Monetary
     Issue                                                                  Responsible
               Number                           Title                                            Impact of Open
     Date                                                                  Organization(s)
                                                                                                Recommendations
                               Review of VHA Sole-Source Contracts
 07/21/11    09-00981-227                                                        VHA                    None
                                    with Affiliated Institutions
 Recommendation 7: We recommend the Under Secretary for Health develop clear and well defined national
 standard SOWs [statements of work] for each specialty that can be tailored as needed to address specific
 procurement requirements if needed.

 Recommendation 11: We recommend the Under Secretary for Health seek a legislative amendment to
 38 U.S.C. § 8153 and § 7409 to authorize VA to enter into personal services contracts when the services are to be
 provided at a VA facility.
                             Review of Alleged Unauthorized Access to
 07/27/11    10-03516-229                                                        OIT                    None
                                            VA Systems
 Recommendation 5: We recommend the Assistant Secretary for Information and Technology review contractor
 system security controls and practices to ensure compliance with VA’s information security requirements.
                               Audit of National Contract Awards at
 09/02/11    10-01744-265                                                       OALC                    None
                                VA’s National Acquisition Center
 Recommendation 3: We recommend the Executive Director for the Office of Acquisition, Logistics, and
 Construction establishes controls to monitor and ensure the timely completion of the Electronic Contract
 Management System upgrade, including the National Acquisition Center’s Contract Management system
 functions to eliminate the duplication of effort in data entry.
                              Audit of VHA’s Workers’ Compensation
 09/30/11    10-03850-298                                                        VHA               $105,300,000
                                        Case Management
 Recommendation 7: We recommended the Under Secretary for Health ensure facility directors assign adequate
 staff to manage WCP [Workers’ Compensation Program] cases (repeat recommendation for the Department in
 the 2004 VA OIG audit report).
                               Community Based Outpatient Clinic
                              Reviews: Bennington, VT and Littleton,
 11/01/11    11-01406-14                                                         VHA                    None
                               NH; Jamestown and Lackawanna, NY;
                               Hagerstown, MD and Petersburg, WV
 Recommendation 7: We recommended that the copies of Short-Term Fee Basis reports of the Bennington CBOC
 patients are filed or scanned into the medical record.

 Recommendation 11: We recommended that managers establish a process to ensure that patients at the
 Bennington and Littleton CBOCs are notified of mammogram results within the allotted timeframe and that
 notification is documented in the medical record.


82    |                                                                          VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
                                                         Appendix B
                                                             Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                     Monetary
    Issue                                                                       Responsible
                  Number                             Title                                        Impact of Open
    Date                                                                       Organization(s)
                                                                                                 Recommendations
  Recommendation 12: We recommended that managers ensure fee basis mammography results are received and
  scanned into CPRS [Computerized Patient Record System] at the Bennington and Littleton CBOCs.
                                    Community Based Outpatient Clinic
                                  Reviews: Gillette and Powell, WY; Pueblo,
  11/02/11      11-01406-13         CO; Anaheim and Laguna Hills, CA;               VHA               None
                                  Escondido and Oceanside, CA; Lancaster
                                            and Sepulveda, CA
  Recommendation 34: We recommended that the Facility Director and Contracting Officer ensure that there are
  performance incentive/penalty provisions in the contract, particularly those related to VHA quality of medical
  care standards.

  Recommendation 35: We recommended that the VISN Director and VHA Sharing Office take appropriate steps
  to ensure that medical contracting is performed in accordance with applicable laws, regulations, and policies,
  and that interim contracts are approved in advance by VHA’s Medical Sharing Office as required by VA
  Directive 1663.

  Recommendation 36: We recommended that the VISN Director, Contracting Office, and Facility Director take
  the steps necessary to award a long-term contract to obtain required services for the Lancaster CBOC.
                            Healthcare Inspection – Select Patient Care
                             Delays and Reusable Medical Equipment
  01/06/12      11-03941-61                                                         VHA               None
                              Review, Central Texas Veterans Health
                                   Care System, Temple, Texas
  Recommendation 2: We recommended that the Medical Center Director ensure that patients receive timely
  colorectal cancer screening follow-up as required by VHA Directive.
                                   Audit of VA’s Internal Controls Over the
  02/23/12      11-00733-95                                                         VBA               None
                                   Use of Disability Benefits Questionnaires
  Recommendation 2: We recommend the Under Secretary for Benefits develop front-end controls for the disability
  benefits questionnaire process to verify the identity and credentials of private physicians who submit completed
  disability benefits questionnaires, including those entered into the Fast Track Claims Processing System.

  Recommendation 4: We recommend the Under Secretary for Benefits develop controls to electronically capture
  information contained on completed disability benefits questionnaires.

  Recommendation 6: We recommend the Under Secretary for Benefits take steps to improve quality assurance
  reviews by focusing reviews on disability benefits questionnaires that pose an increased risk of fraud.



Semiannual Report to Congress                                                                                 |    83
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                     Monetary
     Issue                                                                   Responsible
               Number                            Title                                            Impact of Open
     Date                                                                   Organization(s)
                                                                                                 Recommendations
                             Combined Assessment Program Review of
 02/29/12    11-03668-107     the VA Gulf Coast Veterans Health Care              VHA                    None
                                    System, Biloxi, Mississippi
 Recommendation 1: We recommended that processes be strengthened to ensure that FPPEs [Focused
 Professional Practice Evaluations] are consistently initiated and completed and that results are reported to the
 Clinical Executive Board.

 Recommendation 4: We recommended that processes be strengthened to ensure that the Medical Records
 Committee provides oversight and coordination of the medical record quality review process and that all services
 and programs are included.

 Recommendation 8: We recommended that processes be strengthened to ensure that patients with positive CRC
 [colorectal cancer] screening test results receive diagnostic testing within the required timeframe.

 Recommendation 9: We recommended that processes be strengthened to ensure that patients are notified of
 diagnostic test results within the required timeframe and that clinicians document notification.

 Recommendation 10: We recommended that processes be strengthened to ensure that patients are notified of
 biopsy results within the required timeframe and that clinicians document notification.

 Recommendation 15: We recommended that processes be strengthened to ensure that pre-sedation assessment
 documentation includes all required elements.
                             Audit of the Management and Acquisition
 03/08/12    11-02254-102                                                         VHA                    None
                                        of Prosthetic Limbs
 Recommendation 2: We recommend the Under Secretary for Health improve the guidance issued to Certified
 Prosthetists for their review of vendor quotes.

 Recommendation 5: We recommend the Under Secretary for Health establish reasonable pricing standards for
 prosthetic limb items that Medicare has yet to classify.

 Recommendation 6: We recommend the Under Secretary for Health identify and assess the adequacy of VA’s
 in-house fabrication capabilities for prosthetic limbs.

 Recommendation 7: We recommend the Under Secretary for Health implement procedures to ensure VISNs
 comply with VHA Handbook 1173.3 and identify an appropriate number of contract vendors needed to provide
 Veterans with prosthetic limbs.




84    |                                                                           VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                                            Appendix B
                                                                Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                    Monetary
    Issue                                                                      Responsible
                  Number                                Title                                    Impact of Open
    Date                                                                      Organization(s)
                                                                                                Recommendations
                                   Healthcare Inspection – Prosthetic Limb
  03/08/12     11-02138-116                                                        VHA                None
                                            Care in VA Facilities
  Recommendation 3: We recommended that the Under Secretary for Health consider Veterans’ concerns with VA
  approval processes for fee-basis and VA contract care for prosthetic services to meet the needs of Veterans with
  amputations.
                                    Community Based Outpatient Clinic
  03/16/12     11-03653-106        Reviews: Durango, CO; Raton and Silver          VHA                None
                                            City, NM; Odessa, TX
  Recommendation 8: We recommended that the ordering practitioners, or surrogate practitioners, communicate
  the STFB [Short-Term Fee Basis] results to the patient within 14 calendar days from the date made available to
  the provider.
                                    Community Based Outpatient Clinic
                                    Reviews: Pensacola (Joint Ambulatory
  03/19/12     11-03653-112         Care Center), FL;  New Braunfels, San          VHA                None
                                   Antonio (North Central Federal Clinic),
                                              and Victoria, TX
  Recommendation 10: We recommended that the JACC [Joint Ambulatory Care Center] CBOC ordering
  providers document in the medical record that they reviewed the STFB imaging report within 14 days from the
  date made available to the provider.

  Recommendation 11: We recommended that the ordering providers, or surrogate providers, at the JACC CBOC
  communicate the STFB results of the imaging report to the patient within 14 days from the date made available
  to the provider.

  Recommendation 12: We recommended that the JACC CBOC establish a process to ensure that patients with
  normal mammogram results are notified of results within the allotted timeframe and that notification is
  documented in the medical record.
                                          Audit of VHA’s Prosthetics Supply
  03/30/12     11-00312-127                                                        VHA             $35,500,000
                                              Inventory Management
  Recommendation 2: We recommended the Under Secretary for Health collaborate with the VA Office of
  Information and Technology to develop a detailed plan of the steps needed to replace Prosthetics Inventory
  Package and Generic Inventory Package with a comprehensive modern inventory system, including milestones
  for deliverables and a methodology for tracking progress.




Semiannual Report to Congress                                                                                 |      85
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                     Monetary
     Issue                                                                   Responsible
               Number                            Title                                            Impact of Open
     Date                                                                   Organization(s)
                                                                                                 Recommendations
 Recommendation 4: We recommended the Under Secretary for Health collaborate with the Executive Director,
 Office of Acquisition, Logistics, and Construction, to develop a VA Acquisition Academy curriculum and
 certification program for prosthetic supply inventory managers that includes training on the inventory
 management practices and techniques discussed in this report.

 Recommendation 5: We recommended the Under Secretary for Health revise the Veterans Health
 Administration’s Inventory Management Handbook to require at least one prosthetic supply inventory manager
 from each VA medical center to attend VA’s Acquisition Academy’s Supply Chain Management School and
 become Certified VA Supply Chain Managers.

 Recommendation 6: We recommended the Under Secretary for Health establish a mechanism to identify surgical
 device implants stored in VA medical center inventories, perform cost/benefit analyses of using consignment
 agreements to procure identified surgical device implants, and when determined to be cost effective, establish
 surgical device implant consignment agreements.

 Recommendation 7: We recommended the Under Secretary for Health discontinue using the metric of comparing
 prosthetic excess supply inventory and budgets and establish a mechanism to ensure VA medical centers submit
 the prosthetic inventory performance metrics required by the Veterans Health Administration’s Inventory
 Management Handbook.

 Recommendation 9: We recommended the Under Secretary for Health establish policies and procedures
 requiring Veterans Integrated Service Network Prosthetic Representatives to conduct cyclical reviews at VA
 medical centers within their jurisdiction to evaluate prosthetic supply inventory management practices and
 provide a comprehensive written report detailing the evaluation results to the Prosthetic and Sensory Aids
 Service Central Office and Veterans Integrated Service Network and VA medical center directors.
                              Combined Assessment Program Review
 04/18/12    12-00371-157     of the William Jennings Bryan Dorn VA               VHA                    None
                             Medical Center, Columbia, South Carolina
 Recommendation 11: We recommended that processes be strengthened to ensure that patients with positive CRC
 screening test results receive diagnostic testing within the required timeframe.
 04/19/12    11-04081-142      Audit of VA’s Duty Station Assignments            OHRA                 $1,355,355
 Recommendation 2: We recommend the Assistant Secretary for Human Resources and Administration issue
 policy requiring that at least annually, managers are notified of their employees’ duty station assignments and
 validate the assignments.




86    |                                                                           VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                     Monetary
    Issue                                                                     Responsible
                  Number                            Title                                         Impact of Open
    Date                                                                     Organization(s)
                                                                                                 Recommendations
  Recommendation 3: We recommend the Assistant Secretary for Human Resources and Administration establish
  an oversight mechanism to ensure that at least annually, managers are notified of their employees’ duty station
  assignments and validate the assignments.

  Recommendation 5: We recommend the Assistant Secretary for Human Resources and Administration establish
  a control mechanism to provide annual notification to supervisors regarding the requirement to submit a
  Request for Personnel Action, Standard Form 52, if an employee’s duty station changes.
                                     Review of Veterans’ Access to Mental
  04/23/12     12-00900-168                                                        VHA                  None
                                                 Health Care
  Recommendation 1: We recommend the Under Secretary for Health revise the current full mental health
  evaluation measurement to ensure the measurement is calculated to reflect the veteran’s wait time experience
  upon contact with the mental health clinic or the veteran’s referral to the mental health service from another
  provider to the completion of the evaluation.

  Recommendation 2: We recommend the Under Secretary for Health reevaluate alternative measures or
  combinations of measures that could effectively and accurately reflect the patient experience of access to mental
  health appointments.

  Recommendation 3: We recommend the Under Secretary for Health conduct a staffing analysis to determine if
  mental health staff vacancies represent a systemic issue impeding the Veterans Health Administration’s ability to
  meet mental health timeliness goals, and if so, develop an action plan to correct the impediments.

  Recommendation 4: We recommend the Under Secretary for Health ensure that data collection efforts related
  to mental health access are aligned with the operational needs of relevant decision makers throughout the
  organization.
                              Community Based Outpatient Clinic
  05/01/12     11-03655-170 Reviews: Virginia Beach (Norfolk-Virginia              VHA                  None
                             Beach), VA; Bellevue, KY; Hamilton, OH
  Recommendation 1: We recommended that the Norfolk-Virginia Beach CBOC establish diabetic patient referral
  guidelines based on foot risk factors in accordance with VHA policy and that clinicians document education of
  foot care to diabetic patients in CPRS.




Semiannual Report to Congress                                                                                   |     87
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                        Table 2: Unimplemented OIG Reports and
                        Recommendations More Than 1 Year Old
                                                                                                       Monetary
     Issue                                                                     Responsible
               Number                             Title                                             Impact of Open
     Date                                                                     Organization(s)
                                                                                                   Recommendations
                              Combined Assessment Program Summary
 05/22/12    12-01531-187       Report – Enteral Nutrition Safety in                VHA                    None
                              Veterans Health Administration Facilities
 Recommendation 2: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that facilities’ policies and practices address all VHA-required EN [enteral
 nutrition] elements.

 Recommendation 3: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that EHR [electronic health record] documentation consistently includes all
 VHA-required EN elements.
                                Audit of VA Regional Offices’ Appeals
 05/30/12    10-03166-75                                                            VBA                    None
                                       Management Processes
 Recommendation 1: We recommended the Under Secretary for Benefits identify and request the staffing
 resources needed to meet Veterans Benefits Administration’s processing goals and conduct de novo reviews on all
 appeals.

 Recommendation 2: We recommended the Under Secretary for Benefits revise productivity standards for
 decision review officers assigned to appeal processing to limit credit to actions that progress the appeal such as
 Notices of Disagreement, issuance of Statements/Supplemental Statements of the Case, conducting requested
 hearings, and certification of appeals.

 Recommendation 3: We recommended the Under Secretary for Benefits implement criteria requiring appeals
 staff to initiate a review or development for Notices of Disagreement and certified appeals within 60 days of
 receipt.

 Recommendation 4: We recommended the Under Secretary for Benefits revise current policy to require de novo
 reviews on all appeals.
                           Combined Assessment Program Review
 06/14/12    12-00885-200 of the Alexandria VA Health Care System,                  VHA                    None
                                     Pineville, Louisiana
 Recommendation 1: We recommended that processes be strengthened to ensure that patients with positive CRC
 screening test results receive diagnostic testing within the required timeframe.

 Recommendation 2: We recommended that processes be strengthened to ensure that patients are notified of
 biopsy results within the required timeframe and that clinicians document notification.




88    |                                                                             VA Office of Inspector General
                                                                                    Issue 70 | April 1 – September 30, 2013
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                   Monetary
    Issue                                                                     Responsible
                  Number                            Title                                       Impact of Open
    Date                                                                     Organization(s)
                                                                                               Recommendations
  Recommendation 10: We recommended that processes be strengthened to ensure that normal test results are
  consistently communicated to patients within the specified timeframe.
                                  Combined Assessment Program Review of
  06/19/12     12-00881-203        the New Mexico VA Health Care System,          VHA                 None
                                         Albuquerque, New Mexico
  Recommendation 1: We recommended that processes be strengthened to ensure that pre-sedation assessment
  documentation includes all required elements.

  Recommendation 8: We recommended that processes be strengthened to ensure that patients with positive
  CRC screening test results receive diagnostic testing within the required timeframe and that EHRs contain
  documentation of testing or reasons why testing was not done.

  Recommendation 13: We recommended that processes be strengthened to ensure that the EHR Committee
  provides consistent oversight and coordination of EHR quality reviews and that EHR quality reviews are
  analyzed and trended.

  Recommendation 14: We recommended that processes be strengthened to ensure that EHR reviews include all
  providers and all required elements and that the copy and paste functions are monitored.
                                     Community Based Outpatient Clinic
  07/03/12     11-03655-214         Reviews Fort Smith, AR; Lafayette, LA;        VHA                 None
                                            Denton and Tyler, TX
  Recommendation 3: We recommended that the Lafayette CBOC clinicians document education of preventative
  foot care to diabetic patients in CPRS.
                                  Combined Assessment Program Review of
  07/06/12     12-00709-211       the Washington, DC, VA Medical Center,          VHA                 None
                                             Washington, DC
  Recommendation 4: We recommended that processes be strengthened to ensure that quarterly peer review
  reports are submitted to the Medical Executive Committee.

  Recommendation 6: We recommended that the facility develop a Code Blue Committee policy and that processes
  be strengthened to ensure that actions recommended by the committee are implemented and evaluated for
  effectiveness.

  Recommendation 7: We recommended that processes be strengthened to ensure that the Medical Record
  Committee provides oversight and coordination of medical record quality reviews and monitors the copy and
  paste functions.


Semiannual Report to Congress                                                                                 |   89
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                   Monetary
     Issue                                                                 Responsible
               Number                           Title                                           Impact of Open
     Date                                                                 Organization(s)
                                                                                               Recommendations
                              Combined Assessment Program Review
 07/27/12    12-00882-232     of the Martinsburg VA Medical Center,             VHA                    None
                                    Martinsburg, West Virginia
 Recommendation 1: We recommended that processes be strengthened to ensure that all discharged MH [mental
 health] patients who are on the high risk for suicide list receive follow-up at the required intervals and that
 compliance be monitored.
                              Audit of ADVANCE and the Corporate
 08/02/12    11-02433-220      Senior Executive Management Office              OHRA                    None
                                    Human Capital Programs
 Recommendation 3: We recommended the Assistant Secretary for Human Resources and Administration
 improve the management of ADVANCE interagency agreement terms by developing processes to collect timely
 and complete information including copies of signed interagency agreements.
                          Combined Assessment Program Review of
 08/13/12    12-01874-245 the VA North Texas Health Care System,                VHA                    None
                                      Dallas, Texas
 Recommendation 4: We recommended that processes be strengthened to ensure that EHR quality reviews
 include all services and programs.

 Recommendation 19: We recommended that processes be strengthened to ensure that pre-sedation assessment
 documentation includes all required elements.
                                Healthcare Inspection – Emergency
 08/15/12    11-04090-253       Department Delays – Memphis VA                  VHA                    None
                                  Medical Center, Memphis, TN
 Recommendation 1: We recommended that the Facility Director take appropriate action to reduce ED
 [emergency department] LOS [length of stay].

 Recommendation 2: We recommended that the Facility Director ensure that ultrasound services for ED patients
 are readily available by in-house or on-call staff 24 hours a day as required.

 Recommendation 3: We recommended that the Facility Director ensure the accuracy of data entered in EDIS
 [Emergency Department Integrated Software] and VistA related to ED visits.




90    |                                                                         VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                    Monetary
    Issue                                                                     Responsible
                  Number                            Title                                        Impact of Open
    Date                                                                     Organization(s)
                                                                                                Recommendations
                                    Healthcare Inspection – Evaluation of
  08/16/12     11-01406-247         Community Based Outpatient Clinics,            VHA                  None
                                              Fiscal Year 2011
  Recommendation 4: We recommended that the Under Secretary for Health, in conjunction with VISN and
  facility senior managers, ensure that practitioners document a justification for the use of STFB care in the
  medical record, specifically at urban CBOCs.

  Recommendation 5: We recommended that the Under Secretary for Health, in conjunction with VISN and
  facility senior managers, ensure there is documentation in the medical record that the patient received written
  notification STFB consult approval, specifically at urban CBOCs.

  Recommendation 10: We recommended that the Under Secretary for Health, in conjunction with VISN and
  facility senior managers, implement measures to minimize IT network space vulnerabilities in accordance with
  VA policy.
                                      Review of Enterprise Technology
                                  Solutions, LLC Compliance with Service-
  08/20/12     12-01235-132                                                        VHA                  None
                                  Disabled Veteran-Owned Small Business
                                    Program Subcontracting Limitations
  Recommendation 6: We recommend that the Under Secretary for Health implement mandatory training
  requirements for program offices to ensure requirements are not written to preclude competition or give former
  VA employees an unfair advantage.
                                    Community Based Outpatient Clinic
  08/23/12     12-00574-238        Reviews: Homestead and Key West, FL;            VHA                  None
                                    Hopkinsville, KY; McMinnville, TN
  Recommendation 13: We recommended that the Facility Director determines, with the assistance of the Regional
  Counsel, the extent and collectability of the overpayments made since the inception of the contract.
                              Community Based Outpatient Clinic
  08/27/12     12-00575-255 Reviews: Payson and Show Low, AZ; Long                 VHA                  None
                             Beach (Cabrillo) and Laguna Hills, CA
  Recommendation 1: We recommended that the Show Low clinicians document, in CPRS, a complete foot
  screening for diabetic patients.

  Recommendation 2: We recommended that the Payson and Show Low clinicians document, in CPRS, a risk level
  for diabetic patients in accordance with VHA policy.



Semiannual Report to Congress                                                                                    |   91
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                     Monetary
     Issue                                                                   Responsible
               Number                            Title                                            Impact of Open
     Date                                                                   Organization(s)
                                                                                                 Recommendations
 Recommendation 14: We recommended that the VAMC Director ensures that access to MH services at the
 Payson CBOC complies with VHA directives.
                            Community Based Outpatient Clinic
 09/07/12    12-00577-273 Reviews: Wilmington, NC; Columbus, GA;                  VHA                    None
                            Goose Creek, SC; and Savannah, GA
 Recommendation 1: We recommended that Columbus CBOC clinicians document a risk level for diabetic
 patients in CPRS in accordance with VHA policy.
                                 Healthcare Inspection – Consultant
                               Responses, Nurse Staffing, Deep Dives,
 09/26/12    12-00828-287                                                         VHA                    None
                               and Communication, VA Illiana Health
                                   Care System, Danville, Illinois
 Recommendation 1: We recommended that the Facility Director ensure that mental health consults are
 answered and documented within the timeframe specified by the referring provider.
                                Inspection of the VA Regional Office
 09/27/12    12-00241-296                                                         VBA                    None
                                          Cleveland, Ohio
 Recommendation 1: We recommend the Cleveland VA Regional Office Director conduct refresher training on the
 proper processing of traumatic brain injury claims involving coexisting mental conditions.

 Recommendation 2: We recommend the Cleveland VA Regional Office Director ensure compliance with
 requirements for using the Control of Veterans Records System application.
                                 Review of the Enhanced Use Lease
 09/28/12    12-00375-290       between the Department of Veterans             OM/OGC                    None
                               Affairs and Veterans Development, LLC
 Recommendation 4: We recommend that the Executive in Charge for the Office of Management and Chief
 Financial Officer convene an independent group to determine the appropriateness and the legal sufficiency of
 the Brecksville EUL [Enhanced Use Lease] and service agreements contained in the EUL, particularly in light
 of the indictment of Michael Forlani and the suspension of VetDev [Veterans Development, LLC] and other
 entities identified in the indictment, and take appropriate action to include long and short term plans, including
 the renegotiation of the terms and conditions of the agreements for the administration building and the parking
 garage.




92    |                                                                           VA Office of Inspector General
                                                                                  Issue 70 | April 1 – September 30, 2013
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                       Monetary
    Issue                                                                       Responsible
                  Number                           Title                                            Impact of Open
    Date                                                                       Organization(s)
                                                                                                   Recommendations
  Recommendation 5: We recommend that the Executive in Charge for the Office of Management and Chief
  Financial Officer make a referral to the VA’s Procurement Executive for a determination whether any of the
  service agreements constitute an unauthorized commitment and, if so, take appropriate action to rectify the
  problem.

  Recommendation 6: We recommend that the Executive in Charge for the Office of Management and Chief
  Financial Officer immediately determine what services VOA is actually performing and which services VA
  employees are performing and what services, if any, VA needs from VOA [Volunteers of America]. Consideration
  should be given to simply leasing the existing space, with VA employees providing all the services, or relocating
  the domiciliary.

  Recommendation 8: We recommend that the Executive in Charge for the Office of Management and Chief
  Financial Officer take immediate steps to identify the security requirements for the administration building,
  parking, and domiciliary space and develop a plan of action to ensure the safety and security of VA employees,
  Veterans, and their families.
                             Review of Open Market Purchases under
                               VA’s Pharmaceutical Prime Vendor
  09/28/12     12-01012-298                                                      VHA/OALC                 None
                            Contract Number V797P-1020 Awarded to
                                     McKesson Corporation
  Recommendation 2: We recommend that the Under Secretary for Health seek legislative changes to revise the
  annual FCP [Federal Ceiling Price] implementation date from January 1st to February 1st of each year to
  provide ample time to process the Non-FAMP [Non-Federal Average Manufacturer’s Price] data.

  Recommendation 7: We recommend that the Principal Executive Director for Acquisition, Logistics, and
  Construction determine the feasibility of creating an electronic interface to allow the price files to be updated
  with the vendor supplied Excel spreadsheets to eliminate the necessity for manually entering prices.

  Recommendation 8: We recommend that the Principal Executive Director for Acquisition, Logistics, and
  Construction seek legislative changes that would require manufacturers/dealers/resellers to offer generics on
  contracts.

  Recommendation 10: We recommend that the Under Secretary for Health and the Principal Executive Director
  for Acquisition, Logistics, and Construction require the PPV [Pharmaceutical Primve Vendor] to update its
  ordering system interface to work with the CMOPs’ [Consolidated Mail Outpatient Pharmacies’] system and
  require all facilities, including the CMOPs, to use McKesson Connect when placing orders in the future.




Semiannual Report to Congress                                                                                         |   93
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                   Monetary
     Issue                                                                 Responsible
               Number                           Title                                           Impact of Open
     Date                                                                 Organization(s)
                                                                                               Recommendations
 Recommendation 15: We recommend that the Under Secretary for Health and the Principal Executive Director
 for Acquisition, Logistics, and Construction conduct a study to determine the impact TAA [Trade Agreements
 Act] has in restricting access to generic pharmaceuticals and to what extent waivers or regulatory changes are
 necessary to ensure adequate product availability.
                                 Review of Alleged Delays in VA
 09/30/12    12-00165-277                                                       OSP                    None
                               Contractor Background Investigations
 Recommendation 2: We recommend the Assistant Secretary for Operations, Security, and Preparedness in
 conjunction with the Assistant Secretary for Information Technology, implement a central case management
 system to automate the background investigation process and effectively monitor VA contractor status and
 associated contract costs during the background investigation process.
                              Administrative Investigation of the FY        OALC/OM/
 09/30/12    12-02525-291     2011 Human Resources Conferences in           OIT/OHRA/                $762,198
                                       Orlando, Florida                        OGC
 Recommendation 6: We recommended the VA Secretary confer with Human Resources officials outside VA
 Central Office’s Office of Human Resources Management and attorneys in the Office of General Counsel to
 determine the appropriate administrative action to take against Ms. Dudley and ensure that action is taken.

 Recommendation 7: We recommended the VA Secretary confer with Human Resources officials outside VA
 Central Office’s Office of Human resources Management and attorneys in the Office of General Counsel to
 determine the appropriate administrative action to take against ________ and ensure that action is taken.

 Recommendation 14: We recommended the VA Secretary confer with Human Resources officials outside VA
 Central Office’s Office of Human Resources Management and attorneys in the Office of General Counsel to
 determine the appropriate administrative action to take against Ms. Dudley and ensure that action is taken.

 Recommendation 19: We recommended the VA Secretary establish a policy that VA will no longer solicit lodging
 accommodation upgrades as part of contracts.

 Recommendation 20: We recommended the VA Secretary modify VA procedures to include a requirement for a
 detailed spend plan to ensure cost estimates are reasonable.

 Recommendation 21: We recommended the VA Secretary implement policy to ensure conference managers
 obtain subsequent authorization from the Chief of Staff or the Deputy Secretary once they determine estimated
 costs have been exceeded or other major changes occur.




94    |                                                                         VA Office of Inspector General
                                                                                Issue 70 | April 1 – September 30, 2013
                                                       Appendix B
                                                          Unimplemented Reports and Recommendations

                           Table 2: Unimplemented OIG Reports and
                           Recommendations More Than 1 Year Old
                                                                                                     Monetary
    Issue                                                                     Responsible
                  Number                          Title                                           Impact of Open
    Date                                                                     Organization(s)
                                                                                                 Recommendations
  Recommendation 22: We recommended the VA Secretary require an after-action report be provided to the Chief
  of Staff or the Deputy Secretary identifying planned-versus-actual costs, including justifications for significant
  differences.

  Recommendation 23: We recommended the VA Secretary issue policy outlining requirements for authorizing,
  justifying, and conducting pre-planning site visits for conferences.

  Recommendation 24: We recommended the VA Secretary establish requirements to support major conferences
  with contracting officers and other support resources to ensure conferences and the supporting acquisitions are
  planned and managed in accordance with applicable regulations.

  Recommendation 25: We recommended the VA Secretary establish budgetary controls to ensure centralized
  accounting for individual conference expenditures.

  Recommendation 26: We recommended the VA Secretary ensure conference budgets are authorized and
  monitored to ensure appropriate expenditures.

  Recommendation 27: We recommended the VA Secretary establish controls to ensure senior officials exercise
  their responsibility and accountability for prudent management of conference funds.

  Recommendation 28: We recommended the VA Secretary require travelers and approvers to comply with the
  requirement to not incur hotel taxes in states which offer tax exemption to the Government.

  Recommendation 29: We recommended the VA Secretary require conference planning committees to identify, by
  name, individuals needed onsite for conference support before or after the conference and that this designation
  be provided to the traveler for inclusion in their travel receipts.

  Recommendation 30: We recommended the VA Secretary require travelers and approving officials to comply
  with the requirement to include a cost comparison when choosing to use a privately owned vehicle instead of a
  government contracted mode of transportation.

  Recommendation 34: We recommended the VA Secretary require that all VA program offices (Administrations,
  Boards, Centers, and Offices) that plan meetings, conferences, or events involving more than 50 staff identify and
  clearly state all event requirements to minimize contract modifications.

  Recommendation 35: We recommended the VA Secretary develop a mechanism to ensure that commitments,
  expenditures, and combined liabilities exceeding $25,000 receive a legal and technical review.




Semiannual Report to Congress                                                                                   |      95
Issue 70 | April 1 – September 30, 2013
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and
                       Recommendations More Than 1 Year Old
                                                                                                    Monetary
     Issue                                                                  Responsible
               Number                            Title                                           Impact of Open
     Date                                                                  Organization(s)
                                                                                                Recommendations
 Recommendation 36: We recommended the VA Secretary ensure a Price Negotiation Memorandum be used to
 document negotiated agreements to minimize the possibility of future claims against the Government and to
 obtain a clear understanding from the contractor that all costs have been fully considered.

 Recommendation 38: We recommended the VA Secretary ensure that only authorized contracting personnel
 make commitments or changes that affect price, quality, quantity, delivery, or other terms and conditions of a
 contract.

 Recommendation 39: We recommended the VA Secretary ensure contract modifications are completed timely.

 Recommendation 40: We recommended the VA Secretary establish oversight mechanisms to eliminate excessive
 and wasteful conference expenditures of public funds.

 Recommendation 42: We recommended the VA Secretary take action to ratify any legal agreements made by
 VA employees where there was no previous authority to commit payments for goods and/or services with the
 Marriott.

 Recommendation 43: We recommended the VA Secretary establish an effective cost system for credit card
 purchases that appropriately assigns costs to individual major VA events.

 Recommendation 47: We recommended the VA Secretary ensure VA Learning University employees are trained
 on purchase card policies related to splitting purchases.

 Recommendation 48: We recommended the VA Secretary ensure supervisors have the required documentation
 prior to approving purchase card transactions.

 Recommendation 49: We recommended the VA Secretary require the Department to accomplish a special review
 of purchase card transactions made in support of VA Learning University conferences.
     Total                                                                                        $1,307,917,553




96    |                                                                          VA Office of Inspector General
                                                                                 Issue 70 | April 1 – September 30, 2013
Online Av
       Availab
           lability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiannual-reports.asp

To access other OIG reports, visit: http://www.va.gov/oig/publications/




Addition
 dditional C
           Coopies
Copies of this report are available to the public. Written requests should be sent to:

                                     Office of Inspector General (53B)
                                     Department of Veterans Affairs
                                        810 Vermont Avenue, NW
                                          Washington, DC 20420




Automatic No
          Notification
            tifications
OIG offers a free subscription service that provides automatic notifications by e-mail when new reports
or other information is posted to the OIG web site. You may specify that you would like to receive
notification of all OIG reports or only certain types of OIG reports. In addition, you may change your
preferences or unsubscribe at any time. To receive e-mail notifications of additions to the OIG web site,
go to: http://www.va.gov/oig/email-alerts.asp and click on “Sign up to receive e-mail updates.”

You can also sign up to receive OIG’s RSS feeds by visiting: http://www.va.gov/oig/rss/




Cover photos courtesy of the Department of Veterans Affairs.

                Department of Veterans Affairs




                                                                                                                 VA OIG Semiannual Report to Congress	
                     Office of Inspector General

                          Semiannual Report to Congress
                                 Issue 70 | April 1–September 30, 2013




Help VA’s Secretary ensure the integrity of departmental operations by reporting suspected criminal activity,
misconduct, waste, abuse, mismanagement, and safety issues to the Inspector General Hotline. Callers can
             remain anonymous. For more information, visit: http://www.va.gov/oig/hotline.

                                   Mail:	 VA Inspector General Hotline (53E)
                                          810 Vermont Avenue, NW
                                          Washington, DC 20420




                                                                                                                Issue 70 | April 1–September 30, 2013

                                 E-Mail: vaoighotline@va.gov
                              Telephone: (800) 488-8244
                                    Fax: (202) 495-5861
